APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A En Banc Opinion in the United States
Court of Appeals for the Fourth
Circuit, No. 19-2273
(June 7, 2021) . . . . . . . . . . . . . . . . App. 1
Appendix B En Banc Judgment in the United
States Court of Appeals for the Fourth
Circuit, No. 19-2273
(June 7, 2021) . . . . . . . . . . . . . . . App. 84
Appendix C Opinion in the United States Court of
Appeals for the Fourth Circuit,
No. 19-2273
(August 14, 2020) . . . . . . . . . . . . App. 86
Appendix D Judgment in the United States Court
of Appeals for the Fourth Circuit, No.
19-2273
(August 14, 2020) . . . . . . . . . . . App. 153
Appendix E Memorandum Opinion and Order in
the United States District Court for
the Middle District of North Carolina
Denying Intervention
(June 3, 2019) . . . . . . . . . . . . . . App. 155

ii
Appendix F Memorandum Opinion and Order
Denying Renewed Motion to Intervene
in the United States District Court for
the Middle District of North Carolina
(November 7, 2019). . . . . . . . . . App. 184
Appendix G Statutory Provisions Involved . . App. 195
Fed. R. Civ. P. 24 . . . . . . . . . . . App. 195
N.C.G.S.A. § 1-72.2 . . . . . . . . . . App. 197
N.C.G.S.A. § 114-2 . . . . . . . . . . App. 199
N.C.G.S.A. § 120-32.6 . . . . . . . . App. 203

App. 1

APPENDIX A
ON REHEARING EN BANC
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-2273
[Filed June 7, 2021]
_______________________________________________
NORTH CAROLINA STATE CONFERENCE
OF THE NAACP; CHAPEL HILL-CARRBORO
NAACP; GREENSBORO NAACP; HIGH POINT
NAACP; MOORE COUNTY NAACP; STOKES
COUNTY BRANCH OF THE NAACP; WINSTON
SALEM-FORSYTH COUNTY NAACP,
Plaintiffs – Appellees,
v.
PHILIP E. BERGER, in his official capacity
as President Pro Tempore of the North Carolina
Senate; TIMOTHY K. MOORE, in his official
capacity as Speaker of the North Carolina House
of Representatives,
Appellants,
and

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

App. 2
)
)
)
)
)
)
)
)
)
)
)
)
)
)
Defendants – Appellees.
)
_______________________________________________ )
KEN RAYMOND, in his official capacity as a
member of the North Carolina State Board of
Elections; STELLA ANDERSON, in her official
capacity as Secretary of the North Carolina
State Board of Elections; DAMON CIRCOSTA,
in his official capacity as Chair of the North
Carolina State Board of Elections; JEFFERSON
CARMON III, in his official capacity as a member
of the North Carolina State Board of Elections;
DAVID C. BLACK, in his official capacity as a
member of the North Carolina State Board of
Elections,

Appeal from the United States District Court for the
Middle District of North Carolina at Greensboro.
Loretta C. Biggs, District Judge.
(1:18-cv-01034-LCB-LPA)
Argued: December 7, 2020

Decided: June 7, 2021

Before GREGORY, Chief Judge, and WILKINSON,
NIEMEYER, MOTZ, KING, AGEE, KEENAN, WYNN,
DIAZ, FLOYD, THACKER, HARRIS, RICHARDSON,
QUATTLEBAUM, and RUSHING, Circuit Judges.
Affirmed by published opinion. Judge Harris wrote the
majority opinion, in which Chief Judge Gregory and
Judges Motz, King, Keenan, Wynn, Diaz, Floyd, and
Thacker joined. Judge Wilkinson wrote a dissenting
opinion. Judge Niemeyer wrote a dissenting opinion.
Judge Quattlebaum wrote a dissenting opinion, in

App. 3
which Judges Niemeyer, Agee, Richardson, and
Rushing joined.
ARGUED: Peter A. Patterson, COOPER & KIRK
PLLC, Washington, D.C., for Appellants. Stephen K.
Wirth, ARNOLD & PORTER KAYE SCHOLER LLP,
Washington, D.C.; James Wellner Doggett, NORTH
CAROLINA DEPARTMENT OF JUSTICE, Raleigh,
North Carolina, for Appellees. ON BRIEF: David H.
Thompson, Nicole J. Moss, Haley N. Proctor, Nicole
Frazer Reaves, COOPER & KIRK PLLC, Washington,
D.C.; Nathan A. Huff, PHELPS DUNBAR LLP,
Raleigh, North Carolina, for Appellants. Joshua H.
Stein, Attorney General, Olga E. Vysotskaya de Brito,
Special Deputy Attorney General, Paul M. Cox, Special
Deputy Attorney General, NORTH CAROLINA
DEPARTMENT OF JUSTICE, Raleigh, North
Carolina, for Appellees Damon Circosta, Stella E.
Anderson, David C. Black, Ken Raymond, and
Jefferson Carmon III. Irving Joyner, Cary, North
Carolina; Penda D. Hair, Washington, D.C., Caitlin A.
Swain, FORWARD JUSTICE, Durham, North
Carolina; John C. Ulin, Los Angeles, California, James
W. Cooper, Jeremy C. Karpatkin, Andrew T. Tutt,
Jacob Zionce, ARNOLD & PORTER KAYE SCHOLER
LLP, Washington, D.C., for Appellees North Carolina
State Conference of the NAACP, Chapel Hill-Carrboro
NAACP, Greensboro NAACP, High Point NAACP,
Moore County NAACP, Stokes County Branch of the
NAACP, and Winston Salem-Forsyth County NAACP.

App. 4
PAMELA HARRIS, Circuit Judge:
In this appeal, we are asked to decide whether the
leaders of the North Carolina House and Senate are
entitled to intervene, on behalf of the State of North
Carolina, in litigation over the constitutionality of the
State’s voter-ID law. What makes this case unusual is
that North Carolina’s Attorney General, appearing for
the State Board of Elections, already is representing
the State’s interest in the validity of that law, actively
defending its constitutionality in both state and federal
court. Nevertheless, the legislative leaders have moved
twice before the district court to intervene so that they
also can speak for the State, insisting that this case
requires not one but two representatives of the State’s
interest. Twice, the district court rejected these
requests.
We see no abuse of discretion in that decision. At
this point in the proceedings, the legislative leaders
may assert only one interest in support of intervention:
that of the State of North Carolina in defending its
voter-ID law. It follows that they have a right to
intervene under Rule 24(a)(2) of the Federal Rules of
Civil Procedure only if a federal court first finds that
the Attorney General is inadequately representing
that same interest, in dereliction of his statutory
duties – a finding that would be “extraordinary.” See
Planned Parenthood of Wis., Inc. v. Kaul, 942 F.3d 793,
801 (7th Cir. 2019). After reviewing the district court’s
careful evaluation of the Attorney General’s litigation
conduct, we are convinced that the court did not abuse
its discretion in declining to make that extraordinary
finding here. Because that is enough to preclude

App. 5
intervention as of right under Rule 24(a)(2), and
because we similarly defer to the district court’s
judgment denying permissive intervention under Rule
24(b), we affirm the district court.
I.
A.
In December 2018, the North Carolina General
Assembly passed Senate Bill 824, “An Act to
Implement the Constitutional Amendment Requiring
Photographic Identification to Vote” (“S.B. 824”). After
the House and Senate overrode a veto by North
Carolina Governor Roy Asberry Cooper III, S.B. 824
was enacted on December 19, 2018, as North Carolina
Session Law 2018-144.
This new voter-ID law requires, subject to some
exceptions, that individuals voting either in person or
by absentee ballot present one of ten forms of
authorized photographic identification. See 2018 N.C.
Sess. Laws 144, § 1.2(a). To make that easier, the law
charges county boards of elections with providing
qualifying ID cards free of charge, and provides a
mechanism for those without ID to vote by provisional
ballot. See id. §§ 1.1(a), 1.2(a). Along with these
voter-ID provisions, S.B. 824 also expands the number
of partisan poll observers, as well as the grounds any
individual voter can raise to challenge another voter’s
ballot. See id. §§ 3.1(c), 3.3.
On December 20, 2018 – the day after the law’s
enactment – the North Carolina State Conference of
the NAACP and several of the state’s local NAACP
branches (collectively, “the NAACP”) filed suit

App. 6
challenging S.B. 824. The complaint named as
defendants Governor Cooper and several members of
the North Carolina State Board of Elections
(collectively, “the State Board”), all in their official
capacities. The NAACP alleged that S.B. 824 has a
disparate impact on African American and Latino
residents of North Carolina, resulting in “effective
denial of the franchise and dilution of minority voting
strength” in violation of Section 2 of the Voting Rights
Act, 42 U.S.C. § 1973. J.A. 30. The complaint also
alleged that several provisions of S.B. 824 intentionally
discriminate against African American and Latino
voters in violation of the Fourteenth and Fifteenth
Amendments of the U.S. Constitution. The NAACP
requested declaratory relief and an injunction against
the implementation of the challenged provisions.
B.
In this appeal, we consider two successive requests
by North Carolina’s legislative leaders to intervene to
defend against the NAACP’s challenge to S.B. 824. The
procedural history is complicated. But it also is
necessary to understand the posture of this appeal and
the resulting limits on our jurisdiction, so we describe
it in some detail.
1.
In January of 2019, Philip E. Berger, the President
Pro Tempore of the North Carolina Senate, and
Timothy K. Moore, the Speaker of the North Carolina
House of Representatives, filed their first intervention
motion, seeking to intervene on behalf of the North
Carolina General Assembly to defend S.B. 824. The

App. 7
state legislative leaders – whom we refer to as “the
Leaders” – claimed entitlement to intervene as of right
under Federal Rule of Civil Procedure 24(a)(2), and in
the alternative asked for permission to intervene under
Rule 24(b). The NAACP opposed the motion, and the
Governor and the State Board, through the Attorney
General as counsel, took no position.
In this first motion, the Leaders purported to speak
on behalf of the General Assembly, rather than the
State of North Carolina as a whole. That status, the
Leaders argued, gave them a protectable interest
justifying intervention as of right under Rule 24(a)(2).
As the Leaders explained, a North Carolina statute,
recently enacted, provides that they “jointly have
standing to intervene on behalf of the General Assembly
as a party in any judicial proceeding challenging a
North Carolina statute,” N.C. Gen. Stat. § 1-72.2(b)
(emphasis added), and “request[s]” that federal courts
permit participation by both the State’s legislative and
executive branches in cases challenging the validity of
state law, id. § 1-72.2(a). According to the Leaders, the
General Assembly’s “institutional interest in seeing
that [its] enactments are not ‘nullified’” thus satisfied
Rule 24(a)(2)’s interest requirement. J.A. 113–14
(quoting Ariz. State Legis. v. Ariz. Indep. Redistricting
Comm’n, 576 U.S. 787, 803 (2015)).
Moreover, the Leaders continued, that interest was
“not adequately represented” already by the existing
defendants – the Governor and the State Board,
through the Attorney General – for purposes of Rule
24(a)(2)’s adequacy prong. Pointing to past statements
opposing voter-ID laws by the Governor and Attorney

App. 8
General, as well as their activity in litigation over
previous voter -ID laws in North Carolina, the Leaders
claimed that the defendants “cannot be trusted to
defend S.B. 824 in the same, rigorous manner as
Proposed Intervenors – and very well might not defend
the law at all.” J.A. 117.
The district court denied the Leaders’ motion on
June 3, 2019, finding that the Leaders did not meet
the requirements for either mandatory or permissive
intervention. See N.C. State Conf. of the NAACP v.
Cooper, 332 F.R.D. 161, 171, 173 (M.D.N.C. 2019)
(“NAACP I”). The court first rejected the NAACP’s
threshold argument that the Leaders lacked Article III
standing. Because the Leaders sought to intervene only
as defendants, the court concluded, and were not
themselves invoking the court’s jurisdiction, it was not
incumbent on them to establish Article III standing.
See id. at 165. Acknowledging that courts are divided
on this question, the district court found no “Fourth
Circuit case setting forth such a requirement” and so
“decline[d] to impose” one itself. Id.
The court turned then to intervention as of right, for
which a movant must demonstrate: “(1) an interest in
the subject matter of the action; (2) that the protection
of this interest would be impaired because of the
action; and (3) that the applicant’s interest is not
adequately represented by existing parties to the
litigation.” Id. at 165 (quoting Teague v. Bakker, 931
F.2d 259, 260–61 (4th Cir. 1991)). The Leaders could
not satisfy those requirements, the district court
concluded, mostly because the existing defendants,

App. 9
through the Attorney General, already were actively
defending S.B. 824.
As to the interest prong, the court held that, at least
while the Governor and the State Board remained in
the case, the Leaders did not have a significantly
protectable interest in likewise defending the statute’s
legality. Id. at 168. The court distinguished cases in
which state legislators were permitted to intervene in
defense of a statute “[w]hen it became apparent that
neither the [state] Attorney General nor the named
defendants would defend the statute,” id. at 167
(quoting Karcher v. May, 484 U.S. 72, 75 (1987)); here,
by contrast, the state defendants, represented by the
Attorney General, already were defending against the
NAACP’s challenge to S.B. 824. The court recognized
North Carolina’s “public policy” in favor of intervention
by the Leaders to represent the interests of the General
Assembly, id. at 166–67 (quoting N.C. Gen. Stat.
§ 1-72.2(a)), but explained that intervention as of right
under Rule 24(a)(2) remains subject to federal-law
requirements, see id. at 167.
As to the adequacy prong, the district court held
that because the Attorney General already was
defending the lawsuit on behalf of the state defendants,
the Leaders would be required to “mount a strong
showing of inadequacy” to overcome a “presumption of
adequate representation.” Id. at 169 (quoting Stuart v.
Huff, 706 F.3d 345, 352 (4th Cir. 2013)). The Leaders
could not make that showing, the court concluded. The
defendants already had moved to dismiss the NAACP’s
complaint, and there was no record evidence suggesting
that the Governor, the State Board, or the Attorney

App. 10
General had abdicated their responsibility to defend
the law. See id. at 169–71.
The court also denied the Leaders’ request for
permissive intervention under Federal Rule of Civil
Procedure 24(b). Id. at 173. The intervention of
additional defendants, the court found, would delay
litigation of the case, “detract[ing] from, rather than
enhanc[ing], the timely resolution, clarity, and focus” of
the proceedings. Id. at 172. Moreover, the court found,
intervention likely would prejudice the plaintiffs,
requiring the NAACP to “address dueling defendants,
purporting to all represent the interest of the State,
along with their multiple litigation strategies.” Id.
The district court entered its denial of the Leaders’
motion without prejudice. Id. at 173. Clarifying its
disposition, the court indicated that it would entertain
a renewed request for intervention “should it become
apparent during the litigation” that the state
defendants, through the Attorney General, “no longer
intend to defend this lawsuit.” Id. Barring any such
change in circumstances, however, the Leaders’
participation would be limited to amicus curiae briefs,
which would allow the Leaders to bring to the court’s
attention any “unique contention” or argument not
raised by the Attorney General. Id.
The Leaders did not appeal the district court’s order
denying their motion to intervene.
2.
Instead, six weeks later, the Leaders filed their
second, renewed motion for intervention, again seeking
intervention both as of right and by permission. The

App. 11
Leaders acknowledged that the court already had
denied those requests. But the court’s order, the
Leaders believed, was “not necessarily its final word on
the matter,” given its stated willingness to entertain a
new motion if the Attorney General stopped defending
the suit. J.A. 477.
Much of the Leaders’ renewed case for intervention
repeated arguments the district court already had
rejected. But the Leaders also made two new points
especially relevant here. First, the Leaders claimed
that a recent Supreme Court decision, Virginia House
of Delegates v. Bethune-Hill, 139 S. Ct. 1945 (2019),
had “clarified” the precise nature of the interests they
sought to represent in litigation over S.B. 824. J.A. 485.
In Bethune-Hill, the Leaders explained, the Supreme
Court confirmed that a state may designate the
legislature to serve as the state’s own agent in federal
litigation; and in its state statutes, the Leaders
continued, North Carolina had done just that,
designating them, by virtue of their positions in the
legislature, as representatives of the State of North
Carolina’s interest in the validity and enforcement of
its laws. The Leaders thus claimed, for the first time,
to represent two different interests in defending S.B.
824: the distinct interest of the General Assembly, on
which they had relied before, and now the interests of
the State of North Carolina as well.
Second, the Leaders contended that the contingency
the district court had envisioned in its first order had
come to pass, because months of litigation in the
district court and parallel state proceedings had made
clear that the Attorney General was not vigorously

App. 12
defending S.B. 824. In the federal case, the Leaders
argued, the Attorney General, though winning
dismissal of the Governor from the case, had argued
only for abstention on federalism grounds and failed to
develop the factual record through expert reports. And
in the state-court case, Holmes v. Moore, No.
18-CVS-15292 (N.C. Super. Ct.) – in which the Leaders,
too, were named as defendants – the Attorney General
had moved to dismiss too few of the complaint’s counts
and been insufficiently aggressive as to discovery and
its opposition to a preliminary injunction. All told, the
Leaders concluded, the Attorney General’s performance
showed that he could not be trusted to defend S.B. 824,
clearing what they called the “minimal” hurdle of Rule
24(a)(2)’s adequacy prong. J.A. 491 (quoting Trbovich
v. United Mine Workers of Am., 404 U.S. 528, 538 n.10
(1972)).
Two months after this second motion to intervene,
but before the district court had ruled on it, the
Leaders sought to accelerate the process with a ruling
from our court. On the theory that the district court
had “de facto denied” their motion by not acting on it,
the Leaders filed an interlocutory appeal and
petitioned for a writ of mandamus. In October of 2019,
we dismissed the appeal for lack of jurisdiction, given
the absence of a ruling by the district court, and denied
the mandamus petition.
A month later, the district court denied the Leaders’
motion, finding that their renewed case for
intervention was no more convincing than their first.
N.C. State Conf. of the NAACP v. Cooper, No.
1:18CV1034, 2019 WL 5840845, at *1 (M.D.N.C. Nov.

App. 13
7, 2019) (“NAACP II”). Crucially for our purposes, the
court refused to revisit arguments made by the Leaders
in their first motion and rejected by the court in its
first order. Because the Leaders had not timely
appealed its prior order, the district court held, that
order “remain[ed] undisturbed” and its rulings had
become “the law of this case.” Id. at *1–2. The court’s
decision thus focused on whether the Leaders had
“presented evidence, newly available, that speaks to
the narrow exception outlined in its prior order”:
whether the Attorney General, on behalf of the State
Board, had “in fact declined to defend” S.B. 824. Id. at
*2.
First, however, the district court briefly addressed
the Supreme Court’s Bethune-Hill decision and
reaffirmed its view that the Leaders had no protectable
interest in defending S.B. 824 so long as the Attorney
General was doing so. The court acknowledged that
under Bethune-Hill, North Carolina undoubtedly has
the “prerogative to ‘designate agents to represent [it] in
federal court.’” Id. at *2 n.3 (quoting Bethune-Hill, 139
S. Ct. at 1951). But the district court found it “far from
clear” that North Carolina law in fact had authorized
the Leaders to defend the State’s interests in court
alongside the State’s Attorney General – who was
expressly charged with “appear[ing] for the State.” Id.
(quoting N.C. Gen. Stat. § 114-2). So the question
remained, the district court concluded, whether the
Attorney General continued to provide an adequate
defense of S.B. 824.
Surveying the new evidence cited by the Leaders,
the district court determined that the State’s interests

App. 14
already were adequately represented by the State
Board and the Attorney General, precluding
intervention as of right under Rule 24(a)(2). In the
federal court proceedings, the district court
emphasized, the State Board consistently had denied
any substantive allegation of unconstitutionality, had
moved to dismiss the suit on federalism grounds, and
had filed an “expansive” brief opposing the NAACP’s
request for a preliminary injunction. Id. at *3. And the
story in the Holmes state-court litigation – to the
extent it was relevant to the adequacy of the Attorney
General’s federal-court representation – was the same:
At most, the Leaders had identified “strategic
disagreements” with the Attorney General, whose
approach “fell well within the range of reasonable
litigation strategies.” Id.
As for permissive intervention, the court found its
earlier judgment prescient. Since its last order, the
court noted, the Leaders had “prematurely” filed a
renewed motion to intervene, improperly appealed
before any denial had been entered, and unsuccessfully
sought the “extraordinary remedy of mandamus.” Id. at
*4. This litigation conduct confirmed that the Leaders’
participation as parties would “unnecessarily
complicate and delay” the progress of the case, and the
court found no basis for reversing its earlier denial of
permissive intervention. Id.
3.
Immediately after this second order denying
intervention – but five months after the first – the
Leaders filed a notice of appeal to this court. On
appeal, the NAACP continued to oppose the Leaders’

App. 15
efforts to intervene. The State Board, through the
Attorney General, again took no position on permissive
intervention, but argued that intervention as of right is
unnecessary because it is adequately representing any
interest the Leaders may have in the case.
In August of 2020, a panel of this court held that
the district court abused its discretion in denying the
Leaders’ renewed motion for intervention, vacated the
district court’s order, and remanded for reconsideration
of the Leaders’ request. N.C. State Conf. of the NAACP
v. Berger, 970 F.3d 489 (4th Cir.), reh’g en banc
granted, 825 F. App’x 122 (4th Cir. 2020) (mem.). Upon
petitions for rehearing by the NAACP and the State
Board, we vacated the panel opinion and now consider
the case en banc.
There is one final turn in the procedural history of
this case. In December of 2019 – while the Leaders’
appeal from the district court’s second order was
pending – the district court ruled for the NAACP and
preliminarily enjoined S.B. 824’s enforcement. See N.C.
State Conf. of the NAACP v. Cooper, 430 F. Supp. 3d
15, 54 (M.D.N.C. 2019). The State Board, represented
by the Attorney General, promptly appealed that
decision, and we allowed the Leaders to intervene in
that appeal. In December of 2020 – while the question
of intervention was under en banc reconsideration – we
ruled for the State Board, holding that the district
court had abused its discretion in issuing the
preliminary injunction. See N.C. State Conf. of the
NAACP v. Raymond, 981 F.3d 295, 311 (4th Cir. 2020).
A district court trial on the merits, originally scheduled
for January 2021, now has been postponed pending the

App. 16
resolution of
intervention.

this

separate

appeal

regarding

II.
We begin with the scope of our appellate
jurisdiction. Given the course of proceedings in the
district court, we conclude that we have power to
review only those questions resolved in the district
court’s second order denying intervention, as that is the
only final order timely appealed to this court.
Subject to certain exceptions not applicable here, 28
U.S.C. § 1291 authorizes us to review only “final
decisions of the district courts.” Microsoft Corp. v.
Baker, 137 S. Ct. 1702, 1707 (2017) (quoting 28 U.S.C.
§ 1291). For the purposes of this final-judgment rule, a
“district court’s denial of a motion to intervene is
‘treated as a final judgment that is appealable.’” Sharp
Farms v. Speaks, 917 F.3d 276, 289 (4th Cir. 2019)
(quoting Bridges v. Dep’t of Md. State Police, 441 F.3d
197, 207 (4th Cir. 2006)). This designation makes
sense: “[F]rom the perspective of a disappointed
prospective intervenor, the denial of a motion to
intervene is the end of the case,” even as proceedings
continue in the district court with the original parties.
Driftless Area Land Conservancy v. Huebsch, 969 F.3d
742, 745 (7th Cir. 2020) (citation omitted). It follows
that if a district court denies a motion to intervene,
then a would-be intervenor must notice an appeal
within 30 days of the entry of that final order. See 28
U.S.C. § 2107(a). If, on the other hand, no timely
appeal is taken, then we will be left without
jurisdiction to review the court’s order. See Sharp

App. 17
Farms, 917 F.3d at 289 (noting that failure to timely
appeal denial of intervention is jurisdictional).
That is just what happened here. The district court
denied the Leaders’ first motion to intervene on June 3,
2019. The Leaders did not appeal that order within 30
days of its entry, so the district court’s order became
“final and conclusive” when the time to appeal expired.
See Old Dominion Tr. Co. v. First Nat’l Bank of Oxford,
260 F. 22, 28 (4th Cir. 1919); see also 15B Charles Alan
Wright, Arthur R. Miller & Edward H. Cooper, Federal
Practice & Procedure Jurisdiction § 3914.18 (2d ed.
Oct. 2020 update) (“Failure to appeal denial of
intervention upon entry of the order may forfeit the
right to review . . . .”). And, critically, the Leaders’
second and renewed motion to intervene does not save
their failure to appeal the denial of the first. As
appellate courts have recognized, “once a conclusive
resolution has been reached[,] . . . a renewed motion for
the same relief, or a belated request for
reconsideration, does not reopen the time for appeal.”
Fairley v. Fermaint, 482 F.3d 897, 901 (7th Cir. 2007);
see also United States v. Boone, 801 F. App’x 897, 904
(4th Cir. 2020) (Harris, J., concurring).
The Leaders dispute one and only one step in this
straightforward analysis: According to the Leaders,
even if orders denying intervention generally are final
and appealable, the district court’s first order was not,
as it was entered “without prejudice.” See NAACP I,
332 F.R.D. at 173. As the Leaders understand it, that
without-prejudice dismissal expressly left open the
possibility of further litigation, indicating that an
amendment could cure any defect in their motion. It

App. 18
follows, they argue, that the district court’s denial of
intervention was not a final order under our case law –
which means that they had neither the ability nor the
obligation to take an immediate appeal.
That argument misreads both our precedent and
the district court’s order. We have dealt extensively
with the finality of without-prejudice dismissals of
complaints, and we agree with the Leaders that we
may analogize to those cases here. But what those
cases stand for is the proposition that “[d]ismissals
without prejudice . . . are not unambiguously non-final
orders.” Bing v. Brivo Sys., LLC, 959 F.3d 605, 612 (4th
Cir. 2020) (emphasis added). Instead, we examine the
finality and appealability of a without-prejudice
dismissal “based on the specific facts of the case,”
considering such factors as whether amendment could
cure the defects on which dismissal rests, what the
“bottom-line effect” of the ruling is, and whether the
district court “signaled that it was finished” with the
issues before it. Id. at 610, 612 (quoting Chao v.
Rivendell Woods, Inc., 415 F.3d 342, 345 (4th Cir.
2005)).
Applied to the “specific facts of [this] case,” id. at
610, those factors point decisively to a final and
immediately appealable order. The district court
“signaled that it was finished” with the merits of the
Leaders’ first request for intervention, notwithstanding
its styling of the denial as “without prejudice.” As the
court itself later explained, the window left open in its
initial order was a “narrow” one, available only if the
State Board and Attorney General “in fact declined to
defend” S.B. 824 in the future. NAACP II, 2019 WL

App. 19
5840845, at *2. Because that contingency had not yet –
and might never – come to pass, the Leaders could not
then amend or correct their motion to change the
result. The bottom-line effect of the court’s ruling was
clear: The Leaders were not entitled to intervene under
then-current circumstances. Under our precedent, that
determination was final, and if the Leaders disagreed,
then they were required to take a timely appeal.
That conclusion is consistent with the approach
other circuits have taken in procedurally similar
intervention appeals. The Seventh Circuit, for instance,
recently confronted an order much like the one at issue
here: a without-prejudice denial of a motion to
intervene that expressly invited a renewed request if a
“concrete, substantive conflict or actual divergence of
interests should emerge.” Driftless Area Land
Conservancy, 969 F.3d at 745. That denial, the court
held, was an immediately appealable final order –
“without prejudice” notwithstanding. Id. “The
possibility of a new motion if circumstances change
does not block an immediate appeal,” the court
explained, because “[t]he contingency that the judge
has in mind might never arise.” Id.
The Leaders rely on a different and earlier Seventh
Circuit case, United States v. City of Milwaukee, 144
F.3d 524 (1998), in which the court deemed non-final a
district court’s without-prejudice denial of intervention.
But that case, the Seventh Circuit explained in
Driftless Area Land Conservancy, was very different:
There, the denial rested on a “purely technical error” in
the intervention motion – the failure to include a
proposed pleading – that could be cured immediately.

App. 20
See 969 F.3d at 746 (discussing Milwaukee, 144 F.3d at
527–30). Cases like this one, by contrast – in which a
district court denies intervention on the merits, but
“without prejudice” in recognition that circumstances
might change – are “not remotely analogous.” Id. What
matters for finality is not “the incantation of the words
‘without prejudice,’” but “that the judge addressed the
substantive merits of the intervention motion,” not just
a procedural flaw, and “conclusively denied” the
motion. Id. at 745 (citation omitted).
And, again, the same rule holds even if – as here –
would-be intervenors file a renewed motion to
intervene, and then timely appeal the denial of that
second motion. Under those circumstances, too, courts
will not consider the merits of the initial denial,
because that denial was not timely appealed. See EPA
v. City of Green Forest, 921 F.2d 1394, 1401 (8th Cir.
1990) (concluding that court lacked jurisdiction over
reasoning in earlier order denying intervention because
“the notice of appeal from the denial of the first motion
to intervene was not until after nearly sixteen
months”); Whitewood v. Sec’y Pa. Dep’t of Health, 621
F. App’x 141, 144 (3d Cir. 2015) (reviewing only order
denying amended motion to intervene). As the Eighth
Circuit cogently explained, “[t]he denial of a second
motion to intervene covering the same grounds as the
first motion to intervene does not reset the clock for
purposes of an appeal; holding otherwise would defeat
the statutory timeliness requirement.” Smith v.
SEECO, Inc., 922 F.3d 398, 404 (2019).
It is true, as the Leaders note, that there are some
cases in which courts will review the merits of an

App. 21
initial denial of intervention, even when the putative
intervenors have appealed only the denial of a second
motion. But in each of those cases, the district court’s
second order denying intervention – the one appealed –
itself made a “fresh evaluation” of the original
intervention motion, so that the first order’s reasoning
and rulings merged into the second. See Hodgson v.
United Mine Workers of Am., 473 F.2d 118, 126–27
(D.C. Cir. 1972) (explaining that district court had
exercised discretion to make a “fresh evaluation of the
intervention application”); see also, e.g., Calvert Fire
Ins. Co. v. Environs Dev. Corp., 601 F.2d 851, 857 n.3
(5th Cir. 1979) (explaining that district court had
treated second intervention request as motion for
reconsideration). Here, contrary to the Leaders’
argument, there has been no wholesale merger.
Instead, the district court expressly declined to
reconsider its earlier analysis, evaluating only whether
the Attorney General had become an inadequate
representative of the Leaders’ purported interest in the
defense of S.B. 824.
Our jurisdiction in this appeal is correspondingly
limited. We “start[] with the proposition that the
original, unappealed order was correct when entered.”
Devs. Sur. & Indem. Co. v. Archer W. Contractors, LLC,
809 F. App’x 661, 664 (11th Cir. 2020) (quoting
Birmingham Fire Fighters Ass’n 117 v. Jefferson
County, 290 F.3d 1250, 1254 (11th Cir. 2002)). That
means that we may not consider, on the Leaders’
appeal from the district court’s second order, issues put
to rest in its first. Specifically, we cannot now review
the Leaders’ claim that they have a “protectable
interest” under Rule 24(a)(2) in representing the

App. 22
General Assembly’s “institutional interest” in
enforcement of S.B. 824. The district court rejected
that argument in its first order denying intervention,
see NAACP I, 332 F.R.D. at 168; that determination
was not appealed, and so the Leaders may not advance
that interest here. Also outside the scope of our review
is the related question of whether the Leaders must
establish Article III standing to represent any
purported interest under Rule 24(a)(2). See Flying J,
Inc. v. Van Hollen, 578 F.3d 569, 571–72 (7th Cir. 2009)
(discussing relationship between standing and Rule
24(a)(2)’s interest prong). The district court concluded,
again in its first order, that because the Leaders sought
to intervene as defendants rather than plaintiffs, they
would not be held to Article III’s requirements. See
NAACP I, 332 F.R.D. at 165; see also Bethune-Hill, 139
S. Ct. at 1951 (suggesting that legislature participating
in litigation only to defend state statute does not
“invok[e] a court’s jurisdiction” and therefore need not
demonstrate standing). And again, on appeal of the
district court’s second order, we treat that
determination as conclusive.1

1

Because this question does not bear on our own Article III
jurisdiction to hear this appeal, we are under no obligation to
resolve it. Whether or not the Leaders needed or had standing to
intervene in defense of S.B. 824, they clearly “have standing to
appeal the denial of their intervention motion.” Doe v. Pub. Citizen,
749 F.3d 246, 257 (4th Cir. 2014) (citation omitted). The alleged
injury suffered by a disappointed would-be intervenor flows from
the denial of intervention itself, and it may be redressed by an
order allowing intervention. See CVLR Performance Horses, Inc. v.
Wynne, 792 F.3d 469, 475 (4th Cir. 2015) (final judgment does not
moot pre-existing intervention appeal because appellate court still
may offer remedy by ordering intervention); 15A Charles Alan

App. 23
In sum, our jurisdiction over this appeal is
coextensive with the district court’s narrow focus in its
second order denying intervention – the only order on
appeal. We thus proceed to consider those issues, and
only those issues, decided or “fresh[ly] evaluat[ed],” see
Hodgson, 473 F.2d at 127, in that second order. As a
result, our emphasis, like the district court’s, is on the
application of Rule 24(a)(2)’s adequacy prong to the
Attorney General’s defense of S.B. 824.
III.
As all parties agree, the intervention issue in this
case is governed by federal law, and specifically by
Federal Rule of Civil Procedure 24. State law, like the
North Carolina statutes relied upon by the Leaders for
their interest in this litigation, may “inform” the
application of Rule 24, but it does not “supplant” Rule
24 or its criteria for intervention. See Planned
Parenthood of Wis., Inc. v. Kaul, 942 F.3d 793, 797 (7th
Cir. 2019).
Rule 24 provides two avenues for federal-court
intervention, one mandatory and one discretionary.
Intervention as of right is governed by Rule 24(a)(2),
under which federal courts must permit intervention
when, on timely request – a factor undisputed here – a
proposed intervenor “can demonstrate ‘(1) an interest
in the subject matter of the action; (2) that the
protection of this interest would be impaired because of
Wright, Arthur R. Miller & Edward H. Cooper, Federal Practice &
Procedure Jurisdiction § 3902.1 (2d ed. Oct. 2020 update) (“Persons
denied intervention in the trial court clearly have standing to
appeal the denial of intervention . . . .”).

App. 24
the action; and (3) that the applicant’s interest is not
adequately represented by existing parties to the
litigation.” Stuart v. Huff, 706 F.3d 345, 349 (4th Cir.
2013) (quoting Teague v. Bakker, 931 F.2d 259, 260–61
(4th Cir. 1991)). Importantly, all these requirements
must be met before intervention is mandatory; a failure
to meet any one will preclude intervention as of right.
See Virginia v. Westinghouse Elec. Corp., 542 F.2d 214,
216 (4th Cir. 1976). If that happens, then “a court may
still allow an applicant to intervene permissively under
Rule 24(b), although in that case the court must
consider ‘whether the intervention will unduly delay or
prejudice the adjudication of the original parties’
rights.’” Stuart, 705 F.3d at 349 (quoting Fed. R. Civ. P.
24(b)(3)).
As explained below, we conclude that the district
court did not abuse its discretion in determining that
the Leaders’ purported interest in defending S.B. 824
on behalf of the State of North Carolina was adequately
represented already by the State Board of Elections
and Attorney General. That is enough to defeat the
Leaders’ claim to mandatory intervention. Accordingly,
we need not consider whether the Leaders have
satisfied Rule 24(a)(2)’s interest element under the
theory addressed and rejected by the district court in
its second order: that state law has designated them
agents of the State’s own undoubted interest in the
validity of its laws. We may assume for purposes of this
appeal, that is, that state law has endowed the Leaders
with a “significantly protectable interest” for purposes
of Rule 24(a)(2), see Teague, 931 F.2d at 261; even so,
they have no right to intervene in federal court under

App. 25
Rule 24(a)(2) because that same interest is adequately
represented by existing parties to the litigation.2
As further detailed below, we also find no abuse of
discretion in the district court’s renewed consideration
and denial of the Leaders’ request for permissive
intervention. Accordingly, we affirm the judgment of
the district court.
A.
Turning to the district court’s application of Rule
24, we bear in mind two key features of this case. First
is the “necessarily limited” scope of our appellate
review. See Stuart, 706 F.3d at 350. “It is well settled
that district court rulings on both types of intervention
motions are to be reviewed for abuse of discretion” only.
Id. at 349 (citation omitted). This deferential standard
of review stems in part from the district court’s
“superior vantage point” for evaluating the parties’
2

We must disagree with the principal dissent’s suggestion that
our inquiry into adequacy amounts to dicta. See Diss. Op. 61 n.3.
It is true, as the dissent observes, that the district court rejected
the Leaders’ original claim to a protected Rule 24(a)(2) interest –
based on the interests of the General Assembly – in its first order,
which falls outside the scope of our appellate review. See NAACP
I, 332 F.R.D. at 166–68. In its second order, however, which is on
appeal, the district court considered the Leaders’ separate claim to
a Rule 24(a)(2) interest, this time as authorized agents of the
State’s interest in S.B. 824. See NAACP II, 2019 WL 5840845, at
*2 n.3. As a result, we have before us live arguments on all prongs
of Rule 24(a)(2); even with our review limited to the district court’s
second order, the Leaders could prevail if that order incorrectly
assessed both interest and adequacy. That we choose to resolve the
Leaders’ claim on adequacy grounds alone makes our adequacy
analysis the linchpin of this appeal, not dicta.

App. 26
litigation conduct and whether an existing party
adequately represents a proposed intervenor’s
interests. Id. at 350. But it also recognizes that
“[q]uestions of trial management are quintessentially
the province of the district courts,” and that motions to
intervene “can have profound implications for district
courts’ trial management functions”: Parties added by
intervention “can complicate routine scheduling orders,
prolong and increase the burdens of discovery and
motion practice, thwart settlement, and delay trial.” Id.
(citation omitted). So in this appeal, as in any under
Rule 24, we are alert to the “boundaries of our
reviewing role.” Id.
That role is further informed by the second key
feature of this case: its highly unusual posture. This is
not a case like those decided by the Supreme Court and
relied on by the Leaders here – Bethune-Hill, 139 S. Ct.
1945, Hollingsworth v. Perry, 570 U.S. 693 (2013),
Arizonans for Official English v. Arizona, 520 U.S. 43
(1997), and Karcher v. May, 484 U.S. 72 (1987) – in
which a state representative, usually a state attorney
general, is not defending state law, or has declined to
appeal an adverse ruling. As the Supreme Court’s
multiple encounters with this recurring fact pattern
attest, such cases may present difficult questions about
the standing and right of other entities to intervene to
continue a case in the state attorney general’s stead.
But at bottom, the issue in those cases is whether any
state representative will be permitted to defend a
state’s interest in the validity of its laws, once the
state’s “default” representative has declined to do so.
See Kaul, 942 F.3d at 800.

App. 27
Here, by contrast, the State of North Carolina’s
“default” representative – the Attorney General– has
not “dropped out of the case.” Id. The Attorney General
is charged, by North Carolina statute, with
representing the State’s interest in cases involving
challenges to state law. See N.C. Gen. Stat. § 114-2(1)
(“[I]t shall be the duty of the Attorney General . . . to
appear for the State . . . in any cause or matter, civil or
criminal, in which the State may be a party or
interested.”). And consistent with that duty, the
Attorney General is very much in this case, defending
the constitutionality of S.B. 824, on behalf of the State
Board of Elections, in state and federal courts,
including our own.
As we have explained, the only interest the Leaders
may now assert in support of intervention under Rule
24(a)(2) is that of the State of North Carolina in the
enforcement and validity of its laws. And indeed, that
is the Leaders’ primary argument on appeal: that state
law has designated them, along with the Attorney
General, to represent the interests of the State itself in
federal court. See Reply Br. of Appellants 10; see also
Bethune-Hill, 139 S. Ct. at 1951 (where state law
designates a legislative entity to “represent [the
State’s] interests,” that entity may “stand in for the
State”). But those, of course, are precisely the interests
already represented by the Attorney General in this
case. So the unusual question presented here is
whether a federal district court must allow not one but
“two state entities . . . to speak on behalf of the State at
the same time.” Kaul, 942 F.3d at 800.

App. 28
The Seventh Circuit recently – only after the
district court issued its decisions – became the first
federal court of appeals to confront precisely this
question, and it explained why, under these
circumstances, we must be especially circumspect in
reviewing a district court’s denial of mandatory
intervention. In Planned Parenthood of Wisconsin, Inc.
v. Kaul, just as here, a state legislative entity, relying
on a purported authorization in state law, sought to
intervene as of right to defend the State’s interest in
the constitutionality of one of its statutes. See 942 F.3d
at 796. According to the Wisconsin legislature, the
State’s Attorney General, though defending the law,
was doing so only nominally, failing to adequately
represent Wisconsin’s interests under Rule 24(a)(2).
See id. The Seventh Circuit assumed without deciding
that state law gave the legislature a Rule 24(a)(2)
“interest” as a representative of the State itself. See id.
at 797–98. But because that same interest already was
represented by the Wisconsin Attorney General, the
court explained, the legislature could satisfy Rule
24(a)(2)’s adequacy element only if it succeeded in the
“unenviable task” of convincing a federal court that the
Attorney General was inadequately representing the
interests of his own State. Id. at 801. And that, the
court concluded, would amount to an “extraordinary
finding,” not to be undertaken lightly and requiring
something much more than a disagreement over
litigation strategy. Id.; see also id. at 810 (Sykes, J.,
concurring).
With that as context, we turn to the district court’s
application of Rule 24 and, first and foremost, to its
assessment of Rule 24(a)(2)’s adequacy prong.

App. 29
B.
In its opinion denying the Leaders’ renewed request
for intervention, the district court reviewed the
proceedings to date and concluded that the State Board
of Elections and Attorney General continued to
“actively and adequately” defend S.B. 824 for purposes
of Rule 24(a)(2). NAACP II, 2019 WL 5840845, at *2. It
carefully reviewed what the Leaders described as new
evidence of an “unwillingness to robustly defend S.B.
824” in both the federal litigation before it and the
parallel state litigation in Holmes, and found only
“strategic disagreements” over choices that “fell well
within the range of reasonable litigation strategies.” Id.
at *2–3. Because the State Board and Attorney General
were adequately representing the State’s interest in
the constitutionality of S.B. 824, and because there was
no reason to think they would abandon that duty in the
future, the district court held, the Leaders had no
entitlement to intervention as of right under Rule
24(a)(2). See id. at *4.
On appeal, the Leaders’ primary challenge is to the
legal standards employed by the district court in its
Rule 24(a)(2) adequacy analysis. They also dispute the
district court’s application of those standards to the
performance of the State Board and Attorney General
in defending S.B. 824. We take the two challenges in
turn.3
3

The principal dissent raises one additional point, arguing
that the district court abused its discretion when it failed to
consider, as part of its adequacy analysis, the import of the
relevant North Carolina statutes. See Diss. Op. 74– 75. We
disagree. Like the Seventh Circuit in Kaul, we think laws like N.C.

App. 30
1.
In assessing whether an existing party to this
litigation – the State Board, through the Attorney
General – adequately represented the State’s interest
in the validity of S.B. 824, the district court applied two
distinct legal standards. First, as it explained in its
initial order, it applied the long-standing presumption
of adequate representation that arises when “the party
Gen. Stat. § 1-72.2 bear on the interest element of Rule 24(a)(2),
not the adequacy element. A state’s policy judgment about the
value of legislative intervention may bestow a protectable interest
in certain court cases, but it does not override our normal
standards for evaluating the adequacy of existing representation
in those cases. And if it did – if aspiring legislative intervenors
could rely on a state-law policy preference for multiple
representatives to satisfy both the interest prong and the adequacy
prong of the test for mandatory intervention – then we would risk
turning over to state legislatures, rather than district courts,
control over litigation involving the states. See Kaul, 942 F.3d at
799, 802.
The Leaders appear to disavow this approach, recognizing the
problems it would create. Instead, they assure us that state laws
designating legislative agents as additional representatives will
not lead necessarily to intervention as of right – precisely because
the adequacy prong will remain an independent check. Even where
laws like N.C. Gen. Stat. § 1-72.2 establish a protectable interest,
that is, mandatory intervention will be “foreclose[d]” if “another
party adequately represents the legislature’s protectable interest.”
Appellants’ Br. 32 n.2. Indeed, the Leaders seem never to have
asked the district court, either, to consider N.C. Gen. Stat. § 1-72.2
in evaluating adequacy, as opposed to interest. Even apart from
the merits of the position, we would find no abuse of discretion in
the district court’s failure to take up an argument that was not
presented to it. See Smith v. Marsh, 194 F.3d 1045, 1052 n.5 (9th
Cir. 1999); see also Reaching Hearts Int’l, Inc. v. Prince George’s
County, 478 F. App’x 54, 63 (4th Cir. 2012).

App. 31
seeking intervention has the same ultimate objective as
a party to the suit.” NAACP I, 332 F.R.D. at 168
(quoting Westinghouse, 542 F.2d at 216). Because the
Leaders’ ultimate objective – upholding S.B. 824 – was
the same as that pursued by the State Board and
Attorney General, the court continued, the
Westinghouse presumption could be overcome only if
the Leaders could “demonstrate adversity of interest,
collusion, or nonfeasance.” Id. (quoting Westinghouse,
542 F.2d at 216). And second, the court understood our
decision in Stuart to require that the Leaders make an
especially “strong showing of inadequacy” to rebut the
Westinghouse presumption because their objective was
shared with a governmental defendant – the State
Board – rather than a private litigant. Id. at 168
(quoting Stuart, 706 F.3d at 352).4
On appeal, the Leaders’ primary argument is that
the district court erred in applying both those
standards. And it is true that no matter how
deferential our review, application of an incorrect legal
standard is an abuse of discretion that must be
corrected on appeal. See League of Women Voters of
N.C. v. North Carolina, 769 F.3d 224, 235 (4th Cir.
2014). In our view, however, the district court

4

The district court spelled out the challenged standards only
in its first order denying intervention, which, as we have
explained, falls outside the scope of our appellate jurisdiction. But
the district court’s second order – over which we do have
jurisdiction – incorporates the same standards. See, e.g., NAACP
II, 2019 WL 5840845, at *3 (explaining that “mere strategic
disagreements are not enough to rebut the presumption of
adequacy” and citing Stuart, 706 F.3d at 353).

App. 32
committed no such error in applying the standards at
issue here.
We begin with Westinghouse’s well-established
presumption of adequacy, which may be overcome on a
showing of adversity of interest, collusion, or
malfeasance – but not by mere “disagreement over how
to approach the conduct of the litigation” in question.
Stuart, 706 F.3d at 353. According to the Leaders, that
presumption – which we and virtually all our sister
circuits have applied for decades5 – is inconsistent with
the Supreme Court’s more generous approach to
intervention, and we should take this opportunity to
overrule Westinghouse and abandon the presumption.
We have rejected that argument before. See Stuart, 706
F.3d at 351–52 (rejecting claim that presumption of
adequacy – heightened or otherwise – is inconsistent
with Supreme Court precedent). And we continue to
disagree.

5

Nearly every federal circuit has adopted some version of a
presumption of adequacy when proposed intervenors share an
objective or interest with existing parties. See, e.g., In re
Thompson, 965 F.2d 1136, 1142–43 (1st Cir. 1992); Butler,
Fitzgerald & Potter v. Sequa Corp., 250 F.3d 171, 179–80 (2d Cir.
2001); Del. Valley Citizens’ Council for Clean Air v. Pennsylvania,
674 F.2d 970, 973 (3d Cir. 1982); Bush v. Viterna, 740 F.2d 350,
355 (5th Cir. 1984); United States v. Michigan, 424 F.3d 438,
443–44 (6th Cir. 2005); Kaul, 942 F.3d at 799; FTC v. Johnson, 800
F.3d 448, 452 (8th Cir. 2015); Arakaki v. Cayetano, 324 F.3d 1078,
1086 (9th Cir. 2003); Tri -State Generation & Transmission Ass’n,
Inc. v. N.M. Pub. Regul. Comm’n, 787 F.3d 1068, 1072–73 (10th
Cir. 2015); Clark v. Putnam County, 168 F.3d 458, 461 (11th Cir.
1999).

App. 33
The Leaders rest their argument on a footnote in
Trbovich v. United Mine Workers, 404 U.S. 528, 538
n.10 (1972), in which the Supreme Court described the
burden for showing inadequacy as “minimal,” requiring
the proposed intervenor to show only “that
representation of his interest ‘may be’ inadequate.” But
what Trbovich establishes is a “default” rule – a
“liberal” one, to be sure, but one that may give way to
more specific “standards for the adequacy of
representation under Rule 24” based on the “context of
each case.” See Kaul, 942 F.3d at 799. In keeping with
that context- specific approach, we, in the good
company of our sister circuits, have determined that it
is “perfectly sensible” to presume that a proposed
intervenor’s interests will be adequately represented by
an existing party with whom it shares an objective,
notwithstanding disagreements over litigation tactics.
Stuart, 706 F.3d at 352–53.
“Nor could it be any other way,” as we explained in
Stuart. Id. at 354. Absent a meaningful presumption of
adequacy, federal courts would be required under Rule
24(a)(2) to arbitrate, de novo, the inevitable differences
over strategy that arise even among parties who share
an ultimate goal, deciding which trial tactics do and do
not amount to “adequate” representation. “It is not
unusual for those who agree in principle to dispute the
particulars.” Id. But under the Leaders’ more
free-wheeling approach – which seems to have no
obvious stopping point – every one of those disputes
will necessitate a federal ruling as to whether the
existing party’s approach “may” lead to inadequate
representation. As we concluded in Stuart, “[t]o have
such unremarkable divergences of view sow the seeds

App. 34
for intervention as of right risks generating endless
squabbles at every juncture over how best to proceed.”
Id. We see no reason to revisit that conclusion here.
Nor are we persuaded by the Leaders’ back-up
claim: that even if the Westinghouse presumption
remains good law, it does not apply in this case because
they seek to advance an objective distinct from that of
the existing party, the State Board, as represented by
the Attorney General. We have covered some of this
ground already. The Attorney General is charged by
law with representing the interests of the State and its
agencies in court, including in cases challenging state
law. See N.C. Gen. Stat. § 114-2; Martin v. Thornburg,
359 S.E.2d 472, 479 (N.C. 1987). The Attorney General,
on behalf of the State Board, is litigating the validity of
S.B. 824 in state and federal court, seeking to uphold
its legality. And as the Leaders conceded at oral
argument before the en banc court, that is precisely the
same objective that they would pursue if allowed to
intervene.
In an effort to find some daylight between their own
ultimate objective and that of the State Board and
Attorney General, the Leaders suggest that the Board’s
institutional interest in administering elections gives
it a distinct goal, not shared by the Leaders: an interest
in expediently obtaining clear guidance from the courts
as to what law will govern upcoming elections. And it
is true that the State Board acknowledged that interest
in a filing before the district court. See J.A. 589. But as
we have explained, there is nothing unreasonable
about the adoption by state defendants of a litigation
strategy designed to produce an “expeditious final

App. 35
ruling on the constitutionality” of state law. Stuart, 706
F.3d at 354. And here, the specific request of the State
Board to which the Leaders allude – that any
temporary relief granted by the court be flexible
enough to allow for prompt implementation of the law
if the preliminary injunction were later vacated – is
consistent, not in conflict, with its ultimate goal of
defending the constitutionality of S.B. 824. See NAACP
II, 2019 WL 5840845, at *4 (explaining that “while a
‘primary objective’ of the State Board in opposing the
preliminary injunction was to ‘expediently obtain clear
guidance,’” that objective did not come at the expense
of a defense of S.B. 824).6
That brings us to the second of the standards the
district court applied, requiring that the Leaders, in
seeking to rebut the Westinghouse presumption,
“mount a strong showing of inadequacy.” NAACP I, 332
F.R.D. at 169 (quoting Stuart, 706 F.3d at 352). We
held in Stuart that “a more exacting showing of
inadequacy should be required where the proposed
intervenor shares the same objective as a governmental
party,” like the State Board here, as opposed to a
private litigant. 706 F.3d at 351. Governmental entities
are entitled to this heightened presumption of
6

That is enough to distinguish this case from Northeast Ohio
Coalition for the Homeless v. Blackwell, 467 F.3d 999 (6th Cir.
2006), in which the Sixth Circuit allowed the State of Ohio and its
legislature to intervene in defense of a voter-ID law. As the court
explained, no presumption of adequacy applied in that case
because the interest of the existing defendant, the Secretary of
State, in smooth election administration meant that he did not
share the State’s objective of “defending the validity of Ohio laws.”
Id. at 1008.

App. 36
adequacy, we reasoned, in part because they are
uniquely well-situated to defend a state statute under
attack, given their ability to speak in a representative
capacity and their “familiarity with the matters of
public concern that lead to the statute’s passage in the
first place.” Id. Focusing on that reasoning, the Leaders
argue that Stuart does not apply in a case like this one,
where the proposed intervenor is not a private party, as
in Stuart, but rather another governmental entity,
equally well-suited to speak in defense of a state
statute.
We agree with the Leaders to this extent: The better
reading of Stuart is that it does not by its terms control
this case. But “that is not, by itself, a reason to reach
another result.” See Kaul, 942 F.3d at 799 (addressing
same question and choosing to extend prior precedent
calling for heightened presumption of adequacy for
governmental defendants). Rather, it leaves the
question of whether Stuart’s heightened presumption
of adequacy should be afforded to government
defendants even when other governmental entities, like
the Leaders here, seek to intervene on their side. We
think it should.
Although some of Stuart’s reasoning does not
translate to this context, one of its main pillars does: A
government defendant, given its “basic duty to
represent the public interest,” is a presumptively
adequate defender of duly enacted statutes. Stuart, 706
F.3d at 351. And when a “governmental official . . . is
legally required to represent” the state’s interest – as
is the Attorney General here – then it is “reasonable,
fair and consistent with the practical inquiry required

App. 37
by Rule 24(a)(2) to start from a presumption of
adequate representation and put the intervenor to a
heightened burden” to overcome it. Kaul, 942 F.3d at
810 (Sykes, J., concurring). Nothing about that
conclusion, which reflects no more than the normal
assumption that government officials properly
discharge their duties, see United States v. Chem.
Found., 272 U.S. 1, 14–15 (1926), should change just
because the proposed intervenor also is a government
entity with its own public duties.
Moreover, as the Seventh Circuit explained in Kaul,
in cases like this one, a proposed intervenor’s
governmental status makes a heightened presumption
of adequacy more appropriate, not less. A private party
seeking to intervene can argue that although it seeks
the same objective as the state’s representative, the
state’s interests – informed, as they must be, by the
concerns of the general public – do not perfectly overlap
with his or her more individualized interests. See Kaul,
942 F.3d at 801. But the Leaders – like the legislature
in Kaul – cannot make that argument, because they
are seeking, as governmental parties, to represent
precisely the same state interests as the state
defendants already in the case. The Leaders, that is,
“go[] further than sharing a goal with the Attorney
General”; they “intend[]to represent the same client,”
the State of North Carolina. See id. (emphases added).
Under those circumstances, the “alignment” between
the Attorney General and the would-be governmental
intervenors is one-for-one – closer than the alignment
in Stuart. Cf. Stuart, 706 F.3d at 353. And under those
circumstances, as we have emphasized, the Leaders
have a right to intervene only if North Carolina’s

App. 38
Attorney General – charged by state law with
representing the same interests they seek to advance –
is inadequately representing his own State. Requiring
a heightened showing of inadequacy to justify such an
“extraordinary finding” strikes us as entirely
appropriate. See Kaul, 942 F.3d at 801.
Finally, the practical concerns we identified in
Stuart about a less exacting standard for inadequacy
are not abated simply because a proposed intervenor is
governmental and not private. Government
intervenors, no less than private ones, run the risk of
rendering litigation “unmanageable” in the federal
courts. Kaul, 942 F.3d at 802; see Stuart, 706 F.3d at
350 (explaining “profound implications” of intervention
on district courts’ trial management). Faced with the
prospect of intervention based only on a minimal
showing of inadequacy, the original government
defendant “could be compelled to modify its litigation
strategy” to suit the putative intervenor’s preferences
“or else suffer the consequences of a geometrically
protracted, costly, and complicated litigation.” Stuart,
706 F.3d at 351.
And those baseline concerns are only magnified in
a case like this, in which a government entity seeks
intervention to represent the same state interest
represented already by a state attorney general. “If the
[Leaders] were allowed to intervene as [of] right, then
[they] and the Attorney General could take inconsistent
positions on any number of issues beyond the decision
whether to move to dismiss, from briefing schedules, to
discovery issues, to the ultimate merits of the case.”
Kaul, 942 F.3d at 801. And at that point – a point

App. 39
almost certain to arise in this case, if past is prelude –
a federal district court will have to “divin[e] the true
position” and interests of the State of North Carolina,
and which of its representatives, the Leaders or the
Attorney General, better represents it. Id. Those are
fundamentally political questions, and without a
substantial presumption of adequacy, federal courts
could be required to take sides in these political battles
on a regular basis. See Planned Parenthood of Wis., Inc.
v. Kaul, 384 F. Supp. 3d 982, 990 (W.D. Wis. 2019)
(“[T]o allow intervention would likely infuse additional
politics into an already politically-divisive area of the
law and needlessly complicate this case.”).
We do not, of course, question a sovereign state’s
authority to designate its preferred legal representative
in court proceedings. See Bethune-Hill, 139 S. Ct. at
1951 (citing Hollingsworth, 570 U.S. at 710). If North
Carolina’s General Assembly, in its considered
judgment, believes that the Attorney General is not
adequately representing the State in this or any case,
then it of course is free to remove the Attorney General
and substitute some other representative, including the
Leaders. But what the Leaders are asking for is more
than that: The right of a state to designate not one but
two representatives – or three, or more, because there
is no discernible limiting principle here – in a single
federal case, all purporting to speak for the state. See
Kaul, 942 F.3d at 802. Under the Leaders’ approach,
a federal court would be required to accommodate that
cacophony of parties, given the mandatory nature of
Rule 24(a)(2), upon only a nominal showing of
inadequacy, and regardless of the “intractable
procedural mess” that could follow. Id. at 801–02. With

App. 40
full respect for the states’ sovereign autonomy, we
decline to read Rule 24(a)(2) to leave federal district
courts effectively “powerless to control litigation
involving states.” Id. at 802.
Accordingly, we take this opportunity to clarify that
Stuart’s heightened presumption of adequacy applies
when governmental as well as private entities seek to
intervene on the side of governmental defendants. The
district court therefore did not err when it required the
Leaders to make a “strong showing” of inadequacy to
rebut the Westinghouse presumption. NAACP I, 332
F.R.D. at 169. We note, however, that this heightened
presumption is not critical to the resolution of this case.
As we explain below, with or without the overlay of a
“strong showing” requirement, the Leaders cannot
overcome the standard Westinghouse presumption that
the State Board of Elections and Attorney General are
adequately pursuing the shared objective of defending
S.B. 824’s validity.
2.
At this point in the analysis, we are in the
heartland of the deference owed a district court’s
judgment under Rule 24(a)(2)’s adequacy prong. It is
not for us to decide whether, in our best view, the
Leaders have demonstrated that the State Board and
Attorney General are inadequate representatives of the
State’s interest in S.B. 824’s validity. That inquiry is
firmly committed to the discretion of the district court.
Stuart, 706 F.3d at 349–50. The only question before us
is whether it can be said that the district court abused
that wide discretion when it found in its second order
that the Attorney General, consistent with his

App. 41
statutory duties, continued to provide an adequate
defense of S.B. 824. We see no such abuse of discretion
here.
First, there is no ground to set aside the district
court’s finding – and indeed, we do not understand the
Leaders to contest this point – that the State Board
and Attorney General in fact continue to defend S.B.
824. At the outset of its opinion denying the Leaders’
renewed motion to intervene, the district court
determined that the Attorney General, on behalf of the
State Board, had taken and continued to take active
steps to defend S.B. 824 in court. In this federal action,
the court explained, the Attorney General had
“consistently denied all substantive allegations of
unconstitutionality,” moved to dismiss the case on
federalism grounds, and recently filed an “expansive
brief” opposing on the merits the plaintiffs’ motion for
a preliminary injunction. NAACP II, 2019 WL 5840845,
at *3. And in state court, the Attorney General had
moved to dismiss five of six counts of the Holmes
plaintiffs’ complaint and opposed a preliminary
injunction. See id. at *3–4. This was not a case, in other
words, in which the Attorney General actually had
“abandoned”the defense of S.B. 824 or indicated that he
would do so in the future. Id. at *4.
In arguing that the Attorney General nevertheless
is an inadequate representative of the State’s interest
in S.B. 824 – and that the district court abused its
discretion in finding otherwise – the Leaders
consistently have advanced two central arguments.
First, they object to the way in which the Attorney
General has chosen to defend S.B. 824. According to the

App. 42
Leaders, the Attorney General’s litigation decisions in
this action and in Holmes demonstrate an
“unwillingness to robustly defend S.B. 824,” id. at *2
(emphasis added), that amounts to “nonfeasance”
sufficient to rebut the Westinghouse presumption of
adequacy. The district court rejected that claim, id.,
finding only the kind of garden-variety disagreements
over litigation strategy that we and other courts
consistently have deemed insufficient to overcome a
presumption of adequacy, whatever the precise
strength of the presumption and whether or not it
includes a “strong showing” component, see Stuart, 706
F.3d at 349, 353; see also Kaul, 942 F.3d at 810–11
(Sykes, J., concurring). We think that judgment falls
well within the district court’s discretion.7
With respect to this federal court litigation, for
instance, the Leaders’ renewed motion focused on an

7

In its first order, the district court cited our longstanding rule
that Westinghouse’s presumption of adequacy can be rebutted only
by a showing of “adversity of interest, collusion, or nonfeasance.”
See NAACP I, 332 F.R.D. at 168 (quoting Westinghouse, 542 F.2d
at 216). As the Leaders point out, there has been some criticism of
courts’ treatment of those factors, or factors like them, as
necessary rather than sufficient to rebut the presumption of
adequacy. See 7C Charles Alan Wright, Arthur R. Miller & Mary
Kay Kane, Federal Practice & Procedure Civil §1909 (3d ed. Oct.
2020 update); Kaul, 942 F.3d at 807–10 (Sykes, J., concurring). We
can leave that issue for another day. Here, the district court
found – in a determination to which we defer – that the Leaders’
only evidence of inadequacy amounted to no more than differences
over litigation tactics. However wide the range of evidence that
will rebut the presumption of adequacy, “disagreements about
litigation strategy” will not do the trick. See Kaul, 942 F.3d at 810
(Sykes, J., concurring).

App. 43
alleged lack of vigor in the State Board’s opposition to
the NAACP’s preliminary injunction request. In
particular, the Leaders argued, the Board did not hire
experts to submit reports in opposition to that request,
nor move to stay the preliminary injunction once
entered. But we confronted very similar objections in
Stuart, in which the proposed intervenor criticized the
Attorney General for presenting only legal argument
and not factual evidence at the preliminary injunction
stage, and for forgoing an appeal of a preliminary
injunction to litigate the case to final judgment. See
Stuart, 706 F.3d at 353. That sort of “disagreement
over how to approach the conduct of the litigation,” we
held, is insufficient to rebut the presumption of
adequacy, as evidence of either nonfeasance or
adversity of interests. Id. at 353–54; see also id. at 354
(“It was eminently reasonable for the Attorney General
to believe that the interests of North Carolina’s citizens
would best be served by an expeditious final ruling on
the constitutionality of the Act, as opposed to prolonged
intermediate litigation over the preliminary
injunction.”); Saldano v. Roach, 363 F.3d 545, 555 (5th
Cir. 2004) (“Simply because the [intervenor] would
have made a different [litigation] decision does not
mean that the Attorney General is inadequately
representing the State’s interest . . . .”).
And indeed, the course of litigation since the district
court’s intervention decision has only confirmed that
the Attorney General’s litigation approach was well
within the range of acceptable strategy. After the
district court issued a preliminary injunction, the State
Board promptly and successfully appealed that
decision, securing a reversal of the preliminary

App. 44
injunction. See N.C. State Conf. of the NAACP v.
Raymond, 981 F.3d 295, 311 (4th Cir. 2020). Although
we permitted the Leaders to intervene to make legal
arguments in that appeal, our reversal was based on
the record the Attorney General created in the district
court, without the need for additional fact or expert
evidence. See id. at 310–11.
Likewise, the district court was within its discretion
in finding no new evidence of nonfeasance or
inadequacy in the Attorney General’s then-recent
litigation choices in the state-court Holmes case.8
There, the Leaders faulted the State Board for seeking
dismissal of only five of the complaint’s six counts,
reserving a dispositive challenge to the fact-intensive
claim of intentional discrimination for later in the
proceedings. But as the district court observed, the
State Board’s approach was vindicated when the state
court agreed to dismiss all five claims it had challenged
but not the intentional- discrimination claim separately
challenged by the Leaders. NAACP II, 2019 WL
8

The district court expressed some doubt as to whether the
State Board’s litigation choices in Holmes – a case in a different
forum, involving different (though overlapping) parties and
claims – had any bearing at all, “predictive” or otherwise, on the
adequacy of the State Board’s defense of S.B. 824 in this federal
action. NAACP II, 2019 WL 5840845, at *3. “Proposed Intervenors
do not point to a single case suggesting that a defendant’s
performance . . . in one lawsuit invites intervention in another.” Id.
at *3. Nevertheless, the district court went on to review the
conduct of the Holmes litigation, finding no evidence of inadequate
representation. Because we affirm that finding as within the
district court’s discretion, we need not decide what role, if any,
inadequate representation in one case should play in the
application of Rule 24(a)(2) in another.

App. 45
5840845, at *3; see Stuart, 706 F.3d at 354 (“The
reasonableness of the Attorney General’s choice is
particularly manifest given that it was largely
successful . . . .”). The district court also addressed the
Leaders’ concern that the State Board had not mounted
a “substantive defense” to the preliminary injunction
sought by the plaintiffs: that injunction was denied
after both the State Board and the Leaders opposed
and argued against it, and there was no evidence, the
court found, that the credit for this victory should not
be shared. See NAACP II, 2019 WL 5840845, at *4.
Finally, though the Leaders alleged that the State
Board took an insufficiently aggressive approach to
discovery in Holmes, the district court found it “entirely
reasonable” for the Board to “focus its energies
elsewhere,” given that the Leaders, by their own
account, had taken the lead on these matters. See id.;
see also Appellants’ Br. 45.
In short, after canvassing the recent litigation
conduct cited by the Leaders in their renewed motion,
the district court determined that the State Board,
through the Attorney General, continued to “actively
and adequately” defend S.B. 824. See NAACP II, 2019
WL 5840845, at *2. The Leaders’ objections, the court
concluded, remained “mere strategic disagreements”
about the pursuit of a shared objective, insufficient to
rebut the presumption of adequacy. Id. at *3. We owe
substantial deference to that judgment, see Stuart, 706
F.3d at 349–50, and see no reason to disturb it here.
Indeed, we are inclined to agree with the district court
that the Leaders’ new evidence of alleged inadequacy –
coming in a case in which the Attorney General
successfully moved to dismiss the Governor as a

App. 46
defendant, vigorously opposed a preliminary injunction,
and then successfully appealed from the entry of that
injunction – reflects no more than routine
disagreement about litigation tactics. And if those
disagreements were themselves enough to rebut the
presumption of adequacy, that “would simply open the
door to a complicating host of intervening parties with
hardly a corresponding benefit.” Id. at 353.
That leaves the Leaders’ second central argument:
the suggestion that the Attorney General is not
mounting an even more aggressive defense of S.B. 824
because he, like the Governor, is opposed to voter-ID
laws as a matter of public policy. The Leaders point us
to past statements by both the Attorney General and
the Governor opposing a prior voter-ID law, arguing
that it curtailed the right of North Carolina citizens to
vote. And after he assumed his current position, the
Leaders emphasize, the Attorney General, acting on
behalf of the then-incoming Governor, moved to dismiss
a petition for certiorari review of a decision holding
that same voter-ID law unconstitutional. See North
Carolina v. N.C. State Conf. of the NAACP, 137 S. Ct.
1399, 1399 (2017) (mem.). Whether framed as an
argument for collusion or for adversity of interests, the
import of the Leaders’ claim is the same: This Attorney
General – as well as the State Board he represents,
consisting of members appointed by the Governor –
cannot be trusted to defend S.B. 824.9

9

The district court expressly addressed this claim in its initial
order denying intervention, see NAACP I, 332 F.R.D. at 169–71,
over which we lack jurisdiction. But because the challenge here
goes to the very probity of the lawyers before the district court, we

App. 47
That is a startling accusation. The Attorney General
has a statutory duty to represent and defend the State
and its interests in this litigation. See N.C. Gen. Stat.
§ 114-2. And that is to say nothing of his ethical
obligations, which require zealous representation of his
client, see Revised Rules of Professional Conduct of the
North Carolina State Bar, Rule 0.1[2] (preamble), and
prohibit him from falsely assuring the district court
that he is “meeting [his] duty to defend this action,”
J.A. 662; see Revised Rules of Professional Conduct of
the North Carolina State Bar, Rule 3.3 (candor to
court). That the Attorney General may have expressed
policy views at odds with S.B. 824 in the past is no
ground for a federal court to infer that he would
abdicate his official duty to the State by subterfuge,
mounting a sham defense of the statute. To suggest
otherwise is a disservice to the dignified work of
government lawyers who each day put aside their own
policy and political preferences to advocate dutifully on
behalf of their governments and the general public.
See Kaul, 942 F.3d at 810–11 (Sykes, J., concurring)
(concluding that “political and policy differences”
between proposed legislative intervenor and state
attorney general regarding challenged law are not
evidence of inadequate representation).
In any event, the district court found there was no
evidence in the record indicating that the Attorney
General’s policy preferences left him without the
proper “level of interest” or “incentive” to robustly
think it necessarily merges into the district court’s second
assessment of the adequacy of representation, before us now on
appeal.

App. 48
litigate on behalf of S.B. 824. NAACP I, 332 F.R.D. at
170. Nor, the court determined, has the Governor’s
control of appointments to the State Board caused the
Board to fall short in its defense of that law. See id. at
171. Any suggestion that the Governor might use his
appointment power to direct the State Board or
Attorney General to slow-walk the State’s defense of
S.B. 824, the court held, was no more than “conclusory
speculation,” insufficient on the current record to rebut
the presumption of adequate representation. Id. at 170,
171. We see no abuse of discretion in that considered
judgment.10
That is not to say, of course, that there never could
be a case in which a state attorney general’s political
opposition to a statute – or the opposition of some other
state legal representative – might cause an abdication
of the duty to defend that law in court. Should the

10

On this en banc appeal, the Leaders point us to one new
litigation development: In the State Board’s successful appeal from
the district court’s preliminary injunction, the Governor filed an
amicus brief urging us to affirm entry of the injunction to avoid
confusion during the 2020 election cycle. See Brief of Roy Cooper
as Amicus Curiae, N.C. State Conf. of the NAACP v. Raymond, No.
20-1092 (4th Cir. July 20, 2020). The Governor’s brief, filed by
private counsel, focused narrowly on the practicalities of lifting the
preliminary injunction right before an election and during a
pandemic, and by itself does not indicate that either the State
Board or the Attorney General – who sought and won a reversal of
the preliminary injunction – had failed or would fail to adequately
defend the law on the merits. Given the limited nature of our
review in this posture, we think it appropriate for the district court
to consider in the first instance what bearing this brief might have
on the adequacy of the State Board’s defense of S.B. 824 going
forward, should the Leaders again seek intervention.

App. 49
Attorney General or State Board in fact abandon their
defense of S.B. 824 in the future, failing to file an
appeal or petition for certiorari in the appropriate
circumstance or otherwise to litigate on the law’s
behalf, then we would have the changed circumstance
the district court hypothesized in its first order denying
intervention. At that point, the Leaders would be free
to seek intervention once again, and the district court
free to reconsider the Rule 24(a)(2) factors – and in
particular, whether state law authorized the Leaders
to step into this newly created breach to represent the
State’s interest in the validity of its statute. But on the
present record, we defer to the district court’s judgment
that the Leaders’ renewed request for intervention as
of right was premature and without support.
C.
Finally, we turn to the district court’s reevaluation
and reaffirmation, in its second order, of its denial of
permissive intervention under Rule 24(b). This is not
the focus of the Leaders’ appeal, and for good reason.
Here, the deference accorded the district court is at its
zenith: The discretion Rule 24(b) affords the district
court is “even broader” than that under Rule 24(a)(2),
R&G Mortg. Corp. v. Fed. Home Loan Mortg. Corp., 584
F.3d 1, 11 (1st Cir. 2009), and “a challenge to the
court’s discretionary decision to deny leave to intervene
must demonstrate a clear abuse of discretion in
denying the motion,” McHenry v. Comm’r, 677 F.3d
214, 219 (4th Cir. 2012) (internal quotation marks
omitted). The Leaders cannot meet that high standard.
The district court’s original decision to deny
permissive intervention – while allowing amicus

App. 50
participation – rested on its finding that the addition of
the Leaders as parties would result in unnecessary
complications and delay, jeopardizing the court’s ability
to reach final judgment in a timely manner and likely
prejudicing the plaintiffs, who would be required to
address “dueling defendants” with multiple litigation
strategies all purporting to represent the same state
interest. NAACP I, 332 F.R.D. at 172. In its decision
reviewing the Leaders’ renewed motion – the decision
on appeal – the district court expressly reaffirmed that
finding. NAACP II, 2019 WL 5840845, at *4. And
indeed, the court found, the Leaders’ litigation conduct
in the intervening months – appealing a purported “de
facto” denial of their motion before the court had ruled
on it, and seeking the extraordinary remedy of
mandamus – had only “further convinced” it that
intervention would “distract from the pressing issues in
this case.” Id.
The Leaders disagree, as is their right, insisting
that their presence as parties, rather than amici, would
facilitate and not hinder the prompt and equitable
resolution of this litigation. But the district court’s
contrary conclusion is a factual judgment, informed by
its “on the scene presence” and going directly to its trial
management prerogatives, to which we owe the most
substantial deference. See Stuart, 706 F.3d at 350
(internal citation omitted). We have no grounds for
setting aside the court’s finding as a “clear abuse of
discretion.” McHenry, 677 F.3d at 219. Moreover, that
finding is sufficient by itself to justify the denial of
permissive intervention under Rule 24(b)(3), which
mandates the consideration of two – and only two –
factors: undue delay and prejudice to existing parties.

App. 51
See Fed. R. Civ. P. 24(b)(3); McHenry, 677 F.3d at 225
(describing undue delay and prejudice as the “core
considerations” under Rule 24(b)(3)). Whatever other
discretionary factors the court might have taken into
account under Rule 24(b) – that is, once it found that
the Leaders’ intervention was likely to cause undue
delay and prejudice to the plaintiffs – it did not abuse
its discretion, let alone “clearly” so, by denying
permissive intervention on that basis alone.
IV.
For the reasons given above, the judgment of the
district court is affirmed.
AFFIRMED
WILKINSON, Circuit Judge, dissenting:
Every attorney general who looks in the mirror sees
a governor. Or so it is said. Therein lies a temptation.
When a challenge is brought to an unpopular or
controversial state law, an attorney general’s defense
of the law may be less than wholehearted. If the
plaintiffs in the case are politically influential, the
temptation to pull punches becomes even stronger. It
casts no aspersions on anyone to note the obvious:
North Carolina’s voter photo ID law is a very
controversial statute. See 2018 N.C. Sess. Laws 144.
The attorney general’s office exists at the crossroads
of law and politics. Electoral ambitions frequently
collide with an AG’s obligations both to his client and
to the court. But this fact alone does not allow courts to
be cynical. Perhaps I am naïve in not taking a darker
view of human nature, but I believe that when a state

App. 52
statute is under challenge, an AG’s professional and
ethical obligations—and certainly those of the
Department of Justice which he leads—will most often
prevail over the political itch. The AG, after all, is the
state’s chief legal officer, and that should mean a lot.
How to disentangle the legal from the political?
Trial courts are best equipped to do so. The district
court is best situated to assess the “adequacy” of an
existing party’s representation of a proposed
intervenor’s interest. See Fed. R. Civ. Pro. 24. The
parties are right there in front of it. Adequacy
moreover is a judgment call. The court of appeals thus
has a duty to respect the abuse of discretion standard
under which a district court operates and, beyond that,
not to gratuitously make the administration of the trial
court’s docket an unmanageable task.
Open-ended intervention greatly complicates the
trial court’s duty to have the trains run on time. More
coordination of such mundane matters as continuances,
status conferences, and discovery deadlines is required.
Scheduling preferences are not the only snag. The more
parties to a litigation, the more inevitable divergences
in strategy arise, and the more complex the suit
becomes. Intervenors are no aid to simplicity. Cf. Fed.
R. Civ. Pro. 24(b)(3) (recognizing the risk of delay in the
context of permissive intervention). Multi-party
litigation tends to take longer to resolve and tends, as
well, to run up attorneys’ fees. Incurring all these costs
seems especially unnecessary where, for many a wouldbe intervenor, amicus status is quite sufficient. In other
cases, intervenors are best diverted from litigation to
the legislative realm. When appeals—like this one—are

App. 53
taken on preliminary questions only tangentially
related to the actual merits of the suit, the danger of
intervention interminability is compounded.
I find much to commend in Judge Harris’s opinion,
which underscores these points well. And here we face
the added fact that the Attorney General has both
taken an appeal from the preliminary injunction
entered against the state statute and prevailed before
this court in having the statute upheld. See NC State
Conf. of the NAACP v. Raymond, 981 F.3d 295 (4th Cir.
2020).
So why then allow intervention? And here Judge
Quattlebaum has ably presented the argument. This
case may present just that narrow set of circumstances
in which intervention should be permitted. For one, the
prospective intervenor is not a private party as in
Stuart v. Huff, 706 F.3d 345 (4th Cir. 2013), but a
coordinate branch of state government. State law
envisions a role for the General Assembly when a state
statute is under challenge. North Carolina has enacted
statutes that ask federal courts to allow both the
executive and legislative branches of the state
government to participate in actions challenging the
constitutionality of its laws. See N.C. Gen. Stat.
§ 1-72.2(a); see also id. §§ 114-2, 120-32.6. As for the
executive, the Attorney General of North Carolina has
a general statutory duty to represent the state, its
agencies, and its officers in any court proceedings. See
id. § 114-2(1), (2). That is a common responsibility of
attorneys general across the nation. North Carolina,
however, has seen fit to supplement the Attorney
General’s representation of the state when there are

App. 54
challenges to the constitutionality of state statutes.
North Carolina law allows for the General Assembly,
through its two houses’ presiding officers, to represent
the interests of the state. See id. §§ 1-72.2, 120-32.6.
While it is by no means clear that state law can
mandate that federal courts allow a single state to
speak with dual voices in federal proceedings, it is
altogether clear that federal law itself has an especially
important role to play in election law cases. No less an
authority than our Constitution leaves the legislatures
of the states the power to “prescribe[]” the “Times,
Places and Manner of holding Elections.” U.S. Const.
art. I, § 4, cl. 1. This important task was not delegated
to state government in general but to state legislatures
in particular. See id. The North Carolina photo ID law
provides a clear example of prescribing the “Manner of
holding Elections.” Thus the “interests” of the proposed
intervenors in this case could hardly be more apparent.
And in “divided government” states like North
Carolina, the danger that the executive or judicial
branches may seek to override the constitutionally
prescribed legislative role is more than theoretical.
As a result, given the confluence of factors before
the court, I would recognize a right to intervention in
these narrowest of circumstances. I would not under
any circumstances let intervention loose as a
contagious legal principle.

App. 55
NIEMEYER, Circuit Judge, dissenting:
While I compliment Judge Harris’ craftsmanship in
discussing Federal Rule of Civil Procedure 24, I concur
in Judge Quattlebaum’s fine opinion and request that
he show me as joining it. I write separately only to
emphasize that the issue is, I believe, more than a
procedural one under Rule 24.
While intervention under Rule 24 is, to be sure, the
relevant procedural question — one of federal law —
the relevant parties and their interests are substantive
issues that are to be determined by state law, and this
aspect is mostly finessed by the majority’s ruling. To
accomplish its result, the majority collapses, for
purposes of its discussion, the North Carolina parties
into the singular “State of North Carolina” and their
interests into the singular “State’s interest.” It then
concludes that under Rule 24 the Attorney General is
adequately representing North Carolina and North
Carolina’s interests and therefore no other party
having an interest in a North Carolina statute may
intervene. I think this is more than a convenient
formulation, as it fails to address the inherent
underlying issues necessary in deciding the Rule 24
motion.
The plaintiffs in this case seek a declaration that a
North Carolina election law is invalid, and they named
as defendants the Governor and the North Carolina
State Board of Elections. Yet, state law anticipates that
the State will be sued when the validity or
constitutionality of an act of the General Assembly is
challenged. See N.C. Gen. Stat. § 1-72.2(a). Section
1-72.2(a) provides that the “General Assembly and the

App. 56
Governor constitute the State of North Carolina” in
such a suit, and therefore, a court should allow the
General Assembly and the Governor “to participate in”
“any action in any federal court in which the validity or
constitutionality of an act of the General Assembly . . .
is challenged.” Id. That is declared to be the “public
policy of the State.” Id. And state law further
authorizes the General Assembly to retain counsel of
its own choosing and not necessarily the Attorney
General, thus contemplating that the General
Assembly might find the Attorney General’s counsel
inadequate or otherwise undesirable. See N.C. Gen.
Stat. § 1-72.2(b). The majority opinion fails to take
proper account of this state law, which I suggest lies at
the substantive root of this case.
To be sure, the procedural principles of Rule 24
intervention must be applied in this case to ensure that
the proper parties are before the court. But underlying
that application are questions of substantive state law
regarding who the relevant parties are and who
defends the state’s interest. The majority opinion does
not, except most obliquely, address these questions.
And its failure to recognize these aspects is especially
significant in view of the history of S.B. 824, which
entails a story of political conflicts and differences
between the branches of North Carolina government.
Indeed, giving homage to state law in these
circumstances seems to be explicitly mandated, as the
Supreme Court noted when it stated, “If the State had
designated the House to represent its interests, and if
the House had in fact carried out that mission, we
would agree that the House could stand for the State.”

App. 57
Virginia House of Delegates v. Bethune-Hill, 139 S. Ct.
1945, 1951 (2019).
Here, the State of North Carolina, as sovereign, did
designate the General Assembly to represent its
interests. And if we give its choice effect, then the
analysis conducted by the majority in concluding that
the General Assembly may not be allowed to intervene
under Federal Rule 24 because the Attorney General is
doing a good job is substantively flawed.
QUATTLEBAUM, Circuit Judge, with whom Judges
NIEMEYER, AGEE, RICHARDSON, and RUSHING
join, dissenting:
North Carolina recognized a potential problem. It
anticipated that there could be times when its
executive branch would not vigorously enforce the
state’s duly-enacted legislation. To address that
concern, North Carolina passed a law that requests the
North Carolina General Assembly be permitted,
alongside the executive branch, to defend any federal
action challenging a North Carolina statute.
More specifically, North Carolina enacted N.C. Gen.
Stat. § 1-72.2, first passed in 2013 and modified in
2017, which provides that for any action challenging an
act of the General Assembly, “[i]t is the public policy of
the State of North Carolina that . . . the General
Assembly, jointly through the Speaker of the House of
Representatives and the President Pro Tempore of the
Senate, constitutes the legislative branch of the State
of North Carolina; the Governor constitutes the
executive branch of the State of North Carolina; [and]
that, when the State of North Carolina is named as a

App. 58
defendant in such cases, both the General Assembly
and the Governor constitute the State of North
Carolina . . . .” N.C. Gen. Stat. § 1-72.2(a) (emphasis
added). It then requests that a federal court presiding
over an action where the State of North Carolina is a
named party allow both the legislative branch and the
executive branch of the State of North Carolina to
participate as a party in such an action.1 Id.
Subsequently, North Carolina passed its current
voter identification bill. In response, the state chapter
of the NAACP and several county branches (collectively
the “NAACP”) sued North Carolina’s Governor—who,
like the NAACP, opposed the bill— and the members of
the State Board of Elections that the Governor
appointed, claiming the law was unconstitutional.
North Carolina’s Attorney General, who also
publicly opposed the law, was tasked with defending it
on behalf of the Governor and the State Board of
Elections. The authority for the Attorney General to
defend the law was grounded in North Carolina law.
N.C. Gen. Stat. Ann. § 114-2 provides that “[p]ursuant
to Section 7(2) of Article III of the North Carolina
1

North Carolina passed other laws to address this same
concern. For example, N.C. Gen. Stat. § 120-32.6 provides
“[w]henever the validity or constitutionality of an act of the
General Assembly or a provision of the Constitution of North
Carolina is the subject of an action in any State or federal court,
the Speaker of the House of Representatives and the President Pro
Tempore of the Senate, as agents of the State through the General
Assembly, shall be necessary parties and shall be deemed to be a
client of the Attorney General for purposes of that action as a
matter of law and pursuant to Section 7(2) of Article III of the
North Carolina Constitution.”

App. 59
Constitution, it shall be the duty of the Attorney
General: (1) To defend all actions in the appellate
division in which the State shall be interested, or a
party, and to appear for the State in any other court or
tribunal in any cause or matter, civil or criminal, in
which the State may be a party or interested.”
However, North Carolina’s Speaker of the House of
Representatives and President Pro Tempore of the
Senate (the “Leaders”) believed that the NAACP’s
challenge to the voter identification law involved the
exact situation contemplated by N.C. Gen. Stat. § 172.2. As a result, they moved to intervene to defend the
law. They claimed a significantly protectable interest
in the litigation that, without intervention, would
practically be impaired. And they claimed that their
interest was not being adequately represented by the
Governor and the State Board of Elections due both to
the public opposition to the bill expressed by the
Governor and the Attorney General and to what they
described as the half-hearted way the Attorney General
was defending the law in this case and in a parallel
case in state court—Holmes v. Moore, No. 18-cv -15292
(N.C. Super. Ct.). The district court denied the Leaders’
motion to intervene, prompting this appeal.
For good reason, district courts are afforded
discretion in resolving motions to intervene. Appellate
courts should generally avoid micromanaging district
courts in such matters. But this is not your run of the
mill intervention case. Here, the district court excluded
from its analysis the express policy of North Carolina
as reflected in its democratically-enacted statutes.
Although federal courts need not completely defer to

App. 60
that public policy decision, the district court cannot fail
to give the State’s choice any weight.
The district court also applied the incorrect legal
standard, extending the heightened burden of a “strong
showing” of inadequacy to circumstances where, until
today, it did not apply. For both of these reasons, I
would vacate the district court’s order denying
intervention and remand so that the district court can
consider the requested intervention, evaluating all
relevant factors, under the proper legal standard.
I.
In 2018, the North Carolina General Assembly
ratified Senate Bill 824, titled “An Act to Implement
the Constitutional Amendment Requiring Photographic
Identification to Vote” (“S.B. 824”), which established,
among other things, photographic voter identification
requirements for elections in North Carolina. Governor
Roy Asberry Cooper, III, vetoed the bill, explaining that
requiring “photo IDs for in-person voting is a solution
in search of a problem.” J.A. 128. Governor Cooper
went on to state that “the fundamental flaw in the bill
is its sinister and cynical origins: It was designed to
suppress the rights of minority, poor and elderly voters.
The cost of disenfranchising those voters or any
citizens is too high, and the risk of taking away the
fundamental right to vote is too great, for this law to
take effect.” J.A. 128.
The Senate and House voted to override the veto.
Thus, S.B. 824 was enacted as North Carolina Session
Law 2018-144. The day after it was passed, the
NAACP sued Governor Cooper; the Chair of the North

App. 61
Carolina Board of Elections; the Secretary of the North
Carolina State Board of Elections; and seven other
members of the North Carolina State Board of
Elections2 (the “State Defendants”) challenging the
validity of S.B. 824. In its complaint, the NAACP
contends that S.B. 824 has a disparate impact on
African American and Latino citizens of North Carolina
in violation of Section 2 of the Voting Rights Act of
1965, 42 U.S.C. § 1973, as well as the Fourteenth and
Fifteenth Amendments to the United States
Constitution.
Relevant here, in challenging S.B. 824, the NAACP
sued the Governor—who publicly and aggressively
opposed the bill—and the State Board of Elections—
which is made up of members appointed by the
Governor. As a result, the parties defending S.B. 824
were parties with a historical opposition to the law or
entities under the indirect control of such parties.
Further, the Attorney General tasked to represent the
State Defendants has a similar history of opposing
North Carolina’s voter ID laws. For example, in early
2017, Attorney General Josh Stein moved to dismiss a
petition to the United States Supreme Court in North
Carolina v. North Carolina State Conference of NAACP,
a suit regarding the North Carolina voting law passed
in 2013. See North Carolina v. N.C. State Conf. of
NAACP, 137 S. Ct. 1399 (2017). He also issued a press
release that same day stating that he supported

2

Because the State Board was reconstituted to consist of five
governor-appointed members after the complaint was filed, those
members were substituted as parties to the action in the district
court as reflected in the district court’s order.

App. 62
“efforts to guarantee fair and honest elections, but
those efforts should not be used as an excuse to make
it harder for people to vote.” J.A. 142. From a
perception standpoint, the action bore the hallmarks of
a friendly suit.
In January 2019, the Leaders moved under Federal
Rule of Civil Procedure 24 to intervene on behalf of the
North Carolina General Assembly to oppose the
NAACP’s challenges to S.B. 824. Seeking to intervene
as a matter of right under Rule 24(a) and,
alternatively, permissively under Rule 24(b), the
Leaders argued that state law, specifically N.C. Gen.
Stat. § 1- 72.2(a) and (b), expresses the public policy of
the State of North Carolina that the President Pro
Tempore of the Senate and the Speaker of the House
represent the State of North Carolina in defense of its
statutes. They further argued that N.C. Gen. Stat.
§ 1-72.2 requests that federal courts permit their
intervention to adequately represent the State and
General Assembly’s interests where the
constitutionality of statutes, like S.B. 824, is
challenged. The State Defendants neither consented
nor objected to the motion to intervene, while the
NAACP opposed the requested intervention.
In June 2019, the district court denied the motion to
intervene, largely concluding that the State Defendants
were represented by the Attorney General, who under
North Carolina law, is charged with representing the
State in defense of its existing laws, that the State
Defendants had not abdicated their responsibility to
defend S.B 824, and that, accordingly, the Leaders
failed to make the requisite “strong showing of

App. 63
inadequacy” to overcome the presumption of adequate
representation. The district court’s denial was without
prejudice and invited a renewed motion if the Leaders
could show that the State Defendants no longer
intended to defend the lawsuit and the requirements
for intervention were otherwise satisfied. While
denying the motion to intervene, the district court
allowed the Leaders to participate in the action by
filing amicus curiae briefs.
Six weeks later, in July, the Leaders filed a renewed
motion to intervene, arguing that it was apparent that
the State Defendants would not fully defend S.B. 824.
In November, the district court denied the renewed
motion. The court concluded that its previous Rule 24
analysis, as set forth in its initial order, remained “the
law of this case,” focusing on whether the Leaders
presented newly available evidence demonstrating that
the State Defendants declined to defend this lawsuit.
J.A. 3239, 3241. It then evaluated the Leaders’ new
allegations, determining they did not involve any new
evidence. The district court thus denied the renewed
motion to intervene, this time with prejudice, and
reiterated that the Leaders could participate in the
action by filing amicus curiae briefs.
On November 11, 2019, the Leaders filed a notice of
appeal from the order denying their renewed motion to
intervene.
II.
We review the denial of a motion to intervene for
abuse of discretion. In re Sierra Club, 945 F.2d 776,
779 (4th Cir. 1991). But while our review is deferential,

App. 64
we still must ensure that the district court included the
relevant factors in its intervention analysis. See Hill v.
W. Elec. Co. Inc., 672 F.2d 381, 387 (4th Cir. 1982)
(“[W]e think the court failed to consider or gave
insufficient weight to another factor possibly militating
in favor of intervention.”). Another of our
responsibilities is to ensure that intervention decisions
are not based on incorrect legal principles. See Stuart
v. Huff, 706 F.3d 345, 349–50 (4th Cir. 2013); see also
Feller v. Brock, 802 F.2d 722, 729–30 (4th Cir. 1986)
(finding that denial of intervention as of right to apple
pickers was reversible error and admitting intervenors
as parties-defendant); Hill, 672 F.2d at 385–86, 392
(remanding action for proper consideration of the
motion for permissive intervention because the district
court did not properly apply legal standards). Here, the
district court erred in both respects. It first ignored
North Carolina’s law requesting two agents in cases
challenging the constitutionality of its duly-enacted
statutes. And then it compounded the error by setting
the bar for the Intervenors to clear too high.
III.
Federal Rule of Civil Procedure 24 permits two
types of intervention: intervention as a matter of right
under subsection (a) and permissive intervention under
subsection (b). The Leaders first claim that they are
entitled to intervene as a matter of right. They
alternatively claim they should be able to intervene
permissively.

App. 65
A.
Rule 24(a)(2) allows intervention as of right when
the movant claims an interest “relating to the property
or transaction that is the subject of the action, and is so
situated that disposing of the action may as a practical
matter impair or impede the movant’s ability to protect
its interest,” unless the movant’s interest is adequately
represented by existing parties. Fed. R. Civ. P. 24(a)(2).
There are three requirements for intervention as of
right. “[T]he moving party must show that (1) it has an
interest in the subject matter of the action,
(2) disposition of the action may practically impair or
impede the movant’s ability to protect that interest,
and (3) that interest is not adequately represented by
the existing parties.” Newport News Shipbuilding and
Drydock Co. v. Peninsula Shipbuilders’ Ass’n, 646 F.2d
117, 120 (4th Cir. 1981). Although the Majority’s
decision is limited to the adequacy requirement, I will
consider all three.3
3

The Majority concludes that our jurisdiction over this appeal
is limited to the district court’s narrow focus in its second order
denying intervention on the application of Rule 24(a)(2)’s adequacy
prong to the Attorney General’s defense of S.B. 824. Maj. Op. at 20.
I do not find our jurisdictional focus to be as narrow as the
Majority. The district court’s June 2019 order, which denied the
initial motion to intervene without prejudice, should not be
regarded as an appealable final order. In addition to being issued
without prejudice, the order did not outright deny the motion to
intervene and invited the Leaders to file a renewed motion. Thus,
in my view, it was not sufficiently final to trigger immediate
review. In contrast, the second order was a final order.
Importantly, the second order relied on the reasoning from the
first order and, in doing so, signified that the first order “should
continue to govern the same issues in subsequent stages in the

App. 66
1.
A party seeking to intervene must have “an interest
relating to the property or transaction that is the
subject of the action . . . .” Fed. R. Civ. P. 24(a)(2). The
district court found that the Leaders lacked a sufficient
interest because the Executive State Defendants had
not completely abdicated their responsibility to defend
S.B. 824. J.A. 378 (holding that “because State
Defendants in this action are presently defending the
challenged legislation and have expressed no intention

same case.” See Christianson v. Colt Indus. Operating Corp., 486
U.S. 800, 816 (1988) (quoting Arizona v. California, 460 U.S. 605,
618 (1983)). The court then denied the Leaders’ motion with
prejudice. For those reasons, I would find that the second order,
including its analysis and reference to the earlier order, was
sufficiently conclusive for appellate review. See Hodgson v. United
Mine Workers of Am., 473 F.2d 118, 126–27 (D.C. Cir. 1972) (“We
are satisfied that the June 20 order . . . constituted a fresh
evaluation of the intervention application, well within the
discretionary power of the District Court to make, and amenable
to review on the merits by this court.”).
Additionally, the Majority’s view of our jurisdiction has a
decided impact on what part of its opinion constitutes binding
precedent going forward. The Majority’s decision concerning
jurisdiction effectively resolves the first two requirements against
the Leaders. Consequently, while its jurisdictional analysis is
binding precedent of this Circuit, the Majority’s subsequent
discussion of the adequacy issue, properly construed, is dicta and
not binding in future cases. See Pittston Co. v. United States, 199
F.3d 694, 703 (4th Cir. 1999) (“Dictum is [a] ‘statement in a
judicial opinion that could have been deleted without seriously
impairing the analytical foundations of the holding—that, being
peripheral, may not have received the full and careful
consideration of the court that uttered it.’” (quoting United States
v. Crawley, 837 F.2d 291, 292 (7th Cir. 1988)).

App. 67
to do otherwise, [the Leaders] have failed to
demonstrate that they have a significantly protectable
interest in likewise defending the constitutionality of
S.B. 824 sufficient to warrant a right to intervene
under Rule 24(a)(2)”). This analysis disregards the
North Carolina law requesting federal courts permit
the General Assembly to defend state statutes in
federal court.
Rather than look to the North Carolina law, the
district court relied on cases finding that individual
legislators lack a sufficient protectable interest to
intervene in litigation over statutes for which they
voted. As a general principle, I agree. But that is not
what we have here. The Leaders rely not only on their
general position as legislators, but also on N.C. Gen.
Stat. § 1-72.2. Under the statute, in any action in
federal court challenging the validity or
constitutionality of an act of the General Assembly or
a provision of the North Carolina Constitution, “[i]t is
the public policy of the State of North Carolina that . . .
the General Assembly, jointly through the Speaker of
the House of Representatives and the President Pro
Tempore of the Senate, constitutes the legislative
branch of the State of North Carolina; the Governor
constitutes the executive branch of the State of North
Carolina; [and] that, when the State of North Carolina
is named as a defendant in such cases, both the
General Assembly and the Governor constitute the
State of North Carolina . . . .” N.C. Gen. Stat.
§ 1-72.2(a) (emphasis added). It goes on to request that
a federal court presiding over an action where the State
of North Carolina is a named party allow both the
legislative branch and the executive branch of the State

App. 68
of North Carolina to participate as a party in such an
action. Id.
Importantly, this statute does not limit the role of
the General Assembly to instances in which the
executive branch declines to defend or participate in
the action. Of course, as the district court noted in its
initial order, § 1- 72.2 only requests that a federal court
allow the legislative branch to participate. The
requirements of Rule 24(a)(2) must still be satisfied.
But statutes of a separate sovereign that express the
state’s interest and role in the litigation cannot be cast
aside and excluded from the merits of the intervention
decision. In other words, while this North Carolina
statute does not mandate federal intervention, it sets
forth the nature of the state’s interests.
Neither the Supreme Court nor this Court has
imposed the standard followed by the district
court—that the Attorney General must decline to
defend the lawsuit in order to trigger a protectable
interest on the part of the Leaders. In fact, Supreme
Court jurisprudence, while perhaps not squarely on
point, suggests the opposite.
In Virginia House of Delegates v. Bethune-Hill, 139
S. Ct. 1945 (2019), the Supreme Court addressed
whether the Virginia House of Delegates and its
Speaker had, as intervenors, standing to appeal to
defend Virginia’s redistricting plan after the
Commonwealth of Virginia announced it would not file
an appeal to the Supreme Court. Bethune-Hill, 139 S.
Ct. at 1950. The Commonwealth moved to dismiss the
House’s appeal for lack of standing. The Supreme
Court granted that motion and dismissed the appeal.

App. 69
The Court held that the “House, as a single chamber of
a bicameral legislature, has no standing to appeal the
invalidation of the redistricting plan separately from
the State of which it is a part.” Id. But while holding
that the House lacked standing there, Bethune-Hill
also emphasized “a State has standing to defend the
constitutionality of its statute.” Id. at 1951 (citation
omitted). “[A] State must be able to designate agents to
represent it in federal court,” and “if the State had
designated [a legislative branch] to represent its
interests . . . the [legislative branch] could stand in for
the State.” Id. (citation omitted). That choice, the Court
explained, “belongs to Virginia.” Id. at 1952. While in
that case, Virginia had chosen to speak only with “a
single voice,” that of the executive, nothing in the
opinion suggested it could not have dual agents. Id.
Indeed, the main point from Bethune-Hill is that states
have great deference in deciding who represents their
interests. Id. at 1952.
The Supreme Court’s guidance in Bethune-Hill is
consistent with its earlier decision in Hollingsworth v.
Perry, 570 U.S. 693 (2013). There, the Court held that
“the Speaker and the President, in their official
capacities, could vindicate that interest in federal court
on the legislature’s behalf,” noting that “a State has a
cognizable interest ‘in the continued enforceability’ of
its laws that is harmed by a judicial decision declaring
a state law unconstitutional.” Hollingsworth, 570 U.S.
at 709–10 (citations omitted). And the Court further
provided that “[t]o vindicate that interest or any other,
a State must be able to designate agents to represent
it in federal court,” because a state is a political
corporate body that can only act through its agents. Id.

App. 70
at 710 (citing Poindexter v. Greenhow, 114 U.S. 270,
288 (1885)). “That agent is typically the State’s
attorney general. But state law may provide for other
officials to speak for the State in federal court . . . .” Id.
And here the Leaders represent the entire
bicameral legislative branch in North Carolina, making
this matter comparable to Arizona State Legislature v.
Arizona Independent Redistricting Commission, 135
S.Ct. 2652 (2015). In that case, the Court recognized
the Arizona legislature’s standing to challenge a ballot
initiative threatening its authority over redistricting.
See also Arizonans for Official English v. Arizona, 520
U.S. 43, 65 (1997) (“We have recognized that state
legislators have standing to contest a decision holding
a state statute unconstitutional if state law authorizes
legislators to represent the State’s interests.”).
As the Majority points out, in Bethune-Hill,
Hollingsworth and Arizonans for Official English, the
state representative was no longer defending the state
or declined to appeal an adverse ruling. That
distinction, to the Majority, means those decisions have
little bearing here. I disagree. In emphasizing the
principle that a state must be able to designate its
agents to represent it in federal court, none of those
decisions limited that principle to situations where the
initial agent was no longer participating in the defense
or declined to appeal an adverse ruling. For example,
and most recently, the Supreme Court, in Bethune-Hill,
reiterated the Court’s earlier holding that “a State
must be able to designate agents” for representation in
federal court. Bethune-Hill, 139 S. Ct. at 1951 (quoting
Hollingsworth, 570 U.S. at 710). Relevant here, the

App. 71
Court referenced “agents”—plural not singular, without
further limitation. See id. Thus, I would not impose on
these Supreme Court decisions a limitation not
imposed by the Court itself.
Finally, in determining that the Leaders lacked a
sufficient interest in the S.B. 824 litigation, the district
court also found the Leaders’ reliance on the Supreme
Court case Karcher v. May, 484 U.S. 72 (1987),
misplaced. The district court reasoned that the issue
before the Supreme Court there was whether public
officials, who participated as intervenors in their
official capacities, could continue to appeal an adverse
judgment after leaving office—an issue that the district
court indicated is not present here. Respectfully, the
district court reads Karcher too narrowly. Karcher also
confirmed that “[t]he authority to pursue the lawsuit
on behalf of the legislature belongs to those who
succeeded [the legislators] in office.” Id. at 77. Although
the issues presented here may not be identical to those
presented there, Karcher reiterates the role that active
legislators play in defending a lawsuit depends on a
particular state’s law, which is an issue relevant to the
interests asserted by the Leaders.
Bethune-Hill, Hollingsworth, Arizona State
Legislature and Karcher 4 indicate that the
determination of the sufficiency of the interests of the
Leaders in this litigation requires a careful
4

Although these decisions primarily focus on standing, the
issues presented overlap with the question of the movant’s
interests in the litigation under Rule 24(a)(2). See generally
Hollingsworth, 570 U.S. at 710 (noting the legislature’s authority
to represent the state’s interests).

App. 72
consideration of N.C. Gen. Stat. §1-72.2(a). In my view,
the district court failed to do this. Although it cited the
statute in full in its first order, its only discussion of
the statute in relation to the question of the Leaders’
interests was mentioning how the statute only
requested that a federal court allow intervention. That
is, of course, true as far as it goes. But that brief
discussion does not go to the merits of the Leaders’
interest in the case. Even though the North Carolina
statute does not require that the Leaders’ motion be
granted, that statute bears on the merits of the
intervention decision.
And this is the case even if you follow the Majority’s
view that we may only review the second order. When
the district court issued its initial order, it lacked the
benefit of Bethune-Hill. But its second order addresses
Bethune-Hill, even if only in a footnote, stating,
without analysis, that Bethune-Hill does not “change
the calculus.” J.A. 3241. The second order also cites
N.C. Gen. Stat. §1-72.2(a). Despite Bethune-Hill’s
guidance, however, the district court only refers to the
statute a single time, stating that it is “far from clear
whether [the Leaders] are authorized to intervene
when the State Board and Attorney General are
already defending a suit in federal court.” Id.
Importantly, just as it failed to analyze Bethune-Hill,
the district court failed to analyze the North Carolina
statutes, concluding that it did not have to do so as long
as the State Board and Attorney General were
defending the suit. Once again, it is not our job to
micromanage how the district court weighs the
relevant factors in the intervention analysis. But it is
our job to ensure that relevant factors, one of which

App. 73
here is §1-72.2(a), are not excluded from the analysis.
I would remand the case to the district court to
consider the North Carolina statute in the analysis of
the Leaders’ interest in the litigation—with particular
attention to the Supreme Court’s instructions that the
state may choose its agents to defend its statutes in
federal court and that the North Carolina statute does
so here.
2.
Having found no protectable interest, the district
court predictably found the Leaders failed to satisfy
Rule 24(a)’s second requirement—whether the
disposition of this case would practically impair or
impede their ability to protect their interest absent
intervention. As a remand is needed to address the
Leaders’ alleged protectable interest, remand is also
necessary to address this second requirement.
3.
Finally, I turn to adequate representation—the
third requirement for intervention as of right. On this
issue, the Leaders complain the State Defendants have
consistently failed to adequately defend North
Carolina’s voter identification legislation. They argue
that the State Defendants’ efforts have been less than
rigorous in Holmes, the parallel state court case, which,
according to Leaders, is consistent with the State
Defendants’ withdrawal of a viable petition for
certiorari to the Supreme Court in litigation over North
Carolina’s prior voter identification law. Further, the
Leaders argue the State Defendants have continued
this pattern since the order denying intervention.

App. 74
Specifically, the State Defendants elected not to call
expert witnesses at the hearing on the preliminary
injunction over the implementation of S.B. 824 and
have represented that they will not call experts at the
trial. In addition, the Governor has filed an amicus
brief in support of the NAACP regarding the appeal of
the preliminary injunction issued by the district court.
Finally, the Leaders point to the public comments of
the Governor and Attorney General described above.
They claim this record reveals an adversity of interest
with the State Defendants which satisfies Rule 24(a)’s
inadequacy requirement.
The district court, as noted above, determined that
the Leaders had not made a sufficient showing of
inadequacy. While we afford district courts discretion
in resolving motions to intervene, a court necessarily
abuses its discretion when it applies the wrong legal
standard to evaluate adequacy and when it excludes
pertinent factors from consideration. Here, the district
court did both.
a.
Beginning with the legal standard for adequacy, the
district court initially acknowledged that a would-be
intervenor generally bears a minimal burden of
showing inadequacy of representation by an existing p
arty. See Trbovich v. United Mine Workers, 404 U.S.
528 (1972). But it also applied a presumption of
adequacy from our Commonwealth of Virginia v.
Westinghouse Electric Corporation, 542 F.2d 214, 216
(4th Cir. 1976) decision that arises when a party
seeking intervention has the same ultimate objective as
a party to the suit. Under that presumption, the

App. 75
proposed intervenor must establish one of three
factors—adversity of interest, collusion or
nonfeasance—to overcome this presumption and meet
the inadequacy requirement. The district court
identified those three factors and attempted to apply
them in its order.
The district court then concluded its adequacy
analysis by holding “[the Leaders] have failed to
sustain their burden of demonstrating the requisite
‘strong showing of inadequacy’ to overcome the
presumption of adequate representation by State
Defendants and their counsel, the Attorney General.”
J.A. 386 (emphasis added). In using the phrase “strong
showing of inadequacy,” the district court added a
heightened burden to overcome the Westinghouse
presumption. In imposing that heightened burden, it
cited our decision in Stuart v. Huff, 706 F.3d 345 (4th
Cir. 2013), which requires intervenors to “mount a
strong showing of inadequacy” where defendants are
represented by a government agency. Stuart, 706 F.3d
at 352.
I disagree that the Leaders needed to overcome that
presumption by the heightened standard of a “strong
showing.” See Trbovich, 404 U.S. at 538 n.10. That
heightened standard from Stuart does not, and should
not, apply here.
In Stuart, abortion-services providers sued state
officials over a North Carolina statute restricting
abortions. 706 F.3d at 347. A group of pro-life medical
professionals and others sought to intervene claiming
the state defendants would not adequately protect their
interests. Thus, we addressed whether “to permit

App. 76
private persons and entities to intervene in the
government’s defense of a statute . . . .” Id. at 351
(emphasis added). We held that, in such a situation,
“the putative intervenor must mount a strong showing
of inadequacy” in the context of those private persons
and entities on the basis of government entities’ duty
to represent the people in public litigation matters. Id.
at 352.
We explained two primary reasons for requiring a
“strong showing” of inadequacy. First, we noted that in
the face of a constitutional challenge to its statute, “the
government is simply the most natural party to
shoulder the responsibility of defending the fruits of
the democratic process.” Id. at 351. We added “[i]t is
after all the government that, through the democratic
process, gains familiarity with the matters of public
concern that lead to the statute’s passage in the first
place.” Id. Our discussion distinguished between the
government and private citizens. And it is eminently
reasonable to make that distinction. But in Stuart, we
did not distinguish between different officials or
branches of the government, and to do so now would
not be reasonable. With no intent to disparage the
Attorney General, I see no reason he is either the “most
natural” agent to defend S.B. 824—a law that he has
publicly opposed—or is more familiar with the matters
of public concern that led to its passage in the first
place as opposed to the Leaders. If anything, it would
be more natural for the agents of the government that
supported passage of the statute to defend its
constitutionality than those who openly opposed it.
That, of course, is a judgment best left to states. And
when, like here, the state makes such a judgment, it

App. 77
must be considered when determining whether to
permit intervention in a federal lawsuit challenging a
state statute like S.B. 824.
Second, we noted that “to permit private persons
and entities to intervene in the government’s defense
of a statute upon only a nominal showing would greatly
complicate the government’s job.” Id. That makes
sense. Allowing private citizens party status in a state’s
defense of its laws raises a host of concerns ably
identified in Stuart. But this, of course, is not a case
where a member of the public is seeking to intervene in
the government’s defense. The Leaders here, like the
State Defendants, are representatives of the State of
North Carolina. In fact, they have been designated by
that State as its agents for defending the
constitutionality of North Carolina’s laws. And while
one might argue that allowing a second governmental
entity to intervene to represent North Carolina
complicates the government’s job, any such
complication is its own doing. When, as here, a state
passes a statute designating its agents for defending
the constitutionality of its laws, it is not for us to
second guess that decision.
Stuart was, and remains, an important decision.
Nothing I say here is intended to suggest otherwise or
to in any way carve back its application. But the
“strong showing” standard it imposed was for
situations in which private litigants seek to intervene
in the government’s defense. The reasons set forth in
Stuart for requiring a “strong showing” of inadequacy
simply are not present here. Thus, Stuart does not
govern and should not be expanded. That does not

App. 78
mean the Leaders’ motion should be granted. It just
means it should not be saddled with the heightened
burden of making a “strong showing.”
The Majority, in concluding that Stuart should be
extended, relies in part on the Seventh Circuit’s
decision in Planned Parenthood of Wisconsin, Inc. v.
Kaul, 942 F.3d 793 (7th Cir. 2019). And Kaul does, in
fact, impose a heightened burden—one requiring a
proposed intervenor to establish gross negligence or
bad faith—to overcome the presumption of adequacy
that circuit applied when a state attorney general was
defending the constitutionality of a law. Id. at 801. In
fact, the burden it imposes is more onerous than that
required under Stuart. But with respect to the Majority
and our sister circuit, I find the burden Kaul applied is
too far removed from the text of Rule 24 to be
persuasive. After all, the Rule itself imposes no
presumption. In my view, any judicially created
presumption should be undertaken with care. And I
respectfully disagree with the Majority’s suggestion
that Kaul aligns with our Stuart decision. Following
Kaul would extend Stuart beyond its context of a
private citizen seeking to intervene to defend the
constitutionality of a state law and impose, without
justification, a heightened burden not found in Rule 24.
Further, I find the reasoning of Kaul puzzling.
There, the Seventh Circuit left no doubt that it would
defer to the Legislature if it were to designate one
agent to represent the state regardless of which entity
it was. In fact, the Seventh Circuit said it could “see no
reason why a federal court would bat an eye if a state
required its attorney general to withdraw from his

App. 79
representation and allow another entity, including a
legislature, to take over a case.” Kaul, 942 F.3d at 802.
It would not, however, defer to a statute that called for
the Legislature to litigate alongside the Attorney
General. But in Bethune-Hill, Hollingsworth, Arizona
State Legislature and Karcher, the Supreme Court has
made clear that states should be able to select their
agents to defend the constitutionality of their laws and
here we have statutory language that gives the North
Carolina General Assembly final decision-making
authority with respect to the defense of a challenged
act. See N.C. Gen. Stat. Ann. § 120-32.6. That said, I
see no reason we should have any more of a problem
with a state selecting two representatives than with it
selecting one. The key point is that it is the state’s
choice.
Kaul also contends a heightened burden is needed
to avoid drawing the district courts into an “intractable
procedural mess that would result from the
extraordinary step of allowing a single entity, even a
state, to have two independent parties simultaneously
representing it.” Id. at 801. I agree that having two
independent parties representing a state is unusual.
But in my view, it is going too far to impose a
heightened burden based on that risk. After all, district
courts are afforded broad discretion to utilize the many
options available to it to handle complex procedural
matters. And they do this all the time with situations
no less complex than what we have here. I am
convinced that district courts possess the necessary
tools to address any complexities arising from the

App. 80
state’s decision to have more than one representative
defending the constitutionality of its laws.5
For all of these reasons, I would not extend Stuart’s
heightened burden of a strong showing of inadequacy
to the situation presented here.
b.
But if the Leaders need not satisfy the heightened
standard of a strong showing, what is the proper
standard? To answer that question, I return to
Westinghouse. There, we indicated the standard for
establishing inadequacy generally was the minimal
burden set forth by the Supreme Court in Trbovich.
Westinghouse, 542 F.2d at 216. As already noted, we
then held that if the proposed intervenor seeks the
same ultimate relief as an existing party, the proposed
intervenor must show either adversity of interest,
collusion or malfeasance. Id. But while our
Westinghouse decision concludes that a proposed
intervenor seeking the same ultimate relief as an
existing party must show one of those three factors, it
does not hold or even suggest any change from the
minimal burden of establishing those factors. Thus, in
my view a remand is needed so that the district court
can evaluate whether the Leaders have established
adversity of interest, collusion or malfeasance using the
“minimal” burden standard of Trbovich. Trbovich, 404
U.S. at 538 n.10 (noting that the requirement of Rule
5

Consistent with my view, after the panel granted the Leaders’
motion to intervene in the appeal, North Carolina’s two
representatives divided oral argument time and allocated the
various positions in a way that created no undue burden on us.

App. 81
24 is satisfied if the applicant shows that
representation of his interest may be inadequate and
noting that the burden of making that showing is
minimal); Westinghouse, 542 F.2d at 216 (“[A]ppellant’s
burden of showing an inadequacy of representation is
minimal.”).
c.
Having described the proper standard for
evaluating adequacy, I turn to the pertinent factors the
district court should consider in applying this standard.
Using the standard outlined above, the district court
should consider the evidence presented by the parties,
as well as N.C. Gen. Stat. § 1-72.2.
The district court did not consider §1-72.2 in its
adequacy analysis. But in enacting that statute, North
Carolina has expressed its desire for the Leaders to
represent it in litigation like the case before us.
Implicit in that expression is the state’s belief that,
without the involvement of the Leaders, it will not be
adequately represented. North Carolina, in enacting
the statute, made the predictive judgment that there
will be cases where the Executive Branch will not
adequately represent its interests. And without stating
one way or the other as to whether the Leaders should
prevail, the public comments of the Governor and the
Attorney General, and the other information they
allege, are sufficient to require the statute to be
considered. To be clear, this statute should not and
does not automatically satisfy the Rule 24(a)
intervention requirements. But it does bear on the
adequacy analysis and, thus, must be considered.

App. 82
B.
Last, the district court also denied the Leaders’
alternative request for permissive intervention. But it
erred in doing so without even considering the North
Carolina statute requesting that the General Assembly
be permitted to intervene.
Permissive intervention contemplates intervention
upon timely application “when an applicant’s claim or
defense and the main action have a question of law or
fact in common.” See Newport News Shipbuilding &
Drydock Co., 646 F.2d at 118 n.1. “If intervention of
right is not warranted, a court may still allow an
applicant to intervene permissively under Rule 24(b),
although in that case the court must consider ‘whether
the intervention will unduly delay or prejudice the
adjudication of the original parties’ rights.’” Stuart, 706
F.3d at 349 (quoting Fed. R. Civ. P. 24(b)(3)).
Of note, the district court expressed concern with
the potential for delays, which could result from adding
the Leaders as parties, and with the additional burdens
on the court and potential prejudice to the NAACP.
And our appellate review of those concerns is
deferential because “Rule 24’s requirements are based
on dynamics that develop in the trial court . . . .” Id. at
350. The trial court, in its broad discretion, is thus well
positioned to evaluate those requirements. But “[w]hile
the efficient administration of justice is always an
important consideration, fundamental fairness to every
litigant is an even greater concern.” Columbus-Am.
Discovery Grp. v. Atl. Mut. Ins. Co., 974 F.2d 450, 470
(4th Cir. 1992). And “liberal intervention is desirable to
dispose of as much of a controversy ‘involving as many

App. 83
apparently concerned persons as is compatible with
efficiency and due process.’” Feller, 802 F.2d at 729
(quoting Nuesse v. Camp, 385 F.2d 694, 700 (D.C. Cir.
1967)).
In denying permissive intervention, the district
court failed to even consider N.C. Gen. Stat. § 1-72.2.
Given the import of that statute as discussed above, it
should have done so in deciding how to exercise its
discretion. Rule 24(b)(3) does not impose a limitation
on what may be considered. Again, without suggesting
an outcome or the weight the statute or other factors
should be afforded, I would remand the case for
consideration of the permissive intervention request.
IV.
For the above-stated reasons, I respectfully dissent.

App. 84

APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-2273
(1:18-cv-01034-LCB-LPA)
[Filed June 7, 2021]
_______________________________________________
NORTH CAROLINA STATE CONFERENCE
OF THE NAACP; CHAPEL HILL-CARRBORO
NAACP; GREENSBORO NAACP; HIGH POINT
NAACP; MOORE COUNTY NAACP; STOKES
COUNTY BRANCH OF THE NAACP; WINSTON
SALEM-FORSYTH COUNTY NAACP,
Plaintiffs – Appellees,
v.
PHILIP E. BERGER, in his official capacity
as President Pro Tempore of the North Carolina
Senate; TIMOTHY K. MOORE, in his official
capacity as Speaker of the North Carolina House
of Representatives,
Appellants,
and
KEN RAYMOND, in his official capacity as a
member of the North Carolina State Board of

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

App. 85
Elections; STELLA ANDERSON, in her official
capacity as Secretary of the North Carolina
State Board of Elections; DAMON CIRCOSTA,
in his official capacity as Chair of the North
Carolina State Board of Elections; JEFFERSON
CARMON III, in his official capacity as a member
of the North Carolina State Board of Elections;
DAVID C. BLACK, in his official capacity as a
member of the North Carolina State Board of
Elections,

)
)
)
)
)
)
)
)
)
)
)
Defendants – Appellees.
)
_______________________________________________ )
___________________
JUDGMENT
___________________
In accordance with the decision of this court, the
judgment of the district court is affirmed.
This judgment shall take effect upon issuance of
this court’s mandate in accordance with Fed. R. App. P.
41.
/s/ PATRICIA S. CONNOR, CLERK

App. 86

APPENDIX C
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-2273
[Filed August 14, 2020]
_______________________________________________
NORTH CAROLINA STATE CONFERENCE
OF THE NAACP; CHAPEL HILL-CARRBORO
NAACP; GREENSBORO NAACP; HIGH POINT
NAACP; MOORE COUNTY NAACP; STOKES
COUNTY BRANCH OF THE NAACP; WINSTON
SALEM-FORSYTH COUNTY NAACP,
Plaintiffs – Appellees,
v.
PHILIP E. BERGER, in his official capacity
as President Pro Tempore of the North Carolina
Senate; TIMOTHY K. MOORE, in his official
capacity as Speaker of the North Carolina House
of Representatives,
Appellants,
and
KEN RAYMOND, in his official capacity as a

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

App. 87
member of the North Carolina State Board of
Elections; STELLA ANDERSON, in her official
capacity as Secretary of the North Carolina
State Board of Elections; DAMON CIRCOSTA,
in his official capacity as Chair of the North
Carolina State Board of Elections; JEFFERSON
CARMON, in his official capacity as a member
of the North Carolina State Board of Elections;
DAVID C. BLACK, in his official capacity as a
member of the North Carolina State Board of
Elections,

)
)
)
)
)
)
)
)
)
)
)
)
Defendants – Appellees.
)
_______________________________________________ )
Appeal from the United States District Court for the
Middle District of North Carolina at Greensboro.
Loretta C. Biggs, District Judge.
(1:18-cv-01034-LCB-LPA)
Argued: May 27, 2020

Decided: August 14, 2020

Before HARRIS, RICHARDSON,
QUATTLEBAUM, Circuit Judges.

and

Vacated and remanded by published opinion. Judge
Quattlebaum wrote the opinion, in which Judge
Richardson joined. Judge Harris wrote a dissent.
ARGUED: David Henry Thompson, COOPER & KIRK
PLLC, Washington, D.C., for Appellants. Stephen K.
Wirth, ARNOLD & PORTER KAYE SCHOLER LLP,
Washington, D.C.; Paul Mason Cox, NORTH
CAROLINA DEPARTMENT OF JUSTICE, Raleigh,
North Carolina, for Appellees. ON BRIEF: Peter A.

App. 88
Patterson, Nicole J. Moss, Haley N. Proctor, Nicole
Frazer Reaves, COOPER & KIRK PLLC, Washington,
D.C.; Nathan A. Huff, PHELPS DUNBAR LLP,
Raleigh, North Carolina, for Appellants. Joshua H.
Stein, Attorney General, Olga E. Vyotskaya de Brito,
Special Deputy Attorney General, NORTH CAROLINA
DEPARTMENT OF JUSTICE, Raleigh, North
Carolina, for State Board Appellees. Irving Joyner,
Cary, North Carolina; Penda D. Hair, Washington,
D.C., Caitlin A. Swain, FORWARD JUSTICE, Durham,
North Carolina; John C. Ulin, Los Angeles, California,
James W. Cooper, Jeremy C. Karpatkin, Andrew T.
Tutt, Jacob Zionce, ARNOLD & PORTER KAYE
SCHOLER LLP, Washington, D.C., for Appellees North
Carolina State Conference of the NAACP, Chapel
Hill-Carrboro NAACP, Greensboro NAACP, High Point
NAACP, Moore County NAACP, Stokes County Branch
of the NAACP, and Winston Salem-Forsyth County
NAACP.
QUATTLEBAUM, Circuit Judge:
Philip E. Berger, President Pro Tempore of the
North Carolina Senate, and Timothy K. Moore,
Speaker of the North Carolina House of
Representatives, appeal the district court’s denial of
their renewed motion to intervene in an action brought
by North Carolina State Conference of the NAACP,
Chapel Hill-Carrboro NAACP, Greensboro NAACP,
High Point NAACP, Moore County NAACP, Stokes
County Branch of the NAACP and the Winston
Salem-Forsyth County NAACP (collectively, the
“NAACP”). For the reasons set forth below, we vacate
the district court’s order denying the motion and

App. 89
remand for further consideration consistent with this
opinion.
I.
On December 6, 2018, after being referred to several
committees and going through amendments and
readings in both the House and Senate, the North
Carolina General Assembly ratified Senate Bill 824,
titled “An Act to Implement the Constitutional
Amendment Requiring Photographic Identification to
Vote” (“S.B. 824”), which established, inter alia,
photographic voter identification requirements for
elections in North Carolina. The bill was presented to
Governor Roy Asberry Cooper, III, that same day. On
December 14, 2018, Governor Cooper vetoed the bill.
On December 18, 2018, the Senate voted to override the
veto, and the next day, the House voted similarly.
Thus, on December 19, 2018, S.B. 824 was enacted as
North Carolina Session Law 2018-144.
On December 20, 2018, the NAACP sued Governor
Cooper; the Chair of the North Carolina Board of
Elections; the Secretary of the North Carolina State
Board of Elections; and seven other members of the
North Carolina State Board of Elections1 (the “State
Defendants”) challenging the validity of S.B. 824. In its
complaint, the NAACP contends that S.B. 824 has a
disparate impact on African American and Latino
citizens of North Carolina in violation of Section 2 of
1

Because the State Board was reconstituted to consist of five
governor-appointed members after the complaint was filed, those
members were substituted as parties to the action in the district
court as reflected in the district court’s order.

App. 90
the Voting Rights Act of 1965, 42 U.S.C. § 1973, as well
as the Fourteenth and Fifteenth Amendments of the
United States Constitution. The NAACP sought, among
other relief, a declaration that the challenged
provisions of S.B. 824 violate Section 2 of the Voting
Rights Act and the Fourteenth and Fifteenth
Amendments, and an injunction against the
implementation of the provisions of S.B. 824 that
impose voter-identification requirements.
Relevant here, in challenging S.B. 824, the NAACP
sued the Governor (who publicly opposed the bill) and
the State Board (which is composed of members
appointed by the Governor). The NAACP did not sue
the North Carolina General Assembly, any of its
general members, or any other proponents of the bill.
As a result, the parties defending the bill were parties
with an historical opposition to the bill or entities
under the indirect control of such parties. Further, the
Attorney General tasked to represent those defendants
has a similar history of opposing the bill under
challenge.
On January 14, 2019, Berger and Moore (the
“Proposed Intervenors”) moved under Federal Rule of
Civil Procedure 24 to intervene on behalf of the North
Carolina General Assembly to oppose the NAACP’s
challenges to S.B. 824. Seeking to intervene as a
matter of right under Rule 24(a) and, alternatively,
permissively under Rule 24(b), the Proposed
Intervenors argued that state law, specifically N.C.
Gen. Stat. § 1-72.2(a) and (b), expresses the public
policy of the State of North Carolina that the President
Pro Tempore of the Senate and the Speaker of the

App. 91
House represent the State of North Carolina in defense
of its statutes. They further argued that the statute
provides they have standing as agents of the State of
North Carolina in such actions and requests that
federal courts permit their intervention to adequately
represent the State and General Assembly’s interests
in statutes, like S.B. 824, whose constitutionality is
challenged. The State Defendants neither consented
nor objected to the motion to intervene while the
NAACP opposed the request to intervene as of right or
permissively. (J.A. 371.)
On June 3, 2019, the district court denied the
motion to intervene, largely concluding that the State
Defendants were required by provisions of the North
Carolina Constitution and other North Carolina
statutes to defend the State, that the State Defendants
had not abdicated their responsibility to defend S.B
824, and that, accordingly, the Proposed Intervenors
failed to demonstrate the requisite “strong showing of
inadequacy” to overcome the presumption of adequate
representation by the State Defendants. The district
court’s denial was without prejudice to the motion
being renewed if the Proposed Intervenors could show
that the State Defendants no longer intended to defend
the lawsuit and the requirements for intervention were
otherwise satisfied. While denying the motion to
intervene, the district court allowed the Proposed
Intervenors to participate in the action by filing amicus
curiae briefs.
On July 19, 2019, the Proposed Intervenors filed a
renewed motion to intervene, arguing that it was
apparent that the State Defendants would not fully

App. 92
defend S.B. 824. On September 17, 2019, after the
State Defendants filed opposition papers, the Proposed
Intervenors moved to ascertain the status of their
renewed motion, noting that they had not been a part
of discovery and initial planning of the S.B. 824
litigation, and informing the district court that, if their
renewed motion was not ruled on by September 23,
2019, they planned to appeal the “de facto denial” of
their motion and/or file a mandamus petition with the
Fourth Circuit. (J.A. 778.)
On September 23, 2019, the Proposed Intervenors,
having received no ruling from the court, noticed the
appeal seeking review of a “de facto” denial of their
renewed motion to intervene (No. 19-2048) and
petitioned for a writ of mandamus directing the district
court to permit intervention (No. 19-2056). The NAACP
moved to dismiss the appeal. On October 8, 2019, we
denied the mandamus petition and granted the motion
to dismiss the interlocutory appeal, concluding that we
lacked appellate jurisdiction based on the record at the
time.
On November 7, 2019, the district court denied the
renewed motion. The court concluded that its previous
Rule 24 analysis, as set forth in its June 3 order,
remained undisturbed and declined to revisit its
rulings from that order. It then evaluated the Proposed
Intervenors’ new allegations determining they did not
involve any new evidence that the State Defendants
had declined to defend the lawsuit. The district court
thus denied the “Renewed Motion to Intervene” with
prejudice and reiterated that the Proposed Intervenors

App. 93
were permitted to participate in the action by filing
amicus curiae briefs.
On November 11, 2019, the Proposed Intervenors
filed a notice of appeal from the order denying their
renewed motion to intervene. (J.A. 3248.)
II.
Before we address the merits of the appeal, we must
first consider several threshold matters.
A.
The NAACP argues that the Proposed Intervenors’
failure to appeal the denial of their initial motion to
intervene divests us of appellate jurisdiction to
consider this appeal. In response, the Proposed
Intervenors argue we have jurisdiction to review the
denial of the renewed motion to intervene which
merged with the order denying their initial motion to
intervene.
We may exercise jurisdiction only over final orders
and certain interlocutory and collateral orders. See 28
U.S.C. §§ 1291; 1292; Cohen v. Beneficial Indus. Loan
Corp., 337 U.S. 541, 545 (1949). The denial of a motion
to intervene under Rule 24 is treated as a final
judgment that is appealable. See Sharp Farms v.
Speaks, 917 F.3d 276, 289 (4th Cir. 2019); Bridges v.
Dep’t of Maryland State Police, 441 F.3d 197, 207 (4th
Cir. 2006). Once the district court enters the order
denying intervention, a party has 30 days to file a
notice of appeal from that order and may not await
final judgment in the underlying action to do so. Sharp

App. 94
Farms, 917 F.3d at 289; see also 28 U.S.C. § 2107(a);
Fed. R. App. P. 4(a)(1)(A).
Thus, we must determine whether the district
court’s June 3, 2019 order, which denied the initial
motion to intervene without prejudice and indicated
that the Proposed Intervenors would be able to renew
their motion if the circumstances changed, should be
regarded as an appealable final order.
In this inquiry, we are guided by the Supreme
Court’s decision in Stringfellow v. Concerned Neighbors
in Action, 480 U.S. 370 (1987). There, the district court
denied a nonprofit’s motion to intervene as of right but
granted the motion for permissive intervention subject
to conditions. Stringfellow, 480 U.S. at 373. After the
nonprofit appealed challenging the conditions of the
permissive intervention, the Supreme Court addressed
the question of “whether a district court order granting
permissive intervention but denying intervention as of
right is immediately appealable.” Id. at 372. The
Supreme Court held that a grant of intervention was
not an immediately appealable collateral order because
the district court did not outright deny the motion to
intervene. See id. at 375-376. Thus, the intervenor
retained the power to appeal any final judgment and,
as a result, could then challenge the conditions of the
permissive intervention imposed by the lower court. Id.
Therefore, the Supreme Court held that it could not
“conclude that [the proposed intervenor’s] interests will
be ‘irretrievably lost in the absence of an immediate
appeal.’” Stringfellow, 480 U.S. at 376 (quoting
Richardson-Merrell Inc. v. Koller, 472 U.S. 424, 431
(1985)).

App. 95
Stringfellow, while different from this case in that
it involved granting intervention with conditions,
nevertheless teaches that we should examine the
orders here to see if they outright denied the motion
and if the Proposed Intervenors’ interests will be
irretrievably lost absent an immediate appeal. Looking
first at the June 3, 2019 order, we first note the district
court denied the motion to intervene without prejudice.
Not every denial of a motion to intervene “without
prejudice” necessarily lacks sufficient conclusiveness to
warrant immediate review. See Rhode Island v. U.S.
E.P.A., 378 F.3d 19, 26 (1st Cir. 2004); see also Bing v.
Brivo Systems, LLC, 959 F.3d 605, 611 (4th Cir 2020)
(considering the district court’s opinion in light of the
entire record in determining that an order dismissing
a complaint without prejudice is a final, appealable
order). But, in addition to being without prejudice, the
order here invited a renewed motion upon changed
circumstances. Because of these provisions, the June 3
order did not outright deny the motion to intervene and
lacked the conclusiveness needed to trigger immediate
review. Accordingly, the June 3 order was not a final
appealable order.
In contrast, the November 7, 2019 order was an
outright denial of the motion to intervene. Unlike the
June 3 order, it was with prejudice. And in denying the
renewed motion to intervene, the district court referred
to its analysis from the June 3 order indicating that it
remained in effect. It then addressed and rejected
additional arguments from the Proposed Intervenors
arising from what they claimed to be new facts and
circumstances. These terms make clear the November
7 order, including its analysis from the June 3 order,

App. 96
was sufficiently conclusive for appellate review. See
Hodgson v. United Mine Workers of Am., 473 F.2d 118,
126–27 (D.C. Cir. 1972) (“We are satisfied that the
June 20 order…constituted a fresh evaluation of the
intervention application, well within the discretionary
power of the District Court to make, and amenable to
review on the merits by this court.”). Accordingly, we
have jurisdiction under 28 U.S.C. § 1291.
B.
Next, as it did before the district court, the NAACP
argues the Proposed Intervenors lack Article III
standing to intervene. The NAACP maintains that
invalidating S.B. 824 would not cause the General
Assembly any cognizable injury. It further alleges that
a state statute, in this case N.C. Gen. Stat. § 1-72.2,
could not confer Article III standing on a state
legislature.2
An Article III court must have jurisdiction to reach
the merits of a case. “One essential aspect of this
requirement is that any person invoking the power of
a federal court must demonstrate standing to do so.”
Hollingsworth v. Perry, 570 U.S. 693, 704 (2013). A
litigant must prove that he has (1) suffered a concrete
and particularized injury, that (2) is fairly traceable to

2

Below, in addressing this argument, the district court noted
that the NAACP failed to cite, nor did it independently find, a
Fourth Circuit case holding that an intervenor-defendant must
also establish Article III standing. Given an apparent “silence on
the issue by the Fourth Circuit,” the district court declined to
impose a standing requirement on the Proposed Intervenors. (J.A.
372.)

App. 97
the challenged conduct, and (3) is likely to be redressed
by a favorable decision. Id. (citing Lujan v. Defenders of
Wildlife, 504 U.S. 555, 560–561 (1992)). While most
standing questions consider whether a plaintiff has
satisfied the requirement in initially filing suit, Article
III requires that an “‘actual controversy’ persist
throughout all stages of litigation.” Hollingsworth, 570
U.S. at 705 (quoting Already, LLC v. Nike, Inc., 568
U.S. 85, 90–91 (2013)). The standing requirement
therefore “must be met by persons seeking appellate
review, just as it must be met by persons appearing in
courts of first instance.” Arizonans for Official English
v. Arizona, 520 U.S. 43, 64 (1997); see also Virginia
House of Delegates v. Bethune-Hill, 139 S. Ct. 1945,
1950–51(2019).3
Critical to the standing inquiry is N.C. Gen. Stat.
§ 1-72.2. The statute provides that, as to any action in
federal court in which the validity or constitutionality
of an act of the General Assembly or a provision of the
North Carolina Constitution is challenged, “[i]t is the
public policy of the State of North Carolina that . . . the
General Assembly, jointly through the Speaker of the
House of Representatives and the President Pro
Tempore of the Senate, constitutes the legislative
3

The Supreme Court’s Town of Chester. v. Laroe Estates, Inc.,
137 S. Ct. 1645, 1648 (2017) decision indicates that a litigant
seeking to intervene of right need only to meet the requirements
of Article III if pursuing relief not requested by a party. Proposed
Intervenors argue that, under that decision, they need not
establish standing since they are seeking the same relief as the
State Defendants. But we need not resolve that question because,
whether required or not, the Proposed Intervenors have
established standing.

App. 98
branch of the State of North Carolina; the Governor
constitutes the executive branch of the State of North
Carolina; that, when the State of North Carolina is
named as a defendant in such cases, both the General
Assembly and the Governor constitute the State of
North Carolina….” N.C. Gen. Stat. § 1-72.2(a)
(emphasis added). It goes on to request that a federal
court presiding over an action where the State of North
Carolina is a named party allow both the legislative
branch and the executive branch of the State of North
Carolina to participate as a party in such an action. Id.
The statute then addresses standing. The “Speaker of
the House of Representatives and the President Pro
Tempore of the Senate, as agents of the State, … shall
jointly have standing to intervene on behalf of the
General Assembly as a party in any judicial proceeding
challenging a North Carolina statute or provision of the
North Carolina Constitution.” N.C. Gen. Stat.
§ 1-72.2(b).
To be sure, neither this nor any other state statute
automatically establishes Article III standing. That is
an issue for the federal courts to decide. But by the
same token, the statute must inform our
understanding and analysis of the standing issue
presented here. That is particularly true given the
Supreme Court’s consistent instructions that a state
has standing to defend constitutional challenges to its
laws and to select its agents for doing so.
In Virginia House of Delegates v. Bethune-Hill, 139
S. Ct. 1945 (2019), the Supreme Court addressed
whether the Virginia House of Delegates and its
Speaker had, as intervenors, standing to appeal to

App. 99
defend Virginia’s redistricting plan after the
Commonwealth of Virginia conveyed it would not file
an appeal to the Supreme Court.4 The Commonwealth
moved to dismiss the House’s appeal for lack of
standing. The Supreme Court granted that motion and
dismissed the appeal. The Court held that the “House,
as a single chamber of a bicameral legislature, has no
standing to appeal the invalidation of the redistricting
plan separately from the State of which it is a part.”
Bethune-Hill, 139 S. Ct. at 1950. But while holding
that the House lacked standing there, Bethune-Hill
also emphasized “a State has standing to defend the
constitutionality of its statute.” Id. at 1951 (citation
omitted). And “a State must be able to designate agents
to represent it in federal court” and “if the State had
designated [a legislative branch] to represent its
interests . . . the [legislative branch] could stand in for
the State.” Id. (citation omitted).
The Supreme Court’s guidance in Bethune-Hill is
consistent with its earlier decision in Hollingsworth.
There, the Court held that “the Speaker and the
President, in their official capacities, could vindicate
that interest in federal court on the legislature’s
behalf,” noting that “a State has a cognizable interest
‘in the continued enforceability’ of its laws that is
harmed by a judicial decision declaring a state law
unconstitutional.” Hollingsworth, 570 U.S. at 709-710
(citations omitted). And the Court further provided
that “[t]o vindicate that interest or any other, a State
must be able to designate agents to represent it in
4

We recognize that the district court did not have the benefit
of Bethune-Hill at the time of the June 3 order.

App. 100
federal court,” because a state is a political corporate
body that can only act through its agents. Id. (citing
Poindexter v. Greenhow, 114 U.S. 270, 288 (1885)).
“That agent is typically the State’s attorney general.
But state law may provide for other officials to speak
for the State in federal court . . . .” Hollingsworth, 570
U.S.at 710.
Further, the Proposed Intervenors represent the
entirety of the bicameral legislative branch in North
Carolina which makes this matter comparable to
Arizona State Legislature v. Arizona Independent
Redistricting Commission, 135 S.Ct. 2652 (2015). In
that case, the Court recognized the Arizona
legislature’s standing to challenge a ballot initiative
threatening its authority over redistricting. See also
Arizonans for Official English v. Arizona, 520 U.S. 43,
65 (1997) (“We have recognized that state legislators
have standing to contest a decision holding a state
statute unconstitutional if state law authorizes
legislators to represent the State’s interests.”).
Our colleague in dissent points out that in
Bethune-Hill, Hollingsworth and Arizonans for Official
English, the state representative was no longer
defending the state or declined to appeal an adverse
ruling. That distinction, to the dissent, means those
decisions have little bearing here. But while those
decisions emphasized the principle that a state must be
able to designate its agents to represent it in federal
court, none limited that principle to situations where
the initial agent no longer was participating in the
defense or declined to appeal an adverse ruling. More
specifically, Justice Ginsburg, in Bethune-Hill,

App. 101
reiterated the Court’s earlier holding that a state must
be able to designate agents for representation in
federal court and wrote “if the State had designated [a
legislative branch] to represent its interests . . . the
[legislative branch] could stand in for the State.”
Bethune-Hill, 139 S. Ct. at 1951. But in so stating, the
Court did not limit intervention to such scenarios
where a state representative was no longer a part of
the lawsuit. We decline to impose a limitation to these
Supreme Court decisions not imposed by the Court.
Based on N.C. Gen. Stat. § 1-72.2 and the Supreme
Court decisions described above, we find that the
Proposed Intervenors have established Article III
standing for the purposes of intervention before the
district court.
C.
Next, while the State Defendants take no position
on whether the Legislative Intervenors should be
allowed to intervene before the district court, they
assert N.C. Gen. Stat. § 1-72.2(a) violates North
Carolina’s express guarantee of separation of powers.
The NAACP asserts the same in challenging the
statute as an unconstitutional usurpation of and the
hinderance to the power of the Executive branch. They
insist that, under the North Carolina Constitution,
only the Executive branch can enforce North Carolina’s
laws. The Legislative Intervenors, in response, claim
that they are only defending the challenged statute, not
enforcing it, which does not run afoul of the North
Carolina Constitution.

App. 102
Having considered the arguments, we agree with
the Proposed Intervenors. Of course, “[t]he legislative,
executive, and supreme judicial powers of the State
government shall be forever separate and distinct from
each other.” N.C. CONST. art. I, § 6. And the state’s
“Governor shall take care that the laws be faithfully
executed.” N.C. CONST. art. III, § 5(4); see Cooper v.
Berger, 822 S.E.2d 286, 289–90 (N.C. 2018) (noting the
Governor’s important responsibility in “ensuring that
[North Carolina’s] laws are properly enforced.”). But
that does not preclude the participation of the Proposed
Intervenors in a court action challenging the validity or
constitutionality of an act of the General Assembly in
accordance with statutory provisions. N.C. Gen. Stat.
§ 1-72.2(a); see also N.C. Gen. Stat. § 120-32.6
(“Whenever the validity or constitutionality of an act of
the General Assembly or a provision of the Constitution
of North Carolina is the subject of an action in any
State or federal court, the Speaker of the House of
Representatives and the President Pro Tempore of the
Senate, as agents of the State through the General
Assembly, shall be necessary parties and shall be
deemed to be a client of the Attorney General for
purposes of that action as a matter of law and pursuant
to Section 7(2) of Article III of the North Carolina
Constitution.”). Execution of the law and defense of a
challenged act are different acts. The Proposed
Intervenors are not seeking to act on behalf of the
Executive branch nor would any intervention, if
granted, permit them to do so. In fact, obstructing the
legislative branch from performing its role in defending
the duly enacted legislation might violate separation of
powers principles. See generally United States v.
Windsor, 570 U.S. 744, 762 (2013) (addressing

App. 103
separation-of-powers principles). Thus, we reject the
arguments of the NAACP and the State Defendants
that § 1-72.2 infringes on the powers of the Executive
Branch in violation of the North Carolina
Constitution’s separation of powers provisions.5
III.
With these threshold matters addressed, we turn to
the merits of the district court’s denial of the Proposed
Intervenors’ motion to intervene. We review the denial
of a motion for intervention for abuse of discretion. In
re Sierra Club, 945 F.2d 776, 779 (4th Cir. 1991). But
while our appellate review of district court rulings on
the intervention is deferential, part of our
responsibility is to ensure intervention decisions not
based on incorrect legal principles. See Stuart v. Huff,
706 F.3d 345, 349–50 (4th Cir. 2013); see also Feller v.
Brock, 802 F.2d 722, 729-30 (4th Cir. 1986) (finding
that denial of intervention as of right to apple pickers
was reversible error and admitting intervenors as
parties-defendant); Hill v. W. Elec. Co. Inc., 672 F.2d
381, 385–86, 392 (4th Cir. 1982) (remanding action for
proper consideration of the motion for permissive
intervention because the district court did not properly
apply legal standards).

5

In responding to the NAACP’s separation of powers
arguments, we see nothing in the statute that requires a resolution
be passed by the General Assembly in order for the Proposed
Intervenors to intervene in this lawsuit. Thus, the Proposed
Intervenors should not be faulted for not obtaining “authorization”
to intervene.

App. 104
Using that standard, we address the requirements
for intervention. Intervention in a federal action is
governed by Federal Rule of Civil Procedure 24. The
Rule allows for two types of intervention: intervention
as a matter of right under subsection (a) and
permissive intervention under subsection (b). The
Proposed Intervenors first claim that they are entitled
to intervene as a matter of right. They alternatively
claim they should be able to intervene permissively.
A.
Rule 24(a)(2) allows intervention as of right when
the movant claims an interest “relating to the property
or transaction that is the subject of the action, and is so
situated that disposing of the action may as a practical
matter impair or impede the movant’s ability to protect
its interest,” unless the movant’s interest is adequately
represented by existing parties. Fed.R.Civ.P. 24(a)(2).
There are three requirements for intervention as of
right. “[T]he moving party must show that (1) it has an
interest in the subject matter of the action,
(2) disposition of the action may practically impair or
impede the movant’s ability to protect that interest,
and (3) that interest is not adequately represented by
the existing parties.” Newport News Shipbuilding and
Drydock Co. v. Peninsula Shipbuilders’ Ass’n, 646 F.2d
117, 120 (4th Cir. 1981). We will consider each of these
requirements.

App. 105
1.
Starting with the first requirement,6 a party
seeking to intervene must have “an interest relating to
the property or transaction that is the subject of the
action. . . .” Fed.R.Civ.P 24(a)(2). In determining that
the Proposed Intervenors lacked a sufficient interest,
the district court held, “because the State Defendants
in this action are presently defending the challenged
legislation and have expressed no intention to do
otherwise, Proposed Intervenors have failed to
demonstrate that they have a significantly protectable
interest in likewise defending the constitutionality of
S.B. 824 sufficient to warrant a right to intervene
under Rule 24(a)(2).” (J.A. 378.) Thus, the district court
based its decision that the Proposed Intervenors did
not establish a protectable interest on the fact that the
State Defendants had not abdicated their responsibility
to defend S.B. 824.
In support of this proposition, the district court
cited several district court decisions holding individual
6

Of course, timeliness of the motion is a “cardinal
consideration” of whether to permit intervention and must be
considered as an initial matter. See Houston Gen. Ins. Co. v. Moore,
193 F.3d 838, 839 (4th Cir. 1999) (citation omitted). To determine
if a motion to intervene is sufficiently timely, the trial court should
assess (1) “how far the underlying suit has progressed,” (2) the
“prejudice any resulting delay might cause the other parties” and
(3) “why the movant was tardy in filing its motion.” Alt. v. U.S.
E.P.A., 758 F.3d 588, 591 (4th Cir. 2014). The Proposed
Intervenors did not delay in filing the renewed motion to intervene
after their initial motion was denied, and it was filed relatively
early in the case. From the arguments, this issue is not in dispute
on appeal and we see no need to further address it here.

App. 106
legislators do not have a sufficient protectable interest
to intervene in litigation over statutes for which they
voted. But that is not what we have here. The Proposed
Intervenors rely not only on their general position as
legislators, but on N.C. Gen. Stat. § 1-72.2. Under that
statute, as noted above, it is the policy of the State of
North Carolina that “both the General Assembly and
the Governor constitute the State of North
Carolina. . . .” N.C. Gen. Stat. § 1-72.2(a). And
subsection (b) provides the “Speaker of the House of
Representatives and the President Pro Tempore of the
Senate, as agents of the State, … shall jointly have
standing to intervene on behalf of the General
Assembly as a party in any judicial proceeding
challenging a North Carolina statute or provision of the
North Carolina Constitution.” N.C. Gen. Stat.
§ 1-72.2(b). Finally, under N.C. Gen. Stat. §120-32.6
(b), “[w]henever the validity or constitutionality of an
act of the General Assembly or a provision of the
Constitution of North Carolina is the subject of an
action in any State or federal court, the Speaker of the
House of Representatives and the President Pro
Tempore of the Senate, as agents of the State through
the General Assembly, shall be necessary parties. . . .”
Importantly, these statutes do not limit the role of
the General Assembly to instances where the executive
branch declines to defend or participate in the action.
Of course, as the district court noted, § 1-72.2 only
requests that a federal court allow the legislative
branch to participate. The requirements of Rule
24(a)(2) must still be satisfied. However, in applying
those Rule 24 principles, courts should not disregard
the statute of a separate sovereign that expresses the

App. 107
state’s and the Legislature’s interest and role in the
litigation. In other words, while these North Carolina
statutes do not mandate the federal intervention, they
set forth the nature of the legislative branch’s interests,
and § 1-72.2 has done so, in some form, since 2013.
The presence of these statutes distinguishes this
case from those cited by the district court. And we see
no requirement elsewhere that the Attorney General
must decline to defend the lawsuit in order to trigger a
protectable interest on the part of the Proposed
Intervenors. Thus, the district court’s decision to that
effect was in error.
In determining that the Proposed Intervenors
lacked a sufficient interest in the S.B. 824 litigation,
the district court also found the Proposed Intervenors’
reliance on the Supreme Court case Karcher v. May,
484 U.S. 72 (1987), misplaced. The district court
reasoned that the issue before the Supreme Court there
was whether public officials, who participated as
intervenors in their official capacities, could continue to
appeal an adverse judgment after leaving office—an
issue, the district court indicated, that is not present
here. Respectfully, the district court reads Karcher too
narrowly. Karcher also confirmed that “[t]he authority
to pursue the lawsuit on behalf of the legislature
belongs to those who succeeded [the legislators] in
office.” Id. at 77. Although the issues presented here
may not be identical to those presented there, Karcher
reiterates the role that active legislators play in
defending a lawsuit depending on a particular state’s
law, which is an issue relevant to the interests asserted
by the Proposed Intervenors.

App. 108
Further, Bethune-Hill, while primarily a standing
case, informs our analysis of whether the Proposed
Intervenors have a sufficient interest under Rule
24(a)(2). As we noted earlier, Bethune-Hill confirmed
that “a State must be able to designate agents to
represent it in federal court” and “if the State had
designated [a legislative branch] to represent its
interests . . . the [legislative branch] could stand in for
the State.” Bethune-Hill, 139 S. Ct. at 1951.
Karcher and Bethune-Hill, along with
Hollingsworth and Arizona State Legislature,7 indicate
that the determination of the sufficiency of the
interests of the Proposed Intervenors in this litigation
requires a careful consideration of N.C. Gen. Stat.
§1-72.2(a). The district court erred in not doing so.
Although it cited the statute in full, its only discussion
of it in relation to the question of the Proposed
Intervenors’ interests was mentioning how the statute
only requested that a federal court allow intervention.
We remand the case to the district court to more fully
consider the North Carolina statute in the analysis of
the Proposed Intervenors’ interest in the
litigation—with particular attention to the Supreme
Court’s instructions that the state may choose its
agents to defend its statutes in federal court and the
North Carolina statutes seeming to do so here.

7

Although these decisions primarily focus on standing, the
issues presented overlap with the question of the movant’s
interests in the litigation under Rule 24(a)(2). See generally
Hollingsworth v. Perry, 570 U.S. 693, 709 (2013) (noting the
legislature’s authority to represent the state’s interests).

App. 109
2.
Next, the district court briefly addressed Rule
24(a)’s second requirement in responding to the
Proposed Intervenors’ contention that disposition of
this case would practically impair or impede their
ability to protect their interest absent intervention. But
because it concluded that the Proposed Intervenors
failed to demonstrate a significant protectable interest
sufficient to warrant intervention as of right, the
district court necessarily determined they could not
show this case threatens to impair any such interests.
Having determined that remand is needed to address
the Proposed Intervenors’ alleged protectable interest,
remand is also necessary to address this second
requirement.
If, on remand, the Proposed Intervenors have
presented a significantly protectable interest, the
district court must then determine whether the movant
“is so situated that disposing of the action may as a
practical matter impair or impede the movant’s ability
to protect its interest. . . .” Fed.R.Civ.P 24(a)(2). The
focus of the requirement is on whether the proposed
intervenor would suffer a “practical disadvantage or
impediment” if not permitted to intervene. Newport
News Shipbuilding & Drydock Co., 646 F.2d at 121
(emphasis added). Thus, the rule does not require the
showing of impairment or impediment of only a legal
nature. See Francis v. Chamber of Commerce of U. S.,
481 F.2d 192, 195 (4th Cir. 1973); see also Utah Ass’n
of Ctys. v. Clinton, 255 F.3d 1246, 1253 (10th Cir. 2001)
(noting “the court is not limited to consequences of a
strictly legal nature” and that the “would-be intervenor

App. 110
must show only that impairment of its substantial legal
interest is possible. . . .”). In Francis, this Court noted
that:
Prior to the 1966 amendment of Rule 24, the
rule was that a party could not intervene under
24(a) unless it might be bound by the judgment
in the pending action. The term bound was
interpreted to mean bound in the res judicata
sense. The Rule now requires only that the
“disposition of the action may as a practical
matter impair or impede his (the applicant’s)
ability to protect that interest.” This was
designed to liberalize the right to intervene in
federal actions.
Francis, 481 F.2d at 195 n.8; see also 7C Wright &
Miller, Federal Practice and Procedure, § 1908.2 (3d
ed.) (“It generally is agreed that in determining
whether disposition of the action will impede or impair
the movant’s ability to protect its interest the question
must be put in practical terms rather than in legal
terms.”). Thus, it is possible that “this practical
disadvantage or impediment” would not be
“significantly relieved by allowing the [proposed
intervenors] to participate as amicus in the district
court proceeding.” Newport News Shipbuilding &
Drydock Co., 646 F.2d at 121; see also Feller, 802 F.2d
at 730 (“Participation by the intervenors as amicus
curiae is not sufficient to protect against these practical
impairments.”).
The Proposed Intervenors argue the time-sensitive
nature of the case; the adequacy of the State
Defendants’ defense of the constitutionality of S.B. 824;

App. 111
and their interest in engaging in discovery, presenting
experts and participating in motions practice, all
evidence risks to the protection of their interests. The
district court did not consider these issues because it
determined that the Proposed Intervenors lacked a
sufficient interest under Rule 24(a). But we have
concluded that determination to be inadequate and
remanded the case for further consideration. Because
the Proposed Intervenors may have interests which
may be practically impaired if not permitted to
intervene in the action before the district court, we
conclude that remand is necessary on this issue as well.
3.
Finally, we turn to the adequate representation
requirement for intervention as of right. Beginning
with the standard for assessing the adequacy of the
existing parties to protect the movant’s interests, the
district court initially acknowledged that a would-be
intervenor generally bears a minimal burden of
showing inadequacy of representation by an existing
party citing Trbovich v. United Mine Workers, 404 U.S.
528 (1971). But the district court also applied a
presumption of adequacy from Commonwealth of
Virginia v. Westinghouse 542 F.2d 214, 216 (4th Cir.
1976) that arises when a party seeking intervention
has the same ultimate objective as a party to the suit.
Under that presumption, the proposed intervenor must
establish one of three factors—adversity of interest,
collusion or nonfeasance—to overcome this
presumption and meet the inadequacy requirement.
The district court identified those three factors and
attempted to apply them in its order.

App. 112
Yet the court concluded its adequacy analysis by
holding “Proposed Intervenors have failed to sustain
their burden of demonstrating the requisite ‘strong
showing of inadequacy’ to overcome the presumption of
adequate representation by State Defendants and their
counsel, the Attorney General.” J.A. 386 (emphasis
added). In using the phrase “strong showing of
inadequacy,” the district court added a heightened
burden to overcome the Westinghouse presumption. In
imposing that heightened burden, it cited our decision
in Stuart v. Huff, 706 F.3d 345 (4th Cir. 2013), which
requires intervenors to “mount a strong showing of
inadequacy” where defendants are represented by a
government agency. Stuart, 706 F.3d at 352.
Although it was appropriate for the district court to
apply the Westinghouse presumption since the
Proposed Intervenors and the State Defendants appear
to seek the same ultimate objective—the defense of
S.B. 8248—the district court erred in demanding that
8

The Proposed Intervenors also argue the Westinghouse
presumption does not apply here due to the presence of N.C. Gen.
Stat. § 1-72.2. It is true that neither Westinghouse nor other cases
in our Circuit where this presumption has been applied involve a
state statute like § 1-72.2. Through that statute, North Carolina,
a separate sovereign—through the democratic process—has
expressly provided that it is its public policy that the Proposed
Intervenors represent it in litigation over the constitutionality of
its laws. While the statute should not and does not automatically
satisfy the Rule 24(a) intervention requirements, we find the
Proposed Intervenors’ contention that they should not have to
show adversity of interest, collusion or nonfeasance to overcome a
presumption of adequacy in its efforts to establish those
requirements persuasive. Such a heightened burden makes sense
in the traditional case of private parties seeking to intervene. But

App. 113
the Proposed Intervenors overcome that presumption
by the heightened standard of a “strong showing.” See
cf. Trbovich v. United Mine Workers, 404 U.S. 528
(1971). That heightened standard from Stuart does not
apply here.
In Stuart, abortion-services providers sued state
officials over a North Carolina statute restricting
abortions. A group of pro-life medical professionals and
others sought to intervene claiming the state
defendants would not adequately protect their
interests. Thus, we addressed whether “to permit
private persons and entities to intervene in the
government’s defense of a statute. . . .” Stuart, 706 F.3d
at 351. We held that, in such a situation, “the putative
intervenor must mount a strong showing of
inadequacy” in the context of those private persons and
entities on the basis of government entities’ duty to
represent the people in public litigation matters. Id. at
352.
Importantly, we explained two primary reasons for
requiring a “strong showing” of inadequacy. First, we
noted that “[i]t is after all the government that,
through the democratic process, gains familiarity with
the matters of public concern that lead to the statute’s
passage in the first place.” Id. at 351. And second, we
noted that “to permit private persons and entities to
intervene in the government’s defense of a statute upon
in this situation, imposing the presumption in the face of a statute
like the one adopted by the State of North Carolina risks conflict
in our federal system of government. Even so, our holding in
Westinghouse is broad and, despite our concerns, we are
constrained to follow it here.

App. 114
only a nominal showing would greatly complicate the
government’s job.” Id. These reasons make clear the
strong showing standard imposed by Stuart was for
situations where private litigants seek to intervene in
the government’s defense.
Of course, this is not a case where a member of the
public is seeking to intervene in the government’s
defense. The Proposed Intervenors here, like the State
Defendants, are representatives of the State of North
Carolina. In fact, they have been designated by that
State as its agents for purposes of defending the
constitutionality of North Carolina’s laws. As such, the
reasons set forth in Stuart for requiring a strong
showing of inadequacy are not present. Thus, we
conclude the Stuart presumption does not apply where
another governmental branch, at least where
authorized to do so by state statute, seeks intervention.
And for that reason, we remand the case to the district
court to determine, pursuant to Westinghouse, whether
the Proposed Intervenors are able to rebut the
presumption of adequacy by establishing either
adversity of interest,9 collusion or nonfeasance. They
are not required, however, to meet Stuart’s heightened

9

As we recognized in Stuart, the “conventional proposition that
where the existing party and proposed intervenor seek divergent
objectives, there is less reason to presume that the party
(government agency or otherwise) will adequately represent the
intervenor.” Stuart, 706 F.3d at 352. We followed that “[i]n such
circumstances, it is perfectly sensible to require a more modest
showing of inadequacy before granting intervention of right since
an existing party is not likely to adequately represent the interests
of another with whom it is at cross purposes in the first instance.”
Id.

App. 115
standard of a “strong showing” to rebut the
presumption.
The dissent, in concluding a heightened burden
should apply, relies heavily on the Seventh Circuit’s
decision in Planned Parenthood of Wisconsin, Inc. v.
Kaul, 942 F.3d 793 (7th Cir. 2019). And Kaul does, in
fact, impose a heightened burden—one requiring a
proposed intervenor to establish gross negligence or
bad faith—to overcome the presumption of adequacy
that circuit applied when a state attorney general was
defending the constitutionality of a law. Id. at 799. But
with all due respect to the dissent and our sister
circuit, we find the burden Kaul applied too far
removed from the text of Rule 24 to be persuasive.
After all, the Rule itself imposes no presumption. In
our view, any judicially created presumption should be
undertaken with care. And we respectfully disagree
with our colleague’s suggestion that Kaul aligns with
our Stuart decision. In our view, following Kaul would
extend Stuart beyond its context of a private citizen
seeking to intervene to defend the constitutionality of
a state law.
But if the Proposed Intervenors need not satisfy the
heightened standard of a strong showing, what is the
proper standard? To answer that question, we return
to Westinghouse.
There, we indicated the standard for establishing
inadequacy generally was the “minimal burden” set
forth by the Supreme Court in Trbovich. As already
noted, we then indicated that if the proposed
intervenor seeks the same ultimate relief as an existing
party, the proposed intervenor must show either

App. 116
adversity of interest, collusion or malfeasance. But
while our Westinghouse decision indicates that a
proposed intervenor seeking the same ultimate relief as
an existing party must show one of those three factors,
it does not hold or even suggest any change from the
minimal burden of establishing those factors. Thus, on
remand, the district court should evaluate whether the
Proposed Intervenors have established adversity of
interest, collusion or malfeasance using the “minimal
burden” standard of Trbovich. Trbovich, 404 U.S. at
538, n. 10 (noting that the requirement of Rule 24 is
satisfied if the applicant shows that representation of
his interest may be inadequate and noting that the
burden of making that showing is minimal);
Westinghouse, 542 F.2d at 216 (“appellant’s burden of
showing an inadequacy of representation is minimal”).
Finally, the Proposed Intervenors point to certain
facts and evidence to support their contention that the
State Defendants may not adequately represent the
Proposed Intervenors’ interests. Particularly, they
point to the State Defendants’ defense of this suit and
litigation decisions, as well as the State Defendants’
actions in a parallel case in the state court—Holmes v.
Moore, No 18-cv-15292 (N.C. Super. Ct.), and the
history predating the litigation such as Governor and
Attorney General’s opposition to voter ID. We are
careful to note that the district court is afforded
discretion in the Rule 24(a) analysis. It is not our job as
the appellate court to lightly second guess the manner
in which the district court weighs the evidence in
conducting an adequacy analysis. But, at a minimum,
it is our job to ensure that the proper standard is
applied. On remand, using the standard outlined

App. 117
above, the district court should consider all of the
evidence presented by the parties, as well as the North
Carolina statutes cited above.10 In enacting those
statutes, the State of North Carolina has expressed its
desire for the Proposed Intervenors to represent it in
litigation like the case before us. Implicit in that
expression is the state’s belief that, without the
involvement of the Proposed Intervenors, it will not be
adequately represented.
The dissent concludes the North Carolina statutes
should not be considered in the adequacy analysis.
While we respect that differing opinion, we disagree
with the view that the state law and policy cannot be
considered as part of both the adequacy and interest
elements of Rule 24(a)(2). There are countless examples
in the law where the same fact or facts apply to
multiple legal issues. That is all we have here. The fact

10

We note that the pertinent inquiry is whether the Proposed
Intervenors can establish either collusion, nonfeasance or
adversity of interest. To the extent not considered by the district
court before, we think it would be appropriate for the district court
to consider the public comments of the Governor and Attorney
General about the prior and current voter ID laws, as well as the
status of the related litigation and the parties’ role therein. In
addition, evidence related to the intervention question has
developed since the issuance of the district court’s order and may
also be relevant. We, of course, do not have the full record of those
developments but are aware of concerns about the State
Defendants’ alleged failure to name or call experts in connection
with the preliminary injunction hearing, as well as the Governor’s
filing of an amicus brief in the related appeal (No. 20-1092) of the
district court’s preliminary injunction order. Without expressing
any weight, we feel that these issues should be considered on
remand.

App. 118
that the policy expressed in the statutes is pertinent to
the interest analysis should have no bearing on
whether it should also be considered in the adequacy
analysis.
Moreover, the dissent’s analysis on the relevance of
the North Carolina statutes to the adequacy analysis
suggests that we have held that the statutes require
that the Proposed Intervenors’ motion be granted.
Dissenting Op. at 50 (“[I]f an aspiring legislative
intervenor can meet both the interest element and the
adequacy element whenever state law announces a
policy preference for multiple representatives, then a
district court may be subjected routinely to the
‘intractable procedural mess that would result from the
extraordinary step of allowing a single entity, even a
state, to have two independent parties simultaneously
representing it.’”) To be clear, these statutes should not
and do not automatically satisfy the Rule 24(a)
intervention requirements. But they do bear on the
adequacy analysis.
B.
Last, the district court also denied the Proposed
Intervenors’ alternative request for permissive
intervention. “Permissive Intervention” contemplates
intervention upon timely application “when an
applicant’s claim or defense and the main action have
a question of law or fact in common.” See Newport
News Shipbuilding & Drydock Co., 646 F.2d 117, 119
n.1. “If intervention of right is not warranted, a court
may still allow an applicant to intervene permissively
under Rule 24(b), although in that case the court must
consider ‘whether the intervention will unduly delay or

App. 119
prejudice the adjudication of the original parties’
rights.’” Stuart, 706 F.3d at 349 (quoting Fed.R.Civ.P
24(b)(3)).
Of note, the district court expressed concern with
the potential for delays which could result with the
addition of Proposed Intervenors as parties to the
action, and that inclusion of the Proposed Intervenors
would place additional burdens on the court and cause
the NAACP prejudice. We do not disregard these
concerns, and we acknowledge that our appellate
review is deferential because “Rule 24’s requirements
are based on dynamics that develop in the trial
court. . . .” Stuart, 706 F.3d at 350. The trial court, in
its broad discretion, is thus in the best position to
exercise its judgment in evaluating those requirements.
We also recognize that district courts must make many
trial management decisions in managing dockets. See
id. We in no way question the district court in carrying
out those important duties. But “[w]hile the efficient
administration of justice is always an important
consideration, fundamental fairness to every litigant is
an even greater concern.” Columbus-Am. Discovery
Grp. v. Atl. Mut. Ins. Co., 974 F.2d 450, 470 (4th Cir.
1992). And “liberal intervention is desirable to dispose
of as much of a controversy ‘involving as many
apparently concerned persons as is compatible with
efficiency and due process.’” Feller, 802 F.2d 722, 729
(4th Cir. 1986) (quoting Nuesse v. Camp, 385 F.2d 694,
700 (D.C. Cir. 1967)).
In denying permissive intervention, the district
court did not address N.C. Gen. Stat. §§ 1-72.2(a) and
(b) and 120-32.6. Given the import of those statutes as

App. 120
discussed above, it should have. Again, without
suggesting an outcome or the weight the statutes
should be afforded, we remand the case for
consideration of the permissive intervention request in
light of the above.
IV.
For the above-stated reasons, the district court’s
order denying the Proposed Intervenors’ motion for
intervention under Rule 24 is
VACATED AND REMANDED.
PAMELA HARRIS, Circuit Judge, dissenting:
North Carolina’s Attorney General is charged by
statute with representing the interests of the State of
North Carolina in cases that challenge the validity and
enforcement of state law. Consistent with that
statutory duty, the Attorney General currently is in
court – two courts, state and federal – defending the
constitutionality of S.B. 824. Indeed, our own court
soon will hear the Attorney General’s appeal from the
district court’s decision to preliminarily enjoin the
enforcement of S.B. 824.
Notwithstanding the Attorney General’s persistent
efforts, the Proposed Intervenors – out of respect for
their positions in the General Assembly, I will refer to
them as the Leaders – seek to intervene in ongoing
district court proceedings. If the Leaders have standing
to intervene in that litigation, it is, as the majority
explains, as agents of the State of North Carolina,
designated by state law to represent the State’s
interest in the validity and enforcement of state law.

App. 121
But another designated agent of the State – the
Attorney General – already is representing precisely
that interest.
It follows that the Leaders have a right to intervene
under Rule 24(a)(2) of the Federal Rules of Civil
Procedure only if a federal court first finds that the
Attorney General is inadequately representing the
State’s interest, in contravention of his statutory duty.
In a recent – and unmistakably similar – case, the
Seventh Circuit explained that such a finding would be
“extraordinary.” Planned Parenthood of Wis., Inc. v.
Kaul, 942 F.3d 793, 801 (2019). I agree. And the
district court’s careful review of the Attorney General’s
litigation conduct persuades me that there is no basis
to make such an extraordinary finding here. Because
that leaves the Leaders with no right to intervene
under Rule 24(a), and because I believe the district
court properly denied permissive intervention under
Rule 24(b), I must respectfully dissent.
I.
A.
In my view, this is a straightforward case – or, at
least, it should be. To understand why, it may be
helpful to clarify up front what this case is and is not
about.
Crucially, this is not a case like those to which the
majority looks for guidance – Virginia House of
Delegates v. Bethune-Hill, 139 S. Ct. 1945 (2019),
Hollingsworth v. Perry, 570 U.S. 693 (2013), and
Arizonans for Official English v. Arizona, 520 U.S. 43
(1997) – in which a state representative, typically an

App. 122
attorney general, is no longer defending state law or
has declined to appeal an adverse ruling. As the
majority explains, those circumstances present difficult
questions about the standing of other entities to
intervene and continue a case in the state attorney
general’s stead. See Maj. Op. at 10–13. But at bottom,
the issue in those cases is whether any state
representative will be permitted to defend a state’s
interest in the validity of its laws when that state’s
“default representative” has declined to do so. Kaul,
942 F.3d at 800 (describing the mine run of cases
where a legislature seeks to intervene “once the
governmental defendant’s default representative ha[s]
dropped out of the case”).
Here, by contrast, the State’s “default
representative” – the Attorney General – has not
“dropped out of the case.” Id. The Attorney General is
charged, by North Carolina statute, with representing
the State’s interests in cases involving challenges to
state law. See N.C. Gen. Stat. § 114-2(1) (“[I]t shall be
the duty of the Attorney General . . . to appear for the
State . . . in any cause or matter, civil or criminal, in
which the State may be a party or interested.”); see also
Martin v. Thornburg, 359 S.E.2d 472, 479 (N.C. 1987)
(Attorney General has the duty to defend the interests
of the State and its agencies). Consistent with that
statutory duty, the Attorney General is very much in
this case, defending the constitutionality of S.B. 824 in
state and federal courts, including our own.
The Leaders argue – and the majority agrees, see
Maj. Op. at 11–14 – that they have standing to
intervene because state law has designated them, along

App. 123
with the Attorney General, to represent the interests of
the State in federal court. See Reply Br. of Appellants
at 10; see also Bethune-Hill, 139 S. Ct. at 1951 (where
state law designates a legislative entity to “represent
[the State’s] interests,” that entity may “stand in for
the State”). But those are exactly the interests already
represented by the Attorney General in this case. So,
the unusual question presented here is whether a
federal district court must allow not one but “two state
entities . . . to speak on behalf of the State at the same
time.” Kaul, 942 F.3d at 800 (first emphasis added).
The answer to that question, all agree, is governed
not by state law but by federal law: specifically, Rule
24(a)(2)’s criteria for intervention as of right. Though
state law may “inform the Rule 24(a)(2) calculus,” id. at
797, provisions like North Carolina’s § 1-72.2 cannot
“supplant the Federal Rules of Civil Procedure and
make intervention automatic,” id. And under Rule
24(a)(2) – again, this is not disputed – the Leaders have
a right to intervene only if their “interest is not
adequately represented by existing parties to the
litigation.” Stuart v. Huff, 706 F.3d 345, 349 (4th Cir.
2013) (quoting Teague v. Bakker, 931 F.2d 259, 260–61
(4th Cir. 1991)); see also Fed. R. Civ. P. 24(a)(2).
So this is what we are left with: Proposed legislative
intervenors who seek to represent the interests of a
client – the State of North Carolina – already
represented by the Attorney General, and so must face
the “unenviable task of convincing a court that the
Attorney General inadequately represents [the State],
despite his statutory duty.” Kaul, 942 F.3d at 801. That
would be, as the Seventh Circuit has instructed, an

App. 124
“extraordinary finding.” Id. Indeed, the Leaders have
not identified a single case – and I have found none –
in which a federal court has made such a finding, or
otherwise held that a state legislative entity is entitled
to intervene as of right under Rule 24(a)(2) to defend
the state’s interests where the state’s executive branch
is actively defending state law. Nothing about this case
persuaded the district court that it should be the first,
and I see no reason to disturb that good judgment.
B.
1.
Although there is a decided paucity of case law
supporting the Leaders’ efforts to intervene in this
case, we do have one very relevant precedent that
weighs heavily against the Leaders’ position: Planned
Parenthood of Wisconsin, Inc. v. Kaul, 942 F.3d 793
(2019), a recent Seventh Circuit decision that explains
why a state legislative entity is not entitled to
intervene in the circumstances presented here. Kaul
issued on the same day that the district court denied
intervention, and so the court did not have the benefit
of the Seventh Circuit’s reasoning when it ruled. But as
it turns out, Kaul provides substantial support for the
district court’s findings.
In Kaul, Planned Parenthood of Wisconsin and a
number of its employees sued Wisconsin’s Attorney
General and other state officials in federal court,
seeking to enjoin the enforcement of certain state
abortion regulations. See id. at 796. Rather than move
to dismiss the complaint, the Wisconsin Attorney
General filed an answer on behalf of the state

App. 125
defendants, denying the plaintiffs’ allegation that the
abortion regulations violated the Constitution. See id.
Shortly after, the Wisconsin Legislature moved to
intervene, hoping to have the complaint dismissed at
the pleadings stage for failure to state a claim. See id.
The district court in Wisconsin denied the motion. See
id.
On appeal, in evaluating whether the Wisconsin
Legislature was entitled to intervene as of right, the
Seventh Circuit assumed that the Legislature had
standing to intervene on the same theory that the
Leaders advance here: as an agent of the State of
Wisconsin, designated by state statute to represent
Wisconsin’s interest in the validity and enforcement of
its laws. See id. at 798. The court questioned whether,
as the majority suggests here, see Maj. Op. at 19–20,
the Wisconsin Legislature could invoke that same state
interest to satisfy the “interest” element of Rule
24(a)(2). See Kaul, 942 F.3d at 798. But ultimately, the
court determined, it was unnecessary to decide that
question. See id.
That was because the outcome in Kaul turned, as it
does in this case, on whether the proposed legislative
intervenors could satisfy the “adequacy” element of
Rule 24(a)(2) – that is, whether the Wisconsin
Legislature could show that no existing party to the
litigation adequately represented the interest that it
would seek to protect. See id. at 799. And in
considering the adequacy of the state’s representation,
the Seventh Circuit emphasized the key feature of Kaul
that distinguishes it from Bethune-Hill and that makes
it so similar to this case: Consistent with his statutory

App. 126
duty, the Wisconsin Attorney General was actively
defending Wisconsin’s abortion regulations in federal
court, and so he was already representing the same
state interest in the validity and enforcement of state
law that had been invoked by the Wisconsin
Legislature. See id. at 800–01. Under those
circumstances, the court explained, any finding of
inadequacy would be “extraordinary,” id. at 801, and
could not be justified by what amounted to “quibbles”
between the Wisconsin Legislature and the Wisconsin
Attorney General over “litigation strategy,” id.(internal
quotation marks omitted).
Key to the Kaul court’s “adequacy” analysis was a
well-established presumption: that the Wisconsin
Attorney General – having been charged by law with
protecting the state’s interest in the validity and
enforcement of its abortion regulations, and having
appeared in court to do so – was providing adequate
representation. See id. at 799–801. Just how strong
that presumption should be was the subject of some
debate: The Kaul majority held that it could be
rebutted only by a showing of “bad faith or gross
negligence,” id. at 801, while Judge Sykes, concurring,
would have set the bar somewhat lower, “start[ing]
from a presumption of adequate representation and
put[ting] the intervenor to a heightened burden to
show a concrete, substantive conflict or an actual
divergence of interests to overcome it,” id. at 810.
But for our purposes, what the Kaul court agreed
upon is more important than what divided it: A
substantial presumption would govern, not the default
rule applied in Trbovich v. United Mine Workers of

App. 127
America, 404 U.S. 528, 538 n.10 (1972), under which
showing inadequacy is described as a “minimal”
burden. See Kaul, 942 F.3d at 799 (majority); id. at 810
(Sykes, J., concurring). And whatever the precise
calibration of that presumption, it was strong enough,
all agreed, that it could not be overcome by the
Wisconsin Legislature’s “political and policy differences
with the Attorney General over abortion regulations,”
or by “disagreements about litigation strategy.” Id. at
810 (Sykes, J., concurring); see also id. at 801 (majority
opinion stating the same).
2.
Kaul is particularly instructive here because the
Seventh Circuit’s analysis aligns so substantially with
our own approach to adequacy under Rule 24(a)(2). In
Stuart v. Huff, 706 F.3d 345 (4th Cir. 2013), we
considered a motion to intervene in a challenge to state
abortion regulations – this time in North Carolina –
where, as in Kaul, the state attorney general already
was in court defending the regulations. Id. at 348. In
Stuart, like the Seventh Circuit in Kaul, we applied a
presumption of adequacy to the state attorney general’s
representation, though our presumption was based on
our long-standing rule that “[w]hen the party seeking
intervention has the same ultimate objective as a party
to the suit,” we will presume “that its interests are
adequately represented” unless the party seeking
intervention can show “adversity of interest, collusion,
or non-feasance.” Id. at 349 (alteration in original)

App. 128
(quoting Virginia v. Westinghouse Elec. Corp., 542 F.2d
214, 216 (4th Cir. 1976)).1
The majority here emphasizes that the proposed
intervenor in Stuart was a private party and not a
state legislative entity. On that basis, it concludes that
Stuart’s call for an especially “strong showing” of
inadequacy, id. at 352, is inapplicable in this case. Maj.
Op. at 25. Whether or not that is so – a question to
which I will return in a moment – the majority’s
observation takes nothing away from the broader
lesson that Stuart derived from Westinghouse: A
presumption of adequacy arises whenever a proposed
intervenor shares the same objective as an existing
party, regardless of that existing party’s identity. See
id. at 351–54.
That, as the majority acknowledges, is precisely the
situation here: The Leaders and the Attorney General
share the objective of upholding the legality of S.B. 824.
See Maj. Op. at 23. So under Stuart, as well as under

1

Nearly every circuit has adopted this rule, in one form or
another. See, e.g., In re Thompson, 965 F.2d 1136, 1142–43 (1st
Cir. 1992), as amended (May 4, 1992); Butler, Fitzgerald & Potter
v. Sequa Corp., 250 F.3d 171, 180 (2d Cir. 2001); Del. Valley
Citizens’ Council for Clean Air v. Pennsylvania, 674 F.2d 970, 973
(3d Cir. 1982); Baker v. Wade, 743 F.2d 236, 240–41 (5th Cir.
1984); United States v. Michigan, 424 F.3d 438, 443–44 (6th Cir.
2005); Kaul, 942 F.3d at 799 (7th Cir. 2019); FTC v. Johnson, 800
F.3d 448, 452 (8th Cir. 2015); Arakaki v. Cayetano, 324 F.3d 1078,
1086 (9th Cir. 2003); Tri-State Generation & Transmission Ass’n,
Inc. v. N.M. Pub. Reg. Comm’n, 787 F.3d 1068, 1072– 73 (10th Cir.
2015); Clark v. Putnam Cty., 168 F.3d 458, 461 (11th Cir. 1999);
Envt’l Def. Fund, Inc. v. Higginson, 631 F.2d 738, 740 (D.C. Cir.
1979).

App. 129
Kaul, Trbovich’s “minimal” burden standard cannot
apply. Rather, we must start our adequacy inquiry
with the presumption that the Attorney General is
providing adequate representation for the State’s
interests. And, just as in Kaul, whatever the precise
weight of that presumption, it cannot be rebutted by a
showing of “stronger, more specific interests” on the
part of the Leaders, or by a “disagreement over how to
approach the conduct of the litigation.” Stuart, 706
F.3d at 353.
“Nor could it be any other way,” as we explained in
Stuart. Id. at 354. Absent a meaningful presumption of
adequacy, federal courts would be required under Rule
24(a)(2) to arbitrate, de novo, the inevitable strategic
disagreements that will arise even among parties who
share the same ultimate objective, deciding which trial
tactics do and do not amount to “adequate”
representation. “To have such unremarkable
divergences of view sow the seeds for intervention as of
right risks generating endless squabbles at every
juncture over how best to proceed.” Id. All of that is
true – as this case so perfectly illustrates – whether the
proposed intervenors are private parties or legislative
entities. To the extent the majority calls into question
the wisdom of our standard presumption of adequacy,
see Maj. Op. at 24 n.8, I worry that it is opening the
door to “intractable procedural mess[es]” that will
hamstring our district courts in their efforts to
responsibly manage the proceedings before them, Kaul,
942 F.3d at 801.

App. 130
C.
In this case, the district court recognized that our
precedent required it to presume that the Attorney
General was an adequate representative of the State’s
interests in the validity and enforcement of S.B. 824.
Having applied that presumption, the court found that
the Leaders were not entitled to intervene under Rule
24(a)(2) because they had not shown the adversity of
interest, collusion, or nonfeasance necessary for
rebuttal. I see no reason to disturb that well-reasoned
finding.
At this point, it is important to acknowledge our
“necessarily limited” role in this appeal. Stuart, 706
F.3d at 350. We are not to decide whether, in our best
view, the Leaders were entitled to intervene as a
matter of right. That, our court has stressed, is an
inquiry committed rightly to the broad discretion of the
district courts. See id. 349–50. Instead, we may
determine only whether the district court abused its
discretion when it found that the Leaders were not so
entitled. Previously, we have justified this deferential
standard of review in light of the district court’s
“superior vantage point” for evaluating the conduct of
the parties and the “profound implications” that
intervention can have for trial-court proceedings. Id. at
350. With that deference to the district court’s “on the
scene” judgment layered atop the district court’s
thorough analysis, id., it is apparent to me that there
are no grounds to find an abuse of discretion here.
As the district court made clear at the outset of its
opinion – and as I have emphasized already – this is a
case in which the State’s interests already are being

App. 131
defended by the Attorney General, who is charged
under North Carolina law with the duty to defend state
law in federal court. And it was apparent, in the
district court’s view, that the Attorney General was
taking active steps to defend the lawsuit: The State
Board, represented by the Attorney General, had
“consistently denied all substantive allegations of
unconstitutionality,” moved to stay the suit on
federalism grounds, and – at the time that the district
court was writing – “recently filed an expansive brief
opposing [the NAACP’s] motion for preliminary
injunction on the merits.” N.C. State Conf. of the
NAACP v. Cooper, No. 1:18CV1034, 2019 WL 5840845,
at *3 (M.D.N.C. Nov. 7, 2019). In short, there was
“nothing in the record to suggest” that the Attorney
General had “abdicated” his statutory duty to defend
the State’s interests in this case. N.C. State Conf. of
the NAACP v. Cooper, 332 F.R.D. 161, 170 (M.D.N.C.
2019).
In arguing that the Attorney General is an
inadequate representative of the State’s interests in
this case, the Leaders consistently have advanced two
central arguments. First, they object to the way in
which the Attorney General has chosen to defend S.B.
824, especially in a parallel state-court challenge,
Holmes v. Moore, No. 18-cv-15292 (N.C. Super. Ct.).
According to the Leaders, the Attorney General’s
conduct in this case and in Holmes demonstrates an
“unwillingness to robustly defend S.B. 824,” Cooper,
2019 WL 5840845, at *2, that amounts to
“nonfeasance” sufficient to rebut the presumption of
adequacy we first recognized in Westinghouse. In
response to the Leaders’ claims, the district court

App. 132
undertook a careful review of the Attorney General’s
litigation conduct in both cases, but found that the
Attorney General simply had made reasonable
litigation decisions with which the Leaders disagreed.
See Cooper, 2019 WL 5840845, at *2–4; cf. Stuart, 706
F.3d at 355 (same). In view of our precedents, I can find
no abuse of discretion in that judgment. Indeed, I
believe it is entirely correct.
As the district court noted, the Leaders identified
only the kind of garden-variety disagreements over
litigation strategy that we and other courts
consistently have found insufficient to rebut the
presumption of adequacy, no matter that presumption’s
precise strength. See Stuart, 706 F.3d at 349; see also
Kaul, 942 F.3d at 810–11 (Sykes, J., concurring).
Illustrative is the Leaders’ objection to the Attorney
General’s decision to move for the dismissal of only five
of the six counts leveled against S.B. 824 in Holmes
and to reserve a dispositive challenge to the remaining
intentional-discrimination claim for a later point in the
proceedings. The district court found the Leaders’
objection wanting, in part because the Attorney
General’s decision ultimately was vindicated by the
state court’s ruling, which dismissed all five claims
challenged by the Attorney General but denied the
Leaders’ separate motion to dismiss the
intentional-discrimination claim.2 See Stuart, 706 F.3d

2

Indeed, any attempt by the Attorney General to dismiss the
intentional-discrimination claim at the pleadings stage seems sure
to have been premature, given that the North Carolina Court of
Appeals since has found that the plaintiffs are likely to succeed on
that claim and has instructed the state trial court to enter a

App. 133
at 354 (reasonableness of attorney general’s litigation
choices was shown in part by their success). If it had
had the benefit of Kaul at the time that it ruled, the
district court might also have noted that the Leaders’
objection was exactly the same as that pressed by the
Wisconsin Legislature – unsuccessfully – before the
Seventh Circuit. See Kaul, 942 F.3d at 796, 801
(Legislature’s objection to Wisconsin Attorney
General’s failure to move for dismissal and desire for
“more aggressive litigation position” was insufficient to
rebut presumption); see also Br. of Appellant Wisconsin
Legislature at 33, Kaul, 942 F.3d 793 (No. 19-1835),
2019 WL 2317657 (arguing it was “inexplicable” that
Wisconsin Attorney General had not moved to dismiss
the complaint).
Similarly, the Leaders have purported to identify
deficiencies in the Attorney General’s approach to
discovery in Holmes and his opposition to the NAACP’s
preliminary-injunction motion in this case. Again, in
their view, an adequate advocate would have assumed
a more aggressive posture. But in making their case for
nonfeasance, the Leaders again mistake differences
over trial tactics for inadequacy. Cf. Stuart, 706 F.3d at
353 (intensity of proposed intervenor’s interest in
litigation does not establish inadequacy). And, in any
case, as the district court explained, the Attorney
General’s brief in opposition to the NAACP’s motion for
a preliminary injunction was “expansive,” Cooper, 2019
WL 5840845, at *3, and a ramped-up approach to
discovery in Holmes would have been duplicative of the
preliminary injunction. See Holmes v. Moore, 840 S.E.2d 244,
265–66 (N.C. Ct. App. 2020).

App. 134
Leaders’ own efforts in that case, where they are
named as defendants.
As I have emphasized, and as the majority
recognizes, we owe substantial deference to the district
court’s factual determinations here. But even if I were
to review this record de novo, I would come to the same
conclusion as the district court. I cannot view the
record in this case – a record that reflects that the
Attorney General has successfully moved to dismiss the
Governor as a party, vigorously opposed a preliminary
injunction, and filed appeals in state and federal
court – and come away crediting the Leaders’ claims of
nonfeasance.
That brings us to the Leaders’ second argument,
and the central theme of their briefing: the suggestion
that the Attorney General is not mounting a
sufficiently vigorous defense of S.B. 824 because he is
opposed to voter-ID laws as a matter of public policy.
According to the Leaders, as a state senator, the
current Attorney General opposed passage of a prior
voter-ID law, arguing that it curtailed the right of
North Carolina citizens to vote. And after he became
Attorney General, the Leaders emphasize, he moved to
dismiss a petition for certiorari review of a decision by
this court holding that same voter-ID law
unconstitutional, acting on behalf of the incoming
Governor. See North Carolina v. N.C. State Conf. of the
NAACP, 137 S. Ct. 1399 (2017). Whether framed as an
argument for collusion or for adversity of interests, cf.
Stuart, 706 F.3d at 349 (presumption of adequacy may
be rebutted by showing of collusion or adversity of
interest, as well as nonfeasance), the import of the

App. 135
Leaders’ claim is the same: The Attorney General
cannot be trusted to defend S.B. 824.
This is a startling accusation. The Attorney General
has a statutory duty to represent and defend the State
and its interests in this litigation. See N.C. Gen. Stat.
§ 114-2. And that is to say nothing of his ethical
obligations, which require zealous representation of his
client, see Revised Rules of Professional Conduct of the
North Carolina State Bar, Rule 0.1[2] (preamble), and
prohibit him from falsely assuring the district court
that he is “meeting [his] duty to defend this action,”
J.A. 662; see also Revised Rules of Professional Conduct
of the North Carolina State Bar, Rule 3.3 (candor to
court). That the Attorney General may have expressed
policy views at odds with S.B. 824 in the past is no
ground for a federal court to infer that he would
abdicate his official duty to the State. And to suggest
otherwise does a disservice to the dignified work of
government lawyers who each day put aside their own
policy and political preferences to advocate dutifully on
behalf of their government and the general public. See
Kaul, 942 F.3d at 810–11 (Sykes, J., concurring)
(“political and policy differences” between proposed
legislative intervenor and state attorney general
regarding law being challenged are “not enough to
rebut the presumption of adequate representation”).3
3

In one particularly unfortunate moment at argument, the
Leaders’ counsel accused the Attorney General of “sabotage,”
referring to his decision, shortly after assuming office, to join the
Governor in moving to dismiss a previously filed certiorari petition in
a case involving a different voter-ID law. The majority, of course, has
not endorsed this over-heated rhetoric, and its judicious treatment of
this case should make clear that federal courts are not a forum for

App. 136
In any event, the district court found that there was
no evidence in the record to support the Leaders’
“conclusory speculation” that the Attorney General’s
policy preferences have left him without the proper
“level of interest” or “incentive” to robustly litigate in
defense of S.B. 824. Cooper, 332 F.R.D. at 170. Again,
I find no abuse of the district court’s broad discretion in
that judgment. As we have explained, and as the
district court recognized, a proposed intervenor may
have a “stronger” or more “intense” interest in the
validity of a law than an existing party, but that will
not rebut the presumption of adequacy that arises from
a shared objective. Id. at 171 (quoting Stuart, 706 F.3d
at 353). And the Attorney General’s failure to seek
certiorari review as to a different voter-ID law, without
more, does not indicate nonfeasance, let alone
collusion. See Stuart, 706 F.3d at 353 (even with
respect to same law, government official’s decision not
to appeal adverse decision does not demonstrate
“inadequacy” of representation); see also Saldano v.
Roach, 363 F.3d 545, 555 (5th Cir. 2004) (same).
In short, our precedent is clear: A proposed
intervenor’s intensity of conviction, armchair
quarterbacking, and political bluster do not warrant
what the Seventh Circuit rightly called the
“extraordinary finding” that a state attorney general
has failed to adequately represent his state’s interests,

airing political grievances. Changes in executive leadership regularly
entail legitimate shifts in priorities for government lawyers, and
though there may be some occasion where it will be necessary to look
behind the official acts of government litigators and probe for
improper purposes, I am certain that this is not that case.

App. 137
notwithstanding a statutory duty to do so. Kaul, 942
F.3d at 801; see also Stuart, 706 F.3d at 353. The
Leaders have failed to show anything more on this
record, so no matter the ultimate effect of a state law
that purports to designate them as additional
representatives of the State’s interests in federal
court – a question the majority does not resolve – the
Leaders have not established a right to intervene.
Accordingly, I would affirm the district court’s exercise
of its discretion to deny intervention under Rule
24(a)(2).
D.
My colleagues in the majority, of course, see this
case differently. When it comes to the “adequacy”
element of Rule 24(a)(2), the majority identifies two
purported deficiencies in the district court’s analysis
that, in its view, necessitate a remand for the district
court to consider anew whether the Attorney General
is adequately representing the State. On both counts,
I must disagree.
First, though the majority acknowledges that the
Attorney General is entitled to a presumption of
adequacy – and that the Leaders can overcome that
presumption only by a showing of adversity of interest,
collusion, or nonfeasance – it finds that the district
court erred when, citing our decision in Stuart, it
required the Leaders to make a “strong showing” of
inadequacy. See Cooper, 332 F.R.D. at 169. In Stuart,
we held that “a more exacting showing of inadequacy
should be required where the proposed intervenor
shares the same objective as a government party,” like
the Attorney General here, as opposed to a private

App. 138
litigant. 706 F.3d at 351. But the Leaders argue, and
the majority agrees, that Stuart’s “strong showing” rule
should govern only where, as in Stuart, the proposed
intervenor is a private party and not, as here, a
legislative entity seeking to provide additional
representation of the State’s interests.
The Seventh Circuit considered that very argument
in Kaul and roundly rejected it. There, the Wisconsin
Legislature, like the Leaders here, acknowledged that
the Seventh Circuit’s prior cases had granted a
heightened presumption of adequacy when a
government party shared the same objective as a
would-be intervenor, but it pointed out that those cases
only involved private would-be intervenors. See Kaul,
942 F.3d at 799. Again like the Leaders here, the
Wisconsin Legislature argued that because it was a
government intervenor seeking to represent the state’s
interests pursuant to state law, it should not be put to
a heightened showing in order to rebut the
presumption of adequacy. See id.
The Seventh Circuit disagreed. If anything, the
Kaul court explained, the Wisconsin Legislature’s
identity as a government party cut the other way,
justifying an especially strong presumption of
adequacy. See id. at 801. A private party seeking to
intervene can argue that, although it seeks the same
objective as the state’s existing representative, the
state’s interests – informed, as they must be, by the
concerns of the general public – are not perfectly
aligned with his or her more individualized interests.
See id. But the legislature in Kaul – like the Leaders
here – could not make that argument, because it was a

App. 139
governmental entity seeking to represent precisely the
same state interest as the state attorney general
already in the case: “The Legislature [went] further
than sharing a goal with the Attorney General . . . and
intend[ed] to represent the same client – the State of
Wisconsin.” Id. Under those circumstances, the
Wisconsin Legislature would have a right to intervene
only if the Wisconsin Attorney General – charged by
state law with representing the same state interest the
Legislature sought to advance – was inadequately
representing his own state. Requiring a heightened
showing of inadequacy to justify such an “extraordinary
finding,” the Kaul court concluded, was entirely
appropriate. Id.
I agree. When the interest invoked by a proposed
intervenor is represented already by a state
executive-branch official designated for that purpose
under state law, then it makes perfect sense to bring to
bear an especially strong presumption of adequacy,
putting the intervenor to a “heightened burden.” See id.
at 810 (Sykes, J., concurring). In all other contexts, we
presume, under the longstanding and well-established
presumption of regularity, that government officials
properly discharge their official duties. See United
States v. Chem. Found., 272 U.S. 1, 14–15 (1926). Any
would-be intervenor, even a state legislature, asking a
federal court to find that a state attorney general has
abdicated his statutory duty to defend his state’s
interests should be prepared to make a “strong

App. 140
showing” of adversity of interest, collusion, or
nonfeasance.4
Second, the majority faults the district court for
failing to consider in its adequacy analysis the state’s
public-policy judgment, reflected in North Carolina
General Statutes § 1-72.2, that the Attorney General
should not be the exclusive representative of North
Carolina’s interests in federal-court litigation. See Maj.
Op. at 27. I agree with the majority that this “public
policy” bears on the interest element of our Rule
24(a)(2) inquiry. See id. at 20. But I cannot agree that
the state’s policy judgment should be double-counted
and put toward satisfaction of Rule 24(a)(2)’s adequacy
element as well as its interest element.
Again, the Kaul court considered and rejected
precisely this approach. The problem, as the Seventh
Circuit explained, is largely practical: Intervention
under Rule 24(a)(2) is mandatory. See Kaul, 942 F.3d
at 802. Thus, if an aspiring legislative intervenor can
meet both the interest element and the adequacy
element whenever state law announces a policy
preference for multiple representatives, then a district
4

In any event, even if I agreed with the majority that the
district court erred by applying Stuart’s “strong showing”
standard, that error would not necessitate remand. As explained
above, whatever the precise strength of the presumption of
adequacy afforded to the Attorney General here, the Leaders have
failed to rebut it. And in those circumstances – where a district
court, applying the proper standard, will surely reach the same
result – remand is unnecessary. See Humphrey v. Humphrey, 434
F.3d 243, 248 (4th Cir. 2006) (presumption in favor of remand is
inapplicable “if the record permits only one resolution of the
factual issue” (internal quotation marks omitted)).

App. 141
court may be subjected routinely to the “intractable
procedural mess that would result from the
extraordinary step of allowing a single entity, even a
state, to have two independent parties simultaneously
representing it.” Id. at 801. Even more, the Kaul court
recognized, once opened, this Pandora’s box promises to
be difficult to cabin: If a state may tie the district
court’s hands under Rule 24(a)(2) by announcing a
“public policy” to have two representatives in federal
court, then why not three? Four? More? See id. at 802
(contemplating that “a state could even designate its
individual legislators as agents and thereby flood a
district court with a cacophony of voices all purporting
to represent the state”).5
I agree with the Seventh Circuit that we cannot
allow our “respect [for] a state’s autonomy as a
sovereign” to render district courts “powerless to
control litigation involving states.” Id. To be clear, I do
not question or otherwise diminish a sovereign state’s
authority to designate its preferred legal
representative: If the General Assembly, in its
5

Indeed, the Leaders themselves appear to disavow the
majority’s approach, recognizing the problems it would create.
Never have the Leaders argued before us that North Carolina law
bears on the adequacy element, as opposed to the interest element,
of Rule 24(a)(2). Instead, they assure us that we need not be
concerned that state laws designating legislative agents as
additional representatives in federal-court proceedings “will result
in automatic intervention as of right by every legislative body in
every case involving a challenge to a statute”; those laws may
satisfy the interest prong, but the adequacy prong will remain an
independent check and “foreclose intervention as of right in cases
in which another party adequately represents the legislature’s
protectable interest.” Br. of Appellants at 32 n.2.

App. 142
considered judgment, believes that the Attorney
General is not adequately representing the State in a
given case, then it of course is free to remove the
Attorney General from that case and substitute some
other representative through the legislative process.
But that state-law authority is distinct from the federal
law – Rule 24(a)(2) – that governs the circumstances
under which a federal court may be required to
accommodate multiple representatives of a single state.
Because I fear the “intractable procedural mess” that
may result from the majority’s decision, id. at 801, I
must respectfully break from the majority on this point
as well.
II.
For the reasons I have given, I would affirm the
district court’s denial of intervention as of right under
Rule 24(a)(2). In my view, the Leaders have not shown
that the Attorney General is an inadequate
representative of the state interests that he is charged
by statute with defending. And even if that conclusion
were debatable, I would find no abuse of discretion in
the district court’s finding to that effect. Because the
Leaders must satisfy each element of Rule 24(a)(2) to
establish a right to intervene, that is enough to dispose
of the Leader’s appeal from the denial of their motion
to intervene as of right.
The majority, of course, takes a different approach.
And in order to reach its contrary conclusion, it must
address and resolve several additional issues. I will
address only two of the most difficult issues here.

App. 143
A.
First is the question of the Leaders’ Article III
standing to intervene as of right.6 Because I would
affirm the district court’s denial of intervention in any
event, I may assume that the majority is correct, and
that the Leaders have in fact established Article III
standing. Even if they had not, in other words, I believe
we still would be required to affirm the district court’s
denial of intervention, though on alternative grounds.
Still, I have some doubts about the majority’s analysis.
The majority’s standing analysis turns on North
Carolina General Statutes § 1-72.2, a recently enacted
state-law provision that announces North Carolina’s
“public policy” in favor of the Leaders’ participation in
cases naming the State of North Carolina as a party.7

6

Whether or not the Leaders had Article III standing to
intervene in the district court, there is no question that they have
standing to bring this appeal: The denial of a motion to intervene
as of right is immediately appealable, see Alt v. U.S. Envt’l Prot.
Agency, 758 F.3d 588, 590 (4th Cir. 2014), and we have jurisdiction
because the alleged injury suffered by a disappointed would-be
intervenor flows from the denial of intervention, cf. CVLR
Performance Horses, Inc. v. Wynne, 792 F.3d 469, 475 (4th Cir.
2015) (final judgment does not moot pre-existing intervention
appeal because appellate court may still offer remedy by ordering
intervention).
7

In full, North Carolina General Statutes § 1-72.2 provides:

(a) It is the public policy of the State of North Carolina
that in any action in any North Carolina State court in
which the validity or constitutionality of an act of the
General Assembly or a provision of the North Carolina
Constitution is challenged, the General Assembly, jointly

App. 144

through the Speaker of the House of Representatives and
the President Pro Tempore of the Senate, constitutes the
legislative branch of the State of North Carolina and the
Governor constitutes the executive branch of the State of
North Carolina, and when the State of North Carolina is
named as a defendant in such cases, both the General
Assembly and the Governor constitute the State of North
Carolina. It is the public policy of the State of North
Carolina that in any action in any federal court in which
the validity or constitutionality of an act of the General
Assembly or a provision of the North Carolina Constitution
is challenged, the General Assembly, jointly through the
Speaker of the House of Representatives and the President
Pro Tempore of the Senate, constitutes the legislative
branch of the State of North Carolina; the Governor
constitutes the executive branch of the State of North
Carolina; that, when the State of North Carolina is named
as a defendant in such cases, both the General Assembly
and the Governor constitute the State of North Carolina;
and that a federal court presiding over any such action
where the State of North Carolina is a named party is
requested to allow both the legislative branch and the
executive branch of the State of North Carolina to
participate in any such action as a party.
(b) The Speaker of the House of Representatives and the
President Pro Tempore of the Senate, as agents of the
State, by and through counsel of their choice, including
private counsel, shall jointly have standing to intervene on
behalf of the General Assembly as a party in any judicial
proceeding challenging a North Carolina statute or
provision of the North Carolina Constitution. Intervention
pursuant to this section shall be effected upon the filing of
a notice of intervention of right in the trial or appellate
court in which the matter is pending regardless of the
stage of the proceeding. Notwithstanding any other
provision of law to the contrary, the participation of the
Speaker of the House of Representatives and the President
Pro Tempore of the Senate in any action, State or federal,

App. 145
See N.C. Gen. Stat. § 1-72.2(a). In my view, that
complex provision raises as many questions as it
answers. First adopted in 2013, see 2013 N.C. Laws
S.L. 2013-393, § 3, eff. Oct. 1, 2013, it has yet to be
given an authoritative construction by North Carolina’s
courts on which we might rely. And given its repeated
references to cases – unlike this one – in which “the
State of North Carolina is a named party,” it is not
obvious to me that the state’s public policy applies
here. Cf. Common Cause v. Lewis, 956 F.3d 246, 250
n.2 (4th Cir. 2020) (noting that the State of North
Carolina was named as a party when legislative
defendants invoked authority under § 1-72.2).
Most important, while I have no doubt that state
law reflects North Carolina’s preference that both its
executive and legislative branches be permitted to
participate in certain federal-court litigation, I am less
certain that § 1-72.2 effectuates the necessary
designation of the Leaders as agents of the State. See
Bethune-Hill, 139 S. Ct. at 1951–52. The Leaders
argue, and the majority agrees, that they have
standing to intervene because state law designates
them as representatives of the interests of the State of
North Carolina, thereby conferring on them the State’s
own standing to advance the State’s undisputed
interest in defending the validity and enforcement of
its laws. See Reply Br. of Appellants at 10; see also
Bethune-Hill, 139 S. Ct. at 1951 (describing legislative

as a party or otherwise, shall not constitute a waiver of
legislative immunity or legislative privilege of any
individual legislator or legislative officer or staff of the
General Assembly.

App. 146
entity authorized by state law to “stand in for the
State” (emphasis added)); Hollingsworth, 570 U.S. at
710 (state law may provide for officials other than
attorney general to “speak for the State in federal
court” (emphasis added)). But the crucial subsection of
§ 1-72.2 – the one that expressly addresses the Leaders’
“standing” to intervene – purports to bestow on the
Leaders “standing to intervene on behalf of the General
Assembly,” not the State. N.C. Gen. Stat. § 1-72.2(b)
(emphasis added). For purposes of the Leaders’ theory
of standing, that is a crucial distinction. See
Bethune-Hill, 139 S. Ct. at 1951, 1953 (distinguishing
legislative entity’s standing to sue as representative of
state from purported standing to sue in legislative
capacity). And whatever the State’s policy preferences,
if it is unprepared to designate the Leaders to speak on
its behalf in federal court, then the Leaders cannot
invoke the State’s own interest in the validity and
enforcement of its laws to satisfy Article III’s standing
requirements. Cf. id. at 1952 (describing state that has
granted its legislature authority to represent the state’s
interest in redistricting cases).8
8

At an earlier stage of this litigation, and before the Supreme
Court’s decision in Bethune-Hill, the Leaders advanced a different
theory, arguing that they had standing not as agents of the State
but as representatives of the distinct institutional interests of
North Carolina’s legislature. As the case has progressed, the
Leaders have relied on Bethune-Hill to focus on the argument they
present to us now: that they have standing because the State has
designated them to represent its interests and “stand in for the
State” in this litigation. Reply Br. of Appellants at 10 (quoting
Bethune Hill, 139 S. Ct. at 1951).
Despite what I view as a decided lack of clarity as to the
purported “designation” in § 1-72.2, this is the sounder approach.

App. 147
B.
I turn next to the majority’s treatment of a second
issue: the nature of the Leaders’ interest under Rule
24(a)(2). Again, for my purposes, I may assume that the
majority is correct, and that the Leaders have satisfied
the interest element. And, indeed, I am inclined to
agree with the majority on this point: Even if § 1-72.2
is insufficient to designate the Leaders as State agents
for standing purposes, it reflects a state policy
judgment about the value of legislative participation,
and that may be enough to bestow a “significantly
protectable interest” in this litigation for purposes of
Rule 24(a)(2). See Teague v. Bakker, 931 F.2d 259, 261
(4th Cir. 1991).9
The circumstances in which a “legislature as legislature” has
Article III standing are few and far between. And in no case has
the Supreme Court recognized such standing when a legislature
asserts an institutional interest in “the constitutionality of a
concededly enacted [statute].” See Kaul, 942 F.3d at 798 (alteration
in original) (quoting Bethune-Hill, 139 S. Ct. at 1954); cf. Ariz.
State Leg. v. Ariz. Indep. Redistricting Comm’n, 135 S. Ct. 2652,
2663 (2015) (recognizing distinct legislative interest in legislating,
implicated where state law deprived legislature of power to enact
redistricting plans).
9

I also agree with the majority’s observation that the district
court did not separately consider, at least at any meaningful
length, the effect of § 1-72.2 on its “interest” analysis. Instead, the
district court ran together two distinct questions: whether the
Leaders have a protectable interest under § 1-72.2 for purposes of
Rule 24(a)(2) and whether that interest entitles them to intervene
if it is represented already by the Attorney General. But on my
view of the case, the district court’s shorthand is both
understandable and harmless: The Attorney General’s
presumptively adequate representation of the same interest

App. 148
But because it is a matter of our jurisdiction, I feel
compelled to note that I have serious doubts about
whether the interest question – along with some others
addressed by the majority – is properly before us at all.
The district court considered the nature of the Leaders’
interest under Rule 24(a)(2) only in its first order
denying intervention; the second order was expressly
limited in scope to whether the Attorney General, in
the time since the first order was entered, had declined
to provide an adequate defense of S.B. 824. As the
majority recounts, however, the Leaders took no appeal
from the district court’s first order. In my view, the
Leaders’ decision not to file a timely appeal from that
order divests us of jurisdiction to consider the issues it
resolved. See Plain v. Murphy Family Farms, 296 F.3d
975, 980 (10th Cir. 2002) (“If the district court denies
[a] motion [to intervene], the proper procedure is to
pursue an immediate appeal, and not to file repetitive
motions pestering the district court.”).
The Leaders argue, and the majority agrees, that
because the district court’s first order denying
intervention was “without prejudice” – allowing for
renewal of the motion if in the future the Attorney
General “in fact declined to defend the instant lawsuit,”
332 F.R.D. at 173 – it did not constitute a final order,
so that the Leaders had neither the ability nor the
obligation to take an immediate appeal. But as to the
question of whether the Leaders had identified a
protectable interest under Rule 24(a)(2), the district
court’s first order clearly “signaled that it was
invoked by the Leaders is the central feature of this case, and is by
itself grounds for denying the motion to intervene as of right.

App. 149
finished,” Bing v. Brivo Sys., LLC, 959 F.3d 605, 612
(4th Cir. 2020), and the court gave no “fresh
evaluation” to that issue in its second order, Hodgson
v. United Mine Workers of Am., 473 F.2d 118, 127 (D.C.
Cir. 1972) (appeal of second order denying intervention
was timely because the district court considered issues
anew). Under those circumstances, I would apply the
familiar rule that “once a conclusive resolution has
been reached . . . a renewed motion for the same relief,
or a belated request for reconsideration, does not
reopen the time for appeal.” Fairley v. Fermaint, 482
F.3d 897, 901 (7th Cir. 2007); see also United States v.
Boone, 801 F. App’x 897, 904 (4th Cir. 2020) (Harris, J.,
concurring in the judgment) (same). And because the
Leaders did not file this appeal until more than five
months after the district court’s first order denying
intervention, I suspect we lack jurisdiction to review
the issues conclusively resolved by that order.10

10

Stringfellow v. Concerned Neighbors in Action, 480 U.S. 370
(1987), on which the majority relies, is not to the contrary. In that
case, despite the general rule that an order denying intervention
is immediately appealable, see Alt, 758 F.3d at 590, the Supreme
Court held that an intervenor could not challenge immediately the
limiting conditions placed on its intervention because the district
court had granted intervention, thereby permitting it to become a
party to the proceedings. See Stringfellow, 480 U.S. at 378–79.
Thus, the intervenor would be able to raise its challenges to the
intervention conditions in a post-trial appeal; in the meantime, like
any other party, it would have to live with the district court’s
interlocutory orders. See id.
Exactly the opposite happened here. The district court denied
intervention outright, while acknowledging that circumstances
might later change and provide support for a renewed motion to
intervene. Had the Leaders filed an appeal from that order, we

App. 150
III.
That leaves the Leaders’ request for permissive
intervention pursuant to Rule 24(b). Our review of a
court order denying permissive intervention under
Rule 24(b) is “particularly deferential, and a challenge
to the court’s discretionary decision to deny leave to
intervene must demonstrate a clear abuse of discretion
in denying the motion.” McHenry v. Comm’r, 677 F.3d
214, 219 (4th Cir. 2012) (internal quotation marks
omitted). The discretion afforded to district courts
under Rule 24(b) is “even broader” than that given
under Rule 24(a)(2), R&G Mortg. Corp. v. Fed. Home
Loan Mortg. Corp., 584 F.3d 1, 11 (1st Cir. 2009), in
other words, and in my view, the district court acted
well within its broad discretion here.
The district court’s decision to deny permissive
intervention – while allowing the Leaders to participate
as amici – turned on two findings regarding the
proceedings before it. First, the district court found that
the addition of the Leaders as parties would result in
unnecessary complications and delay, both in pretrial
proceedings and at trial itself, jeopardizing the court’s
ability to reach final judgment in a timely manner.
Second, the court concluded that intervention by the
Leaders was likely to prejudice the plaintiffs, who
would be required to address “dueling defendants” with
multiple litigation strategies, all purporting to
surely would have concluded that the district court was “finished”
with the question of intervention on the record before it and
proceeded to consider their arguments on the merits. Given that
they failed to do so, however, I do not think we can reach those
arguments now.

App. 151
represent the same interest – that of the State of North
Carolina. Cooper, 332 F.R.D. at 172. Those twin
assessments are “quintessentially the province of the
district courts,” Stuart, 706 F.3d at 350 (quoting United
States v. Smith, 452 F.3d 323, 332 (4th Cir. 2006)), and
I can see no ground for concluding that they represent
a “clear abuse of discretion,” McHenry, 677 F.3d at 216.
Moreover, those findings are all that is required to
justify a denial of permissive intervention under Rule
24(b)(3), which mandates the consideration of two –
and only two – factors: undue delay and prejudice to
existing parties. See Fed. R. Civ. P. 24(b)(3). I have no
quarrel with the idea that a district court also might
consider federal-state comity, and a state’s policy
preference for having multiple representatives in
federal court, when reviewing a motion for permissive
intervention. Cf. Kaul, 942 F.3d at 803 (“Permissive
intervention allows the district court to consider a wide
variety of factors, including the needs of federal-state
comity . . . .”). But unnecessary delay and prejudice are
the “core considerations” under Rule 24(b)(3).
McHenry, 677 F.3d at 225. Once the district court
found that the Leaders’ intervention was likely to cause
undue delay and prejudice the plaintiffs, it did not
abuse its discretion by denying permissive intervention
on that basis alone.
* * *
Acting under statutory command, the Attorney
General of North Carolina has represented the
members of the State Board of Elections and defended
their authority to enforce S.B. 824 from the outset of
this case: He has moved to dismiss certain of the

App. 152
plaintiffs’ claims, sought to stay federal-court
proceedings, and opposed a preliminary injunction.
Even as we considered this appeal, district court
proceedings have continued, and the district court
docket reflects the Attorney General’s clear intent to
defend S.B. 824’s constitutionality up to and including
a post-election bench trial. And a quick review of our
own docket shows that the Attorney General actively is
defending the law’s constitutionality on appeal before
us.
To resolve the issue at the core of this case, we need
only decide whether the district court abused its
discretion when it determined – twice – that the
Attorney General and the non-partisan attorneys of the
North Carolina Department of Justice are discharging
their statutory duty to defend the State of North
Carolina’s interest in the validity and enforcement of
its laws. I see no abuse of discretion in that judgment;
indeed, I agree with the district court that the Attorney
General has not abdicated his statutory duties and
continues to present a reasonable defense of S.B. 824.
With respect for the majority’s contrary view, I must
dissent.

App. 153

APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-2273
(1:18-cv-01034-LCB-LPA)
[Filed August 14, 2020]
_______________________________________________
NORTH CAROLINA STATE CONFERENCE
OF THE NAACP; CHAPEL HILL-CARRBORO
NAACP; GREENSBORO NAACP; HIGH POINT
NAACP; MOORE COUNTY NAACP; STOKES
COUNTY BRANCH OF THE NAACP; WINSTON
SALEM-FORSYTH COUNTY NAACP,
Plaintiffs – Appellees,
v.
PHILIP E. BERGER, in his official capacity
as President Pro Tempore of the North Carolina
Senate; TIMOTHY K. MOORE, in his official
capacity as Speaker of the North Carolina House
of Representatives,
Appellants,
and
KEN RAYMOND, in his official capacity as a
member of the North Carolina State Board of

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

App. 154
Elections; STELLA ANDERSON, in her official
capacity as Secretary of the North Carolina
State Board of Elections; DAMON CIRCOSTA,
in his official capacity as Chair of the North
Carolina State Board of Elections; JEFFERSON
CARMON III, in his official capacity as a member
of the North Carolina State Board of Elections;
DAVID C. BLACK, in his official capacity as a
member of the North Carolina State Board of
Elections,

)
)
)
)
)
)
)
)
)
)
)
Defendants – Appellees.
)
_______________________________________________ )
___________________
JUDGMENT
___________________
In accordance with the decision of this court, the
district court order entered November 7, 2019, is
vacated. This case is remanded to the district court for
further proceedings consistent with the court’s
decision.
This judgment shall take effect upon issuance of
this court’s mandate in accordance with Fed. R. App. P.
41.
/s/ PATRICIA S. CONNOR, CLERK

App. 155

APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT
OF NORTH CAROLINA
1:18CV1034
[Filed June 3, 2019]
_______________________________________________
NORTH CAROLINA STATE CONFERENCE
OF THE NAACP, CHAPEL HILL—CARRBORO
NAACP, GREENSBORO NAACP, HIGH POINT
NAACP, MOORE COUNTY NAACP, STOKES
COUNTY BRANCH OF THE NAACP, WINSTONSALEM—FORSYTH COUNTY NAACP,
Plaintiffs,
v.
ROY ASBERRY COOPER III, in his official
capacity as the Governor of North Carolina;
ROBERT CORDLE, in his official capacity as
Chair of the North Carolina State Board of
Elections; STELLA ANDERSON, in her
official capacity as Secretary of the North
Carolina State Board of Elections;
KENNETH RAYMOND, JEFFERSON
CARMON III, and DAVID C. BLACK, in their

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

App. 156
official capacities as members of the North
Carolina State Board of Elections,1

)
)
)
Defendants.
)
_______________________________________________ )
MEMORANDUM OPINION AND ORDER
LORETTA C. BIGGS, District Judge.
Plaintiffs initiated this action against the
above-named Defendants challenging the
constitutionality of specific provisions of Senate Bill
824 (“S.B. 824”), titled “An Act to Implement the
Constitutional Amendment Requiring Photographic
Identification to Vote.” (See ECF No. 1; ECF No. 8-2 at
2.) S.B. 824 was passed by the North Carolina General
Assembly (“General Assembly”) on December 5, 2018,
and enacted into law as Session Law 2018-144 on
December 19, 2018. (ECF No. 1 ¶¶ 1, 79.) Before the
Court is a Motion to Intervene by Hon. Philip E. Berger
(“Senator Berger”), in his official capacity as President
Pro Tempore of the North Carolina Senate, and Hon.
Timothy K. Moore (“Representative Moore”), in his
official capacity as Speaker of the North Carolina
House of Representatives (collectively, “Proposed
1

In addition to Roy Asberry Cooper III (the “Governor”), Plaintiffs’
Complaint named nine members of the North Carolina State
Board of Elections (the “State Board”) as defendants. (See ECF No.
1.) Subsequent to the filing of Plaintiffs’ Complaint, the State
Board was reconstituted to consist of five members appointed by
the Governor. (See ECF No. 27.) Accordingly, pursuant to Rule
25(d)of the Federal Rules of Civil Procedure, the above-named
members of the State Board are hereby substituted as parties to
this action. See Fed. R. Civ. P. 25(d).

App. 157
Intervenors”). (ECF No. 7.) For the reasons that follow,
the Court denies the Motion to Intervene without
prejudice to the motion being renewed if Proposed
Intervenors can demonstrate that the Defendants have,
in fact, declined to defend the lawsuit and that all
requirements for intervention have been satisfied
pursuant to Rule 24 of the Federal Rules of Civil
Procedure. Further, Proposed Intervenors are granted
the right to participate in this action by filing amicus
curiae briefs.
I.

BACKGROUND

In November 2018, North Carolina voters approved
a ballot measure amending the North Carolina State
Constitution to require voters to provide photographic
identification before voting in person.2 (ECF No. 1
¶¶ 62, 64; ECF No. 8 at 8.) On December 5, 2018, the
General Assembly passed S.B. 824, which was
thereafter vetoed by Roy Asberry Cooper III, Governor
of North Carolina (the “Governor”), on December 14,
2018. (ECF No. 1 ¶¶ 1, 78; ECF No. 8 at 8; ECF No. 8-1
at 2–3; ECF No. 8-2.) The General Assembly
nevertheless codified S.B. 824 into law by an override

2

As amended, the North Carolina State Constitution provides as
follows:
Voters offering to vote in person shall present
photographic identification before voting. The General
Assembly shall enact general laws governing the
requirements of such photographic identification, which
may include exceptions.
N.C. Const. art. VI, § 3(2).

App. 158
of the Governor’s veto on December 19, 2018. (ECF No.
1 ¶¶ 1, 79; ECF No. 8-2 at 22.)
On December 21, 2018, Plaintiffs filed suit in this
Court against the Governor and the members of the
North Carolina State Board of Elections. (See ECF No.
1.) All Defendants have been sued in their official
capacities and all are represented by the North
Carolina Attorney General. (See ECF Nos. 1, 19, 27,
28.) In the Complaint, Plaintiffs challenge the
provisions of S.B. 824 which impose voter photo
identification requirements, as well as the provisions
“that expand the number of poll observers and the
number [ ] of people who can challenge ballots.” (ECF
No. 1 ¶¶ 106–07.) Plaintiffs allege that “[t]hese
provisions, separately and together, will have a
disproportionately negative impact on minority voters,”
(id. ¶ 80), ultimately resulting in “the effective denial
of the franchise and dilution of [African American and
Latino] voting strength,” (id. ¶ 7). Plaintiffs’ Complaint
further alleges that the challenged provisions “impose
discriminatory and unlawful burdens on the right to
vote that are not justified by any legitimate or
compelling state interest.” (Id. ¶ 8.) In addition,
Plaintiffs allege that the challenged provisions of S.B.
824 violate Section 2 of the Voting Rights Act of 1965,
as well as the Fourteenth and Fifteenth Amendments
to the United States Constitution. (Id. ¶¶ 105–46.)
Plaintiffs seek injunctive and declaratory relief to
prevent Defendants “from implementing, enforcing, or
giving effect to the [challenged] provisions of S.B. 824.”
(Id. ¶ 147.)

App. 159
On January 14, 2019, less than one month after
Plaintiff filed suit, Senator Berger and Representative
Moore, acting in their official capacities, filed the
instant Motion to Intervene on behalf of the General
Assembly seeking intervention as of right pursuant to
Rule 24(a) or, alternatively, permissive intervention
pursuant to Rule 24(b).3 (ECF Nos. 7, 8.) In response,
the Governor states that he “does not take a position on
t he [M]otion to [I]ntervene.” (ECF No. 34 at 1.)
Likewise, Defendants Robert Cordle, in his official
capacity as Chair of the North Carolina State Board of
Elections, Stella Anderson, in her official capacity as
Secretary of the North Carolina State Board of
Elections, and Kenneth Raymond, Jefferson Carmon
III, and David C. Black, in their official capacities as
members of the North Carolina State Board of
Elections (collectively, the “BOE Defendants”) state in
their response to the instant motion that they “neither
consent nor object to the pending [M]otion to
[I]ntervene.” (ECF No. 36 at 1.) Plaintiffs, however,
oppose Proposed Intervenors’ request to intervene as of
right or permissively. (ECF No. 38.)
II.

DISCUSSION
A. Standing

As an initial matter, the Court notes that in their
response to the Motion to Intervene, Plaintiffs raise the

3

In compliance with Rule 24 of the Federal Rules of Civil
Procedure, Proposed Intervenors attached a proposed Answer to
the Motion to Intervene. See Fed. R. Civ. P. 24(c) (“The motion [to
intervene] must . . . be accompanied by a pleading that sets out the
claim or defense for which intervention is sought.”).

App. 160
issue of Article III standing which “is a threshold
jurisdictional question,” Pye v. United States, 269 F. 3d
459, 466 (4th Cir. 2001). (See ECF No. 38 at 10–11,
22–25.) Specifically, Plaintiffs argue that Proposed
Intervenors “may not intervene because [they] lack[ ]
Article III standing, which is a requirement for
intervention as a defendant in a federal court.” (Id. at
10–11, 22–23.) In support of this argument, Plaintiffs
cite a number of cases from other circuits stating that
an intervenor-defendant must establish Article III
standing. (See id. at 10, 22 (citing cases from the D.C.
Circuit, as well as the Seventh, Eighth, and Tenth
Circuit Courts of Appeals).) However, as noted by
Proposed Intervenors, Plaintiffs fail to cite any Fourth
Circuit case requiring that, in addition to satisfying the
Rule 24 requirements, an intervenor-defendant must
also establish Article III standing. (ECF No. 48 at 7.)
Nor could this Court find a Fourth Circuit case setting
forth such a requirement. Rather, it appears, that
“[c]ourts remain divided . . . on the question of whether
an intervenor must establish Article III standing.” 13A
Charles A. Wright et al., Federal Practice & Procedure,
§ 3531, at 51 (3d ed. 2008). Compare City of Herriman
v. Bell, 590 F.3d 1176, 1183–84 (10th Cir. 2010)
(stating that would-be intervenors need not establish
constitutional standing to intervene), and Perry v.
Schwarzenegger, 630 F.3d 898, 90 6 (9th Cir. 2011)
(same), with United States v. Metro. St. Louis Sewer
Dist., 569 F.3d 829, 833 (8th Cir. 2009) (stating that “a
party seeking to intervene must establish Article III
standing in addition to the requirements of Rule 24”),
and United States v. Philip Morris USA Inc., 566 F.3d
1095, 1145 (D.C. Cir. 2009) (same). Thus, given the
silence on the issue by the Fourth Circuit, this Court

App. 161
declines to impose such a requirement on the Proposed
Intervenor-Defendants in this action.
B. Intervention as of Right
Proposed Intervenors first seek intervention as of
right pursuant to Rule 24(a) of the Federal Rules of
Civil Procedure. (ECF No. 8 at 11–21.) The Fourth
Circuit has “note[d] that liberal intervention is
desirable to dispose of as much of a controversy
‘involving as many apparently concerned persons as is
compatible with efficiency and due process.’” Feller v.
Brock, 802 F.2d 722, 729 (4th Cir. 1986) (quoting
Nuesse v. Camp, 385 F.2d 694, 700 (D.C. Cir. 1967)).
“Liberality does not, however, entail resolving every
possible doubt in favor of intervention, and [Rule 24]
sets standards for intervention that must be observed
and applied thoughtfully by courts.” Ohio Valley Envtl.
Coal., Inc. v. McCarthy, 313 F.R.D. 10, 16 (S.D.W. Va.
2015). Rule 24(a) provides as follows:
On timely motion, the court must permit anyone
to intervene who:
. . . claims an interest relating to the
property or transaction that is the subject of
the action, and is so situated that disposing
of the action may as a practical mat ter
impair or impede the movant’s ability to
protect its interest, unless existing parties
adequately represent that interest.
Fed. R. Civ. P. 24(a)(2). The Fourth Circuit has
interpreted Rule 24(a)(2) to entitle intervention as of

App. 162
right if, in addition to timeliness,4 the movant
demonstrates: “(1) an interest in the subject matter of
the action; (2) that the protection of this interest would
be impaired because of the action; and (3) that the
applicant’s interest is not adequately represented by
existing parties to the litigation.” Teague v. Bakker, 931
F.2d 259, 260–61 (4th Cir. 1991). “[A] would-be
intervenor bears the burden of demonstrating tothe
court a right to intervene.” Arista Records, LLC v. Doe
No. 1, 254 F.R.D. 480, 481 (E.D.N.C. 2008) (alteration
in original) (quoting In re Richman, 104 F.3d 654, 658
(4th Cir. 1997)). “If the movant fails to satisfy any one
of the requirements, then intervention as of right is
defeated.” Students for Fair Admissions Inc. v. Univ. of
N.C., 319 F.R.D. 490, 494 (M.D.N.C. 2017) (citing
Houston Gen. Ins. Co. v. Moore, 193 F.3d 838, 839 (4th
Cir. 1999)). See United Guar. Residential Ins. Co. of
Iowa v. Phila. Sav. Fund Soc’y, 819 F.2d 473, 474 (4th
Cir. 1987) (“In order to successfully intervene, . . .
[movant] must meet all three requirements [of Rule
24(a)].”).

4

Here, there is no dispute that the instant motion is timely.
Proposed Intervenors filed their motion on January 14, 2019, less
than one month after Plaintiffs filed suit, and before the named
Defendants made any filings in the case. See, e.g., Students for
Fair Admissions Inc. v. Univ. of N.C., 319 F.R.D. 490, 494
(M.D.N.C. 2017) (finding motion to intervene timely where “the
case had not progressed beyond its early stag es when [p]roposed
[i]ntervenors sought to intervene”); United States v. Virginia, 282
F.R.D. 403, 405 (E.D. Va. 2012) (finding proposed intervenors’
motion timely where the case had not progressed beyond the
pleadings stage).

App. 163
1. Interest in the Subject Matter
“While Rule 24(a) does not specify the nature of the
interest required for a party to intervene as a matter of
right, the Supreme Court has recognized that ‘[w]hat is
obviously meant . . . is a significantly protectable
interest.” Teague, 931 F.2d at 261 (alterations in
original) (internal quotation marks omitted). Proposed
Intervenors argue that they “have a significantly
protectable interest in the validity of S.B. 824, which
the North Carolina General Assembly enacted over the
Governor’s veto.” (ECF No. 8 at 12.) Plaintiffs argue in
opposition that “[t]he General Assembly’s interest in
protecting S.B. 824 from invalidation amounts to
nothing but a generalized interest, shared by all North
Carolinians, in having laws enforced.” (ECF No. 38 at
16.)
“Courts have recognized that legislators have an
interest in defending the constitutionality of legislation
passed by the legislature when the executive declines to
do so.” Fisher-Borne v. Smith, 14 F. Supp. 3d 699, 703,
707, 710 (M.D.N.C. 2014) (emphasis added) (granting
motion to intervene “but only for the purpose of lodging
an objection and preserving that objection” for appeal
where it appeared to the court that the Attorney
General did not intend to appeal on behalf of the
State). See Revelis v. Napolitano, 844 F. Supp. 2d 915,
924–25 (N.D. Ill. 2012) (finding that intervention of
right was appropriate where “[t]he House [of
Representatives] has an interest in defending the
constitutionality of legislation which it passed when
the executive branch declines to do so”); see also I.N.S.
v. Chadha, 462 U.S. 919, 928, 939 (1983) (explaining

App. 164
that “Congress is . . . a proper party to defend the
constitutionality of [a federal law]” where an agency of
the government agreed with, and joined in, the
plaintiff’s challenge to the constitutionality of an
immigration statute).
Plaintiffs initiated this official-capacity suit against
the Governor and the BOE Defendants (collectively,
“State Defendants”), neither of whom have declined to
defend the lawsuit. Nor have State Defendants
expressed an intention to so decline. The Governor and
the BOE Defendants are represented by the Attorney
General, (see ECF Nos. 19, 27, 28), and although they
take no position on the instant Motion to Intervene,
they “dispute[ ] the contention raised by the [P]roposed
[I]ntervenors that the Governor and/or the State Board
members represented by the Attorney General’s Office
are not capable of defending this lawsuit.” (ECF No. 34
at 2 (footnote omitted); see ECF No. 36 at 2 (“For the
reasons discussed by Governor Cooper in his response,
the State Board Defendants [likewise] disagree with
the Proposed Intervenors’ contention . . . that the State
Board Defendants represented by the [Attorney
General] are not capable of defending this lawsuit.”
(citation omitted).) The Governor further contends that
the named defendants “and the Attorney General’s
Office are fully capable of performing their duties on
behalf of the people of North Carolina.” (ECF No. 34 at
2.) The Governor and the BOE Defendants have each
separately moved to dismiss Plaintiffs’ Complaint, (see
ECF Nos. 42, 44), as more fully discussed below.
Proposed Intervenors argue that Supreme Court
precedent “establishes that state legislative officials

App. 165
have the authority to defend state enactments in
federal court when State law ‘authorize[s]’ them ‘to
represent the [State] Legislature in litigation.’” (ECF
No. 8 at 12–13 (alterations in original) (quoting
Karcher v. May, 484 U.S. 72, 81 (1987)).) As Proponent
Intervenors correctly state:
Section 1-72.2 of the North Carolina General
Statutes provides that “[i]t is the public policy of
the State of North Carolina that in any action in
any federal court in which the validity or
constitutionality of an act of the General
Assembly . . . is challenged, the General
Assembly, jointly through the Speaker of the
House of Representatives and the President Pro
Tempore of the Senate, constitutes the
legislative branch. N.C. Gen. Stat. § 1-72.2(a).
That section . . . additionally provides that,
“[t]he Speaker of the House of Representatives
and the President Pro Tempore of the Senate, as
agents of the State, by and through counsel of
their choice, including private counsel, shall
jointly have standing to intervene on behalf of
the General Assembly as a party in any judicial
proceeding challenging a North Carolina
statute.” Id. § 1.72-2(b).
(ECF No. 8 at 13 (first, second, and fourth alterations
in original).) Therefore, according to Proposed
Intervenors, “[t]he North Carolina law establishing
[their] interest easily qualifies them to defend S.B. 824
under Karcher.” (ECF No. 8 at 13.) In response,
Plaintiffs contend that “North Carolina law does not
vest the General Assembly with a protectable

App. 166
interest[;] [for] State law cannot confer an interest
where none otherwise exists.” (ECF No. 38 at 17.)
The Court finds Proposed Intervenors’ reliance on
Karcher misplaced. In Karcher, the issue before the
Supreme Court was a different issue entirely: “whether
public officials who have participated [as intervenor
defendants] in a lawsuit [challenging the
constitutionality of a statute] solely in their official
capacities may appeal an adverse judgment after they
have left office.” Karcher, 484 U.S. at 74. The Court
held that those public officials may not so appeal. Id.
The Court also declined to vacate the lower court’s
judgments for lack of jurisdiction, in part, because
while the state legislators were in office, their
intervention as of right was allowable. Id. at 81–82.
There, the state legislators were allowed to intervene
on behalf of the State in proceedings before the district
court and appellate court “[w]hen it became apparent
that neither the Attorney General nor the named
defendants would defend the statute.” Karcher, 484
U.S. at 75. In contrast, here, as previously stated, State
Defendants are represented by the Attorney General
and are presently defending against Plaintiffs’
challenge to the constitutionality of S.B. 824. Nor can
Karcher be read to suggest that a state statute can
supplant a federal court’s obligation to determine
whether the requirements for intervention as of right
by a non-party have been satisfied under federal law.
See Virginia v. Westinghouse Elec. Co., 542 F.2d 214,
216 (4th Cir. 1976) (“The district court is entitled to the
full range of reasonable discretion in determining
whether the[ ] requirements [of Rule 24(a)(2)] have
been met.” (second alteration in original)); see also Fed.

App. 167
R. Civ. P. 24(a)(2). Further, the state statute cited by
Proposed Intervenors specifically provides that, in
actions where the State of North Carolina is a named
party, “a federal court . . . is requested to allow both the
legislative branch and executive branch” of the State to
participate. N.C. Gen. Stat. § 1-72.2(a) (emphasis
added). Thus, in considering any such request to
participate through intervention as of right, the Court
must ensure that the requirements of Rule 24(a)(2) are
satisfied. Virginia, 542 F.2d at 216; Fed. R. Civ. P.
24(a)(2).
Proposed Intervenors also argue “that they are often
named defendants in state court litigation challenging
state laws, including litigation challenging S.B. 824.”
(ECF No. 8 at 14.) This argument is likewise
unpersuasive. As Plaintiffs point out, (see ECF No. 38
at 20–21), in North Carolina state courts, pursuant to
Rule 19(d) of the North Carolina Rules of Civil
Procedure, “[t]he Speaker of the House of
Representatives and the President Pro Tempore of the
Senate, as agents of the State through the General
Assembly, must be joined as defendants in any civil
action challenging the validity of a North Carolina
statute or provision of the North Carolina Constitution
under State or federal law.” N.C.R. Civ. P. 19(d)
(emphasis added). By contrast, in federal court, while
a party challenging the constitutionality of a law may
elect to name the state legislature as a defendant,
legislators are not automatically entitled to intervene
as of right in such a suit, particularly where the State
is defending the challenged law. As explained by
another district court,

App. 168
If a legislator’s . . . support for a piece of
challenged legislation gave rise to an interest
sufficient to support intervention as a matter of
right, then legislators would have the right to
participate in every case involving a
constitutional challenge to a state statute. But
Rule 24 is not designed to turn the courtroom
into a forum for political actors who claim
ownership of the laws that they pass. The
legislators’ interest in defending laws that they
supported does not entitle them to intervene as
of right.
One Wis. Inst., Inc. v. Nichol, 310 F.R.D. 394, 397 (W.D.
Wis. 2015).
The Court finds that, because State Defendants in
this action are presently defending the challenged
legislation and have expressed no intention to do
otherwise, Proposed Intervenors have failed to
demonstrate that they have a significantly protectable
interest in likewise defending the constitutionality of
S.B. 824 sufficient to warrant a right to intervene
under Rule 24(a)(2). See Fisher-Borne, 14 F. Supp. 3d
at 703. See also Wayne Land & Mineral Grp., LLC v.
Del. River Basin Comm’n, No. 3:16-CV-00897, 2017 WL
63918, at *4 (M.D. Pa. Jan. 5, 2017) (“Once legislation
is enacted, legislators… do not have a significantly
protectable interest in its implementation to entitle
them to intervene as of right.”); Am. Ass’n of People
with Disabilities v. Herrera, 257 F.R.D. 236, 251–52
(D.N.M. 2008) (concluding that a state senator’s
“interest as a legislator who voted for the [challenged]
statute does not give him a protectable interest under

App. 169
[R]ule 24(a)); Roe v. Casey, 464 F. Supp. 483, 486 (E.D.
Pa. 1978) (finding that a legislator could not intervene
because his interest as a member of the General
Assembly and co-sponsor of the challenged legislation
was insufficient as the court was not addressing
whether the legislation was “duly and lawfully
enacted,” but rather, whether it was constitutional).
2. Risk of Impairment of Interest Absent
Intervention
Proposed Intervenors next contend that disposition
of this case could impair their interests in ensuring
that S.B. 824 “actually takes effect,” and could burden
the General Assembly’s “continuing authority to enact
voting laws.” (ECF No. 8 at 15.) However, because, as
stated above, the Court finds that Proposed Intervenors
have failed to demonstrate that they have a
significantly protectable interest sufficient to warrant
intervention as of right, it necessarily follows that
Proposed Intervenors “cannot s how that this case
threatens to impair any such interests.” One Wisconsin
Inst., 310 F.R.D. at 397.5 “Where no protectable
interest is present, there can be no impairment of the

5

To the extent, however, that Proposed Intervenors’ absence from
this action would impose any conceivable practical disadvantage
on their ability to protect the purported interests of the General
Assembly, this impairment can be significantly alleviated by
Proposed Intervenors’ participation in this action as amicus curiae.
See Ohio Valley Envtl. Coal., 313 F.R.D. at 26 (“[T]he impairment
prong is not met if the would-be intervenor could adequately
protect its interests in the action by participating as amicus
curiae.” (citing McHenry v. Comm’r, 677 F.3d 214, 227 (4th Cir.
2012)).

App. 170
ability to protect it.” Herrera, 257 F.R.D. at 252.
Although the Court’s finding s with respect to the first
and second prongs of Rule 24(a)(2) are dispositive,6
even assuming otherwise, the Court finds that
Proposed Intervenors have likewise failed to
demonstrate that any interests they may have are not
adequately represented by State Defendants.
3. Adequacy of Representation by Existing
Parties
A movant seeking intervention typically bears a
“minimal” burden of showing inadequacy of
representation by an existing party. United Guar.
Residential Ins. Co., 819 F.2d at 475 (quoting Trbovich
v. United Mine Workers, 404 U.S. 528, 538 n.10 (1972)).
However, “[w]hen the party seeking intervention has
the same ultimate objective as a party to the suit, a
presumption arises that its interests are adequately
represented, against which the [movant] must
demonstrate adversity of interest, collusion, or
nonfeasance.” Virginia, 542 F.2d 214 at 216. The
Fourth Circuit has clarified that where defendants are
represented by a government agency, “the putative
intervenor must mount a strong showing of
inadequacy.” Stuart v. Huff, 706 F.3d 345, 352 (4th Cir.
2013). As explained by the Fourth Circuit, “when a
statute comes under attack, it is difficult to conceive of
an entity better situated to defend it than the
government.” Id. at 351. Therefore, “[t]o rebut the

6

See United Guar. Residential Ins. Co., 819 F.2d at 474 (“[I]n order
to successfully intervene, . . . [movant] must meet all three
requirements [of Rule 24(a)].”).

App. 171
presumption of adequacy, Proposed Intervenors must
show either collusion between the existing parties,
adversity of interests between themselves and the
State Defendants, or nonfeasance on the part of the
State Defendants.” United States v. North Carolina,
No. 1:13CV861, 2014 WL 494911, at *3 (M.D.N.C. Feb.
6, 2014) (citing Stuart, 706 F.3d at 350, 352–55). See
also Boothe v. Northstar Realty Fin. Corp., Civil No.
JKB -16-3742, 2019 WL 587419, at *5 (D. Md. Feb. 13,
2019) (“Where the presumption of adequate
representation applies, intervenors have the ‘onerous’
burden of making a compelling showing of the
circumstances in the underlying suit that render the
representation inadequate.” (quoting In re Richman,
104 F.3d at 660)).
Here, where the State, represented by the Attorney
General, is defending this lawsuit, Proposed
Intervenors must “mount a strong showing of
inadequacy” to overcome the presumption of adequate
representation. See Stuart, 706 F.3d at 352. Proposed
Intervenors, however, present no evidence showing
collusion between State Defendants and Plaintiffs. Nor
does the record before the Court reflect nonfeasance on
the part of State Defendants who, in defense of the
lawsuit, have filed separate motions to dismiss or stay
the case. (See ECF Nos. 42, 44.) Thus, it appears that
the gravamen of Proposed Intervenors’ argument is
that there is adversity of interests between State
Defendants and Proposed Intervenors. According to
Proposed Intervenors, “Defendants have made quite
clear that they cannot be trusted to defend S.B. 824 in
the same, rigorous manner as Proposed
Intervenors—and very well might not defend the law at

App. 172
all.” (ECF No. 8 at 16.) Specifically, Proposed
Intervenors contend that: (1) the Governor and
Attorney General’s public statements and litigation
strategy with respect to prior litigation regarding the
constitutionality of a previous voter identification law
shows that they “should not be entrusted with defense
of [S.B. 824”]; (2) the Governor’s veto of S.B. 824 as well
as the accompanying veto message prove the
Governor’s animus towards S.B. 824; (3) State
Defendants will not employ the same litigation strategy
as would Proposed Intervenors; and (4) because the
BOE Defendants were appointed by the Governor, their
interests are automatically adverse to the interests of
Proposed Intervenors. (Id. at 16–20.)
None of these contentions, however, is supported by
sufficient evidence in the record to carry Proposed
Intervenors’ “onerous burden” of rebutting the
presumption that State Defendants will adequately
represent Proposed Intervenors’ interests. See Boothe,
2019 WL 587419, at *5; North Carolina, 2014 WL
494911, at *3. First, Proposed Intervenors’ reliance on
the actions of, and statements by, the Governor and the
Attorney General regarding House Bill 589—a previous
voter identification bill which was ultimately found
unconstitutional by the Fourth Circuit7—is neither
helpful nor relevant to the Court’s determination
whether there is adversity of interests in the present
challenge to the constitutionality of S.B. 824. A review
of the record reflects that, in this matter, State
Defendants are represented by the Attorney General
7

See N.C. State Conference of the NAACP v. McCrory, 831 F.3d 204
(4th Cir. 2016).

App. 173
who, under North Carolina law, is charged with the
duty to represent the State in defense of its existing
laws, including S.B. 824. See N.C. Gen. Stat. § 114-2(1)
(“[I]t shall be the duty of the Attorney General . . . to
appear for the State in any . . . court or tribunal in any
cause or matter, civil or criminal, in which the State
may be a party or interested.”); Gen. Synod of the
United Church of Christ v. Resinger, No.
3:14-cv-00213-MOC-DLH, 2014 WL 5094093, at *3
(W.D.N.C. Oct. 10, 2014) (“North Carolina law makes
it clear that it is the Attorney General who is charged
with ‘shoulder[ing] the responsibility of defending the
fruits of the democratic process.’” (alteration in
original) (quoting Stuart, 706 F.3d at 351)); Martin v.
Thornburg, 359 S.E.2d 472, 479 (N.C. 1987)
(concluding that “the duties of the Attorney General in
North Carolina as prescribed by statutory and common
law include the duty to appear for and to defend the
State or its agencies in all actions in which the State
may be a party or interested”). There is nothing in the
record to suggest that, as to S.B. 824, the Governor or
the Attorney General have abdicated their
responsibility to defend the instant lawsuit. See North
Carolina, 2014 WL 494911, at *3 n.1 (explaining that
despite the Attorney General’s public statements which
“openly opposed and criticized” a law prior to being
signed by the Governor, “the [p]roposed [i]ntervenors
have not demonstrated that the Attorney General will
not fulfill his obligation to aggressively defend laws
duly enacted by the General Assembly”). Rather, State
Defendants dispute Proposed Intervenors’ contention
that neither they nor their counsel—the Attorney
General—are capable of defending this suit, and they
argue that they are “fully capable of performing their

App. 174
duties on behalf of the people of North Carolina.” (ECF
No. 34 at 2; ECF No. 36 at 2.) State Defendants have
also filed separate motions to dismiss Plaintiffs’
Complaint on several grounds.
Second, although Proposed Intervenors point to the
Governor’s written veto message accompanying his
veto of S.B. 824, there is no evidence before the Court
that, since the inception of the instant action, the
Governor has declined to defend the existing law, nor
has the Governor indicated an intention to do so. As
highlighted above, in addition to asserting that he is
capable of defending this lawsuit and performing his
duties on behalf of the State, the Governor has moved
for dismissal of Plaintiffs’ Complaint or, in the
alternative, a stay of the action.
Third, the Court is unpersuaded by Proposed
Intervenors’ contention that there is adversity of
interests because State Defendants will not employ the
same approach to the litigation as would the General
Assembly. It is clear that Proposed Intervenors’
ultimate objective is upholding the constitutionality of
S.B. 824, (see generally ECF Nos. 8, 48), and, as
previously stated, the Attorney General is obligated,
under state law, to defend the constitutionality of the
State’s laws. Therefore, despite their arguments to the
contrary, Proposed Intervenors share the same
objective as State Defendants, namely, defending the
constitutionality of the existing law —S.B. 824. In such
cases where, as here, the ultimate objective is the
same, “disagreement over how to approach the conduct
of the litigation is not enough to rebut the presumption
of adequacy.” Stuart, 706 F.3d at 353 (citing Perry v.

App. 175
Proposition 8 Official Proponents, 587 F.3d 947, 954
(9th Cir. 2009) (“Mere differences in litigation strategy
are not enough to justify intervention as a matter of
right.”)); Boothe, 2019 WL 587419, at *5 (“The fact that
[i]ntervenors may disagree with the existing party’s
litigation strategy does not rebut the presumption of
the existing party’s adequate representation.”); see also
7C Charles A. Wright et al., Federal Practice &
Procedure, § 1909, at 431–35 (3d ed. 2007) (“A mere
difference of opinion concerning the tactics with which
the litigation should be handled does not make
inadequate the representation of those whose interests
are identical with that of an existing party.”).
The Court is further unpersuaded by Proposed
Intervenors’ conclusory speculation that State
Defendants “have neither the same level of interest in
this case nor the same ability and incentive to litigate
it that Proposed Intervenors do,” (ECF No. 8 at 21). In
fact, the Court notes that two of the four affirmative
defenses8 set forth in Proposed Intervenors’ proposed
Answer, (ECF No. 7-1 at 32–33), are invoked by State
Defendants as the grounds upon which they are
seeking dismissal or stay of the action, (ECF Nos. 42,
44.) Specifically, among the affirmative defenses set
forth in their proposed Answer, Proposed Intervenors
assert that: (1) “Plaintiffs’ complaint, in whole or in
part, fails to state a claim upon which relief can be
granted and should be dismissed”; and (2) “[t]he Court

8

Proposed Intervenors’ affirmative defenses also include the
following: (1) “Plaintiffs lack standing to assert the claims in their
Complaint”; and (2) “Plaintiffs’ claims are not ripe.” (ECF No. 7-1
at 32–33.)

App. 176
should abstain from considering Plaintiffs’ claims
regarding voter identification pending resolution of
state-court litigation.” (ECF No. 7-1 at 32–33.)
Similarly, the BOE Defendants are seeking dismissal
of Plaintiffs’ Complaint, in part, pursuant to Rule
12(b)(6) for failure to state a claim, and they are also
requesting that the Court “exercise[ ] its discretion to
abstain [from exercising] federal jurisdiction over
Plaintiffs’ claims. In the alternative, the [BOE]
Defendants . . . request that the Court stay this case
while the parallel state [court] proceedings continue.”
(ECF No. 43 at 13.) The Governor likewise moves for
dismissal of Plaintiffs’ Complaint, in part, pursuant to
Rule 12(b)(6) for failure to state a claim and, in the
alternative, he requests that the Court stay this case
based on abstention grounds pending resolution of
state -court litigation. (ECF No. 45 at 1, 6–21.) Such
similarity in the defenses of Proposed Intervenors and
State Defendants further undermines Proposed
Intervenors’ attempt to rebut the presumption of
adequate representation by showing adverse interests.
See Virginia, 542 F.2d at 216 (explaining that where
the pleadings filed by the proposed intervenor-plaintiff
“have been nearly identical” to those submitted by the
named plaintiff, “[i]t is difficult in light of this fact, to
consider the representation of [the proposed
intervenor-plaintiff’s] interests by [the named
plaintiffs] inadequate”). Thus, without more, Proposed
Intervenors’ subjective belief in their “ability and
incentive to litigate” this action, is insufficient to
satisfy their burden.
Finally, Proposed Intervenors’ assertion that, solely
because the BOE Defendants were appointed by the

App. 177
Governor, they are unable to defend this action lacks
support in the record. Nowhere in the record have BOE
Defendants indicated an intention not to defend this
action. Rather, they dispute Proposed Intervenors’
contention that they are incapable of defending the
lawsuit, (ECF No. 36 at 2), and, as stated above, the
BOE Defendants have moved for dismissal, or in the
alternative, a stay of the instant action pending
completion of parallel state court litigation, (ECF No.
42). Proposed Intervenors have therefore failed to show
adversity of interests between State Defendants and
Proposed Intervenors.
For these reasons, the Court finds that, in addition
to their failure to show collusion between the existing
parties and nonfeasance by State Defendants, Proposed
Intervenors have also failed to show adversity of
interests between themselves and State Defendants.
Accordingly, Proposed Intervenors have failed to
sustain their burden of demonstrating the requisite
“strong showing of inadequacy” to overcome the
presumption of adequate representation by State
Defendants and their counsel, the Attorney General.
Stuart, 706 F.3d at 352. See Virginia, 542 F.2d at 216
(affirming district court’s denial of motion to intervene
where movant failed to “show[ ] adversity of interest
and ha[d] not even attempted to show collusion
between [the parties to the suit;] [n]or [was] there any
indication of nonfeasance”).
The Court recognizes that, having passed S.B. 824,
Proposed Intervenors harbor strong feelings regarding
its constitutionality. However, “not all parties with
strong feelings about or an interest in a case are

App. 178
entitled, as a matter of law, to intervene.” North
Carolina, 2014 WL 494911, at *4. As explained by the
Fourth Circuit,
stronger, more specific interests do not adverse
interests make— and they surely cannot be
enough to establish inadequacy of
representation since would-be intervenors will
nearly always have intense desires that are
more particular than the state’s (or else why
seek party status at all). Allowing such interests
to rebut the presumption of adequacy would
simply open the door to a complicating host of
intervening parties with hardly a corresponding
benefit.
Stuart, 706 F.3d at 353.
In sum, the Court concludes that Proposed
Intervenors have failed to satisfy the ir burden of
demonstrating a right to intervene pursuant to Rule
24(a)(2). As a result, the motion to intervene as of right
will be denied.
C. Permissive Intervention
Alternatively, Proposed Intervenors seek permissive
intervention under Rule 24(b). The decision to grant or
deny permissive intervention “lies within the sound
discretion of the trial court.” Smith v. Pennington, 352
F.3d 884, 892 (4th Cir. 2003) (quoting Hill v. W. Elec.
Co., 672 F.2d 381, 386 (4th Cir. 1982)). The Fourth
Circuit has recognized that trial courts are “in the best
position to evaluate” the effect of intervention on the
management of a case. Stuart, 706 F.3d at 349–50.
Accordingly, the Fourth Circuit has instructed that its

App. 179
“review of any court’s order denying permissive
intervention under . . . Rule 24(b) is particularly
deferential, and a challenge to the court’s discretionary
decision to deny leave to intervene must demonstrate
clear abuse of discretion in denying the motion.”
McHenry v. Comm’r, 677 F.3d 214, 219 (4th Cir. 2012)
(internal quotations and citations omitted). Rule 24(b)
provides that permissive intervention may be allowed
upon timely motion by anyone who “has a claim or
defense that shares with the main action a common
question of law or fact.” Fed. R. Civ. P. 24(b)(1)(B). Rule
24(b) notes that “[i]n exercising its discretion, the court
must consider whether the intervention will unduly
delay or prejudice the adjudication of the original
parties’ rights.” Fed. R. Civ. P. 24(b)(3).
Here, the Court has determined that Proposed
Intervenors’ motion is timely and the Court agrees that
their Proposed Answer reflects defenses which present
common issues of fact and law. While the satisfaction
of these threshold requirements is necessary to grant
permissive intervention, it does not compel such an
outcome. See Fed. R. Civ. P. 24(b)(3); Carcano v.
McCrory, 315 F.R.D. 176, 178 (M.D.N.C. 2016)
(explaining that a movant seeking permissive
intervention “must satisfy three requirements: (1) the
motion is timely; (2) the defenses or counterclaims have
a question of law or fact in common with the main
action; and (3) intervention will not result in undue
delay or prejudice to the existing parties” (emphasis
added)); Diagnostic Devices, Inc. v. Taidoc Tech. Corp.,
257 F.R.D. 96, 100 (W.D.N.C. 2009) (“In exercising its
discretion regarding permissive intervention, the court

App. 180
must consider any delay and prejudice to the original
parties.”).
As stated above, Plaintiffs in this action challenge
the constitutionality of North Carolina’s voter
identification requirements which could have direct
impact on the upcoming election cycle, beginning with
primary elections scheduled in early 2020. The nature
of the claims at issue and the imminence of the election
require a swift resolution on the merits to bring
certainty and confidence to the voting process. The
Court concludes that the addition of Proposed
Intervenors as a party in this action “will hinder,
rather than enhance, judicial economy,” and will
“unnecessarily complicate and delay” the various
stages of this case, to include discovery, dispositive
motions, and trial. One Wis. Inst., 310 F.R.D. at 399,
400. Such delays could therefore jeopardize the Court’s
ability to reach final judgment in advance of the
impending election cycle.
In addition, the Court has significant concern that
the inclusion of Proposed Intervenors would likely
detract from, rather than enhance, the timely
resolution, clarity, and focus on, solely the weighty and
substantive issues to be addressed in this case.
Proposed Intervenors state as their primary reasons for
intervention their belief that: (1) State Defendants
“cannot be trusted to defend [the constitutionality of]
S.B. 824 in the same, rigorous manner as Proposed
Intervenors”; and (2) State Defendants represented by
the Attorney General “have neither the same level of
interest in this case nor the same ability and incentive
to litigate it that Proposed Intervenors do.” (See ECF

App. 181
No. 8 at 16, 21.) As earlier found by this Court, neither
contention is supported by evidence in the record.
Thus, the Court concludes that allowing this requested
intervention could place additional burden on the Court
in expending unnecessary judicial resources on such
contentions. Further, Plaintiffs will likely suffer
prejudice in having to address dueling defendants,
purporting to all represent the interest of the State,
along with their multiple litigation strategies. To the
extent that Proposed Intervenors have special expertise
they believe that they bring to the defense of S.B. 824,
such expertise can be provided through the submission
of amicus briefs.
Given these circumstances and the fact that, at this
stage, the Court has no reason to believe that State
Defendants will refrain from its defense of this lawsuit,
“[t]he Court sees no benefit [in] allowing additional
government actors represented by outside counsel to
intervene in the case [to] defend the constitutionality of
[S.B. 824].” Ansley v. Warren, No. 1:16cv54, 2016 WL
3647979, at *3 (W.D.N.C. July 7, 2016). Accordingly,
the Court will, in its discretion, deny Proposed
Intervenors’ motion for permissive intervention under
Rule 24(b).
III.

CONCLUSION

Although, for the reasons discussed above, the
Court will deny Proposed Intervenors’ Motion to
Intervene, “[i]n the event [Proposed Intervenors]
conclude that they have a unique contention to make,
or that the State Defendants have not raised an
appropriate argument,” they may participate by filing
an amicus curiae brief. North Carolina, 2014 WL

App. 182
494911, at *5; see also Alexander v. Hall, 64 F.R.D. 152,
155 (D.S.C. 1974) (“[I]t is solely within the discretion of
the court to determine the fact, extent, and manner of
participation by the amicus.” (citing N. Sec. Co. v.
United States, 191 U.S. 555 (1903))). “While a would-be
intervenor may prefer party status to that of
friend-of-court, the fact remains that amici often make
useful contributions to litigation.” Stuart, 706 F.3d at
355. In addition, should it become apparent during the
litigation that State Defendants no longer intend to
defend this lawsuit, the Court will entertain a renewed
Motion to Intervene by Proposed Intervenors.
For the reasons outlined herein, the Court enters
the following:
ORDER
IT IS THEREFORE ORDERED that the Motion to
Intervene by Hon. Philip E. Berger, in his official
capacity as President Pro Tempore of the North
Carolina Senate, and Hon. Timothy K. Moore, in his
official capacity as Speaker of the North Carolina
House of Representatives, (ECF No. 7), is DENIED
without prejudice to the motion being renewed if it can
be demonstrated that State Defendants have in fact
declined to defend the instant lawsuit, and that all
requirements for intervention have been satisfied
pursuant to Rule 24 of the Federal Rules of Civil
Procedure.
IT IS FURTHER ORDERED that Proposed
Intervenors are permitted to participate in this action
by filing amicus curiae briefs.

App. 183
This, the 3rd day of June, 2019.
/s/ Loretta C. Biggs _________
United States District Judge

App. 184

APPENDIX F
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT
OF NORTH CAROLINA
1:18CV1034
[Filed November 7, 2019]
_______________________________________________
NORTH CAROLINA STATE CONFERENCE
OF THE NAACP, CHAPEL HILL—CARRBORO
NAACP, GREENSBORO NAACP, HIGH POINT
NAACP, MOORE COUNTY NAACP, STOKES
COUNTY BRANCH OF THE NAACP, WINSTONSALEM—FORSYTH COUNTY NAACP,
Plaintiffs,
v.
ROY ASBERRY COOPER III, in his official
capacity as the Governor of North Carolina;
ROBERT CORDLE, in his official capacity as
Chair of the North Carolina State Board of
Elections; STELLA ANDERSON, in her
official capacity as Secretary of the North
Carolina State Board of Elections;
KENNETH RAYMOND, JEFFERSON
CARMON III, and DAVID C. BLACK, in their

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

App. 185
official capacities as members of the North
Carolina State Board of Elections,

)
)
)
Defendants.
)
_______________________________________________ )
MEMORANDUM OPINION AND ORDER
LORETTA C. BIGGS, District Judge.
Before the Court is a motion captioned “Renewed
Motion to Intervene,” (ECF No. 60), by Philip E.
Berger, in his official capacity as President Pro
Tempore of the North Carolina Senate, and Timothy K.
Moore, in his official capacity as Speaker of the North
Carolina House of Representatives (collectively,
“Proposed Intervenors”). For the reasons that follow,
the motion will be denied.
I.

BACKGROUND

Plaintiffs initiated this action on December 20,
2018, challenging the constitutionality of specific
provisions of Senate Bill 824 (“S.B. 824”), “An Act to
Implement the Constitutional Amendment Requiring
Photographic Identification to Vote.”1 (See ECF Nos. 1;
8-2 at 2.) On January 14, 2019, Proposed Intervenors
filed a motion to intervene on behalf of the General
Assembly, seeking intervention as of right pursuant to
Federal Rule of Civil Procedure 24(a) or, alternatively,

1

The legislative origins of S.B. 824 and the early procedural
history of the instant suit are adequately set out in this Court’s
June 3, 2019 order (the “June 3rd order”) denying Proposed
Intervenors’ motion to intervene. (See ECF No. 56 at 2–4.)

App. 186
permissive intervention pursuant to Rule 24(b). (See
ECF Nos. 7; 8 at 2.) In its June 3rd order, this Court
denied that motion, but did so without prejudice to the
motion being renewed “if it [could] be demonstrated
that State Defendants have in fact declined to defend
the instant lawsuit.”2 (ECF No. 56 at 23). The June 3rd
order was not appealed within the time required and,
therefore, remains the law of this case. See
Christianson v. Colt Indus. Operating Corp., 486 U.S.
800, 815–16 (1988); Smith v. SEECO, Inc., 922 F.3d
398, 404 (8th Cir. 2019).
On July 19—just six weeks after the Court denied
their motion to intervene—Proposed Intervenors filed
the instant motion, contending that the Defendant
State Board of Election’s (the “State Board”) conduct in
this case and a related state-court case, Holmes v.
Moore, No. 18-cv-15292 (N.C. Super. Ct.), had made it
“apparent that the State Board will decline to defend
adequately, if at all, the key claim in this lawsuit.”
(ECF Nos. 60; 61 at 6–7, 9.) On September 17,
Proposed Intervenors informed this Court that, in the
event their renewed motion was not decided by
September 20, they would treat the Court’s silence as
a “de facto denial of their motion.” (ECF No. 71 at 4.)
No decision was issued, and on September 23 Proposed
Intervenors filed a notice of appeal from the

2

Proposed Intervenors were granted the right to participate as
amici curiae. (ECF No. 56 at 23.) Determination of the extent and
manner of that participation is solely within the Court’s discretion.
See Smith v. Pinion, No. 1:10-CV-29, 2013 WL 3895035, at *1
(M.D.N.C. July 29, 2013) (citing United States v. Michigan, 940
F.2d 143, 164–65 (6th Cir. 1991)).

App. 187
self-declared “de facto denial of their Renewed Motion
to Intervene.” (ECF No. 74 at 2.) On September 26,
Proposed Intervenors further filed a petition for writ of
mandamus, asking the Fourth Circuit to order this
Court to allow intervention. (ECF No. 81 at 2.) The
Fourth Circuit summarily dismissed both the
interlocutory appeal and the mandamus petition on
October 8. (ECF Nos. 88, 90.)
The State Board of Elections neither consents nor
objects to the instant motion, but remains adamant
that it is “ready to defend the constitutionality of [S.B.
824].” (ECF No. 65 at 2.) Plaintiffs, on the other hand,
oppose the instant motion on the grounds that “no
[newly] relevant facts or circumstances” have arisen in
the time since the earlier denial, and that the Court’s
reasons for denying permissive intervention “apply
with even greater force now.” (ECF No. 66 at 14–15,
20.)
II.

DISCUSSION

In support of this motion, Proposed Intervenors
state that they “continue to believe that they were
entitled to intervene as of right based on the
arguments made in their prior briefing to the Court.”
(ECF No. 61 at 16 n.1.) They further argue that they
“reserve the right to challenge the Court’s rejection of
those arguments on appeal.” (Id.) It is clear that
Proposed Intervenors misapprehend the status and
posture of this case. This Court’s Rule 24(a) analysis,
set out extensively in its June 3rd order denying
Proposed Intervenors’ motion to intervene, remains
undisturbed. Proposed Intervenors had the opportunity
to appeal the Court’s denial order; they failed to do so.

App. 188
This Court has ruled, and the arguments addressed
in its June 3rd denial order will not again be addressed
here.3 See SEECO, 922 F.3d at 404 (explaining that
“[t]he denial of a second motion to intervene covering
the same grounds as the first . . . does not restart the
clock for purposes of an appeal”). Rather this Court will
only consider whether Proposed Intervenors have
presented evidence, newly available, that speaks to the
narrow exception outlined in its prior order: that which
“demonstrate[s] that [the State Board] ha[s] in fact
declined to defend the instant lawsuit.” (ECF No. 56 at
23.)

3

Nor does Supreme Court’s recent decision in Virginia House of
Delegates v. Bethune-Hill, which reaffirmed states’ prerogative to
“designate agents to represent them in federal court,” change the
calculus. 139 S. Ct. 1945, 1951 (2019). Proposed Intervenors
argue that North Carolina law “undoubtedly” assigns them as the
State’s agents in this case. (See ECF No. 61 at 17–18.) However,
it is far from clear whether Proposed Intervenors are authorized
to intervene when the State Board and Attorney General are
already defending a suit in federal court. Compare N.C. Gen. Stat.
§ 1-72.2(a) (“a federal court . . . is requested to allow both the
legislative branch and executive branch” to participate) (emphasis
added) and § 120-32.6(b) (“Whenever the validity or
constitutionality of an act of the General Assembly” is the subject
of an action in federal court, “[Proposed Intervenors] shall be
necessary parties . . . .”) with § 114-2 (it is the Attorney General’s
duty “to appear for the State [and] represent all State
departments” and organizations). Ultimately, it is this Court’s
obligation to determine whether each of the requirements for
intervention as of right have been satisfied under federal law. See
Virginia v. Westinghouse Elec. Corp., 542 F.2d 214, 216 (4th Cir.
1976). So long as the State Board and Attorney General are
defending this suit, this Court’s intervention-as-of-right analysis
remains unchanged. (See ECF No. 56 at 9–11.)

App. 189
This Court previously explained that Proposed
Intervenors’ “subjective belief in [the State Board’s]
ability and incentive to litigate this action” is
insufficient to support their claim to intervention as of
right. (Id. at 18.) However, Proposed Intervenors now
argue that the State Board’s recent conduct in both this
case and Holmes amounts to something more—hard
evidence of an “unwillingness to robustly defend S.B.
824.” (ECF No. 61 at 20.) As detailed below, it is
abundantly clear that the State Board is actively and
adequately defending this lawsuit. Nevertheless, the
Court will evaluate Proposed Intervenors’ new
allegations.
A. The Executive Branch Is Defending This
Lawsuit
Proposed Intervenors contend that “the executive
branch has declined to robustly and fully defend S.B.
824 in this suit.” (Id. at 19.) A review of the proceedings
suggests otherwise. From the outset, the State Board
has consistently “denied all substantive allegations of
unconstitutionality” in this case. (See ECF Nos. 59; 65
at 6–7.) As one of its first actions, the Board moved to
dismiss the suit on federalism grounds; had it
succeeded, that motion would have brought this case to
a temporary or complete halt. (ECF No. 57 at 6–11.)
Further, the Board recently filed an expansive brief
opposing Plaintiffs’ motion for preliminary injunction
on the merits. (See ECF No. 97 at 18–43.) In sum, it is
clear to this Court that, at present, the State Board
and Attorney General are “meeting [their] duty to
defend this action.” (ECF No. 65 at 10.) Proposed

App. 190
Intervenors have offered no real evidence to the
contrary.
B. The Litigation Choices in Holmes Do Not
Indicate a Failure to Defend
Proposed Intervenors urge the Court to look outside
of this suit, arguing that the Board’s litigation choices
in Holmes are predictive of how its defense strategy
will ultimately develop here. (See ECF No. 61 at 20.)
Proposed Intervenors do not point to a single case
suggesting that a defendant’s performance—whether
adequate, inadequate, or otherwise—in one lawsuit
invites intervention in another. Further, the Court
finds no merit in Proposed Intervenors’ argument that
it should draw inferences about how the State Board
will act when, as here, the parties, claims, and forums
in the two cases are all distinct.4 (See ECF No. 65-3.)
Even so, Proposed Intervenors highlight three
litigation choices in Holmes which, they contend,
demonstrate the State Board’s refusal to adequately
defend S.B. 824. The Court will address each in turn.
First, Proposed Intervenors note that the State
Board only moved to dismiss five of the six claims
brought by the plaintiffs in Holmes. (ECF Nos. 61 at
20; 65 at 7.) They argue that this effort was inadequate
because the remaining claim—that the General

4

In Holmes, Proposed Intervenors are original named defendants
alongside the State Board; the plaintiffs’ claims allege violations
of the North Carolina Constitution; and the case is being heard by
a three-judge, superior-court panel specifically constituted to
adjudicate facial challenges to state laws. (See ECF No. 65-3); see
generally N.C. Gen. Stat. § 1-267.1(b1).

App. 191
Assembly enacted an intentionally discriminatory law
in S.B. 824—is “the key claim in both Holmes and the
instant suit.” (ECF No. 61 at 20.) However, the decision
not to file a motion to dismiss the intentional
discrimination claim fell well within the range of
reasonable litigation strategies. As explained in this
Court’s June 3rd order, mere strategic disagreements
are “not enough to rebut the presumption of adequacy.”
(ECF No. 56 at 16–17 (citing Stuart v. Huff, 706 F.3d
345, 353 (4th Cir. 2013)).) Further, as it turns out, of
the two dismissal strategies adopted in Holmes, the
State Board’s approach seems to have been the wiser:
The three-judge panel agreed to dismiss every claim
except the intentional discrimination claim, despite
Proposed Intervenors having so moved.5 (See ECF No.
65-3 at 6.)
Second, Proposed Intervenors assert that the State
Board “failed to mount any substantive defense to the
plaintiffs’ preliminary injunction motion” in Holmes.
(ECF No. 61 at 6.) The three-judge panel ultimately
denied the Holmes plaintiffs’ request; an outcome that

5

Proposed Intervenors further argue that the State Board’s failure
to move for dismissal of the intentional-discrimination claim is
“especially problematic” because “it is the claim that prevailed
against the State’s prior voter ID law.” (See ECF No. 61 at 20
(citing North Carolina State Conf. of NAACP v. McCrory, 831 F.3d
204, 214 (4th Cir. 2016)).) However, by that same logic, the State
Board could have reasonably understood that a motion to dismiss
the intentional-discrimination claim in Holmes was unlikely to
succeed (and, ultimately, did not succeed).
Under these
circumstances, it would be wrong to draw any negative inferences
from the State Board choosing to conserve resources and stay its
hand.

App. 192
Proposed Intervenors attribute to their own vigorous
advocacy. (Id. at 13; ECF No. 65-3 at 7.) However, the
State Board also filed a written brief and participated
in oral argument in opposition to the plaintiffs’ motion
for a preliminary injunction. (See ECF Nos. 61-14 at
10–14; 65 at 7.) Proposed Intervenors present no
compelling evidence that their advocacy alone was
responsible for the outcome; the panel’s one-sentence
explanation of its reasoning simply stated that
“Plaintiffs have failed to demonstrate a likelihood of
success on the merits.” (ECF No. 65-3 at 7.)
Furthermore, while a “primary objective” of the State
Board in opposing the preliminary injunction was to
“expediently obtain clear guidance on what law, if any,
will need to be enforced,” (ECF No. 61-14 at 14), there
is simply no evidence that it abandoned the goal of
“defend[ing] the constitutionality” of S.B. 824, (ECF
No. 65 at 2). See also Stuart, 706 F.3d at 354 (“It was
eminently reasonable for the Attorney General to
believe that the interests of North Carolina’s citizens
would best be served by an expeditious final
ruling . . . .”).
Last, according to Proposed Intervenors, the State
Board’s approach to discovery in Holmes was sorely
deficient. (ECF Nos. 61 at 21; 61-8 at 4.) While it does
not indicate the extent of its participation, the State
Board has stated that it “participated in extensive fact
discovery.” (ECF No. 65 at 7.) Given Proposed
Intervenors’ active role in the Holmes discovery, it was
entirely reasonable for the State Board to focus its
energies elsewhere. Further, there is no indication that
the State Board will take a hands-off approach in the
instant case. Rather, the parties recently submitted

App. 193
their Joint Report pursuant to Federal Rule of Civil
Procedure 26(f) and discovery appears to be proceeding
normally. (ECF No. 77.)
In sum, Proposed Intervenors have failed to present
evidence sufficient to warrant reconsideration of this
Court’s prior order. Having reviewed the State Board’s
chosen course of defense in Holmes, this Court cannot
conclude that it was inadequate, unreasonable, or in
any way relevant to how this case is likely to proceed.
Accordingly, Holmes provides no sound basis on which
to speculate—and it would be speculation only—that
the State Board and Attorney General will abandon
their duty to defend S.B. 824 in this case.
C. Permissive Intervention
The decision to grant or deny permissive
intervention “lies within the sound discretion of the
trial court,” which is “in the best position to evaluate”
the effect of intervention on the management of a case.
See Stuart, 706 F.3d at 349–50; Smith v. Pennington,
352 F.3d 884, 892 (4th Cir. 2003).
In its June 3rd order denying the motion to
intervene, this Court concluded that the addition of
Proposed Intervenors as defendants would “hinder,
rather than enhance, judicial economy” and
“unnecessarily complicate and delay” the progression of
this case. (See ECF No. 56 at 21 (citing One Wis. Inst.,
Inc. v. Nichol, 310 F.R.D. 394, 399–400 (W.D. Wis.
2015)).) Far from relieving those concerns, Proposed
Intervenors’ actions—prematurely filing the instant
motion which, as before, is based on the subjective
belief that their litigation strategy is superior to that of

App. 194
the State Board; deciding for themselves, without any
basis in law or fact, that a “de facto denial” of this
motion had occurred; initiating an appeal on that
improper basis; and seeking the extraordinary remedy
of mandamus—has further convinced this Court that
intervention would only distract from the pressing
issues in this case. Accordingly, the Court sees no basis
to likewise revisit its denial of permissive intervention,
and Proposed Intervenors’ request for it to do so will be
denied.
For the reasons outlined herein, the Court enters
the following:
ORDER
IT IS THEREFORE ORDERED that the motion
captioned “Renewed Motion to Intervene” by Philip E.
Berger, in his official capacity as President Pro
Tempore of the North Carolina Senate, and Timothy K.
Moore, in his official capacity as Speaker of the North
Carolina House of Representatives, (ECF No. 60), is
DENIED WITH PREJUDICE.
IT IS FURTHER ORDERED that, as outlined in its
June 3rd order, Proposed Intervenors are permitted to
participate in this action by filing amicus curiae briefs.
This, the 7th day of November 2019.
/s/ Loretta C. Biggs _________
United States District Judge

App. 195

APPENDIX G
STATUTORY PROVISIONS INVOLVED
Federal Rules of Civil Procedure Rule 24
Rule 24. Intervention
Currentness
(a) Intervention of Right. On timely motion, the
court must permit anyone to intervene who:
(1) is given an unconditional right to intervene by
a federal statute; or
(2) claims an interest relating to the property or
transaction that is the subject of the action, and is
so situated that disposing of the action may as a
practical matter impair or impede the movant’s
ability to protect its interest, unless existing parties
adequately represent that interest.
(b) Permissive Intervention.
(1) In General. On timely motion, the court may
permit anyone to intervene who:
(A) is given a conditional right to intervene by a
federal statute; or
(B) has a claim or defense that shares with the
main action a common question of law or fact.
(2) By a Government Officer or Agency. On
timely motion, the court may permit a federal or

App. 196
state governmental officer or agency to intervene if
a party’s claim or defense is based on:
(A) a statute or executive order administered by
the officer or agency; or
(B) any regulation, order, requirement, or
agreement issued or made under the statute or
executive order.
(3) Delay or Prejudice. In exercising its
discretion, the court must consider whether the
intervention will unduly delay or prejudice the
adjudication of the original parties’ rights.
(c) Notice and Pleading Required. A motion to
intervene must be served on the parties as provided in
Rule 5. The motion must state the grounds for
intervention and be accompanied by a pleading that
sets out the claim or defense for which intervention is
sought.

App. 197
N.C.G.S.A. § 1-72.2
§ 1-72.2. Standing of legislative officers
Effective: June 28, 2017
Currentness
(a) It is the public policy of the State of North Carolina
that in any action in any North Carolina State court in
which the validity or constitutionality of an act of the
General Assembly or a provision of the North Carolina
Constitution is challenged, the General Assembly,
jointly through the Speaker of the House of
Representatives and the President Pro Tempore of the
Senate, constitutes the legislative branch of the State
of North Carolina and the Governor constitutes the
executive branch of the State of North Carolina, and
when the State of North Carolina is named as a
defendant in such cases, both the General Assembly
and the Governor constitute the State of North
Carolina. It is the public policy of the State of North
Carolina that in any action in any federal court in
which the validity or constitutionality of an act of the
General Assembly or a provision of the North Carolina
Constitution is challenged, the General Assembly,
jointly through the Speaker of the House of
Representatives and the President Pro Tempore of the
Senate, constitutes the legislative branch of the State
of North Carolina; the Governor constitutes the
executive branch of the State of North Carolina; that,
when the State of North Carolina is named as a
defendant in such cases, both the General Assembly
and the Governor constitute the State of North
Carolina; and that a federal court presiding over any
such action where the State of North Carolina is a

App. 198
named party is requested to allow both the legislative
branch and the executive branch of the State of North
Carolina to participate in any such action as a party.
(b) The Speaker of the House of Representatives and
the President Pro Tempore of the Senate, as agents of
the State, by and through counsel of their choice,
including private counsel, shall jointly have standing to
intervene on behalf of the General Assembly as a party
in any judicial proceeding challenging a North Carolina
statute or provision of the North Carolina Constitution.
Intervention pursuant to this section shall be effected
upon the filing of a notice of intervention of right in the
trial or appellate court in which the matter is pending
regardless of the stage of the proceeding.
Notwithstanding any other provision of law to the
contrary, the participation of the Speaker of the House
of Representatives and the President Pro Tempore of
the Senate in any action, State or federal, as a party or
otherwise, shall not constitute a waiver of legislative
immunity or legislative privilege of any individual
legislator or legislative officer or staff of the General
Assembly.

App. 199
N.C.G.S.A. § 114-2
§ 114-2. Duties
Effective: July 1, 2017
Currentness
Pursuant to Section 7(2) of Article III of the North
Carolina Constitution, it shall be the duty of the
Attorney General:
(1) To defend all actions in the appellate division in
which the State shall be interested, or a party, and
to appear for the State in any other court or
tribunal in any cause or matter, civil or criminal, in
which the State may be a party or interested. The
duty to represent the State in criminal appeals shall
not be delegated to any district attorney’s office or
any other entity.
(2) To represent all State departments, agencies,
institutions, commissions, bureaus or other
organized activities of the State which receive
support in whole or in part from the State. Where
the Attorney General represents a State
department, agency, institution, commission,
bureau, or other organized activity of the State
which receives support in whole or in part from the
State, the Attorney General shall act in
conformance with Rule 1.2 of the Rules of
Professional Conduct of the North Carolina State
Bar.
(3) Repealed by Laws 1973, c. 702, § 2.

App. 200
(4) To consult with and advise the prosecutors,
when requested by them, in all matters pertaining
to the duties of their office.
(5) To give, when required, his opinion upon all
questions of law submitted to him by the General
Assembly, or by either branch thereof, or by the
Governor, Auditor, Treasurer, or any other State
officer.
(6) To pay all moneys received for debts due or
penalties to the State immediately after the receipt
thereof into the treasury.
(7) To compare the warrants drawn on the State
treasury with the laws under which they purport to
be drawn.
(8) Subject to the provisions of G.S. 62-20:
a. To intervene, when he deems it to be
advisable in the public interest, in
proceedings before any courts, regulatory
officers, agencies and bodies, both State and
federal, in a representative capacity for and
on behalf of the using and consuming public
of this State. He shall also have the authority
to institute and originate proceedings before
such courts, officers, agencies or bodies and
shall have authority to appear before
agencies on behalf of the State and its
agencies and citizens in all matters affecting
the public interest.
b. Upon the institution of any proceeding before
any State agency by application, petition or

App. 201
other pleading, formal or informal, the
outcome of which will affect a substantial
number of residents of North Carolina, such
agency or agencies shall furnish the Attorney
General with copies of all such applications,
petitions and pleadings so filed, and, when
the Attorney General deems it advisable in
the public interest to intervene in such
proceedings, he is authorized to file
responsive pleadings and to appear before
such agency either in a representative
capacity in behalf of the using and
consuming public of this State or in behalf of
the State or any of its agencies.
(9) To notify the Speaker of the House of
Representatives and the President Pro Tempore of
the Senate whenever an action is filed in State or
federal court that challenges the validity of a North
Carolina statute or provision of the North Carolina
Constitution under State or federal law.
(10) Pursuant to G.S. 120-32.6, to represent upon
request and otherwise abide by and defer to the
final decision-making authority exercised by the
Speaker of the House of Representatives and the
President Pro Tempore of the Senate, as agents of
the State through the General Assembly, in
defending any State or federal action challenging
the validity or constitutionality of an act of the
General Assembly or a provision of the North
Carolina Constitution. If for any reason the
Attorney General cannot perform the duty specified
herein, the Attorney General may recuse personally

App. 202
from such defense but shall appoint another
attorney employed by the Department of Justice to
act at the direction of the Speaker of the House of
Representatives and the President Pro Tempore of
the Senate.

App. 203
N.C.G.S.A. § 120-32.6
§ 120-32.6. Certain employment authority
Effective: July 1, 2017
Currentness
(a) Use of Private Counsel.--G.S. 114-2.3, 143C-6-9(b),
and 147-17 (a) through (c1) shall not apply to the
General Assembly.
(b) General Assembly Acting on Behalf of the State of
North Carolina in Certain Actions.-- Whenever the
validity or constitutionality of an act of the General
Assembly or a provision of the Constitution of North
Carolina is the subject of an action in any State or
federal court, the Speaker of the House of
Representatives and the President Pro Tempore of the
Senate, as agents of the State through the General
Assembly, shall be necessary parties and shall be
deemed to be a client of the Attorney General for
purposes of that action as a matter of law and pursuant
to Section 7(2) of Article III of the North Carolina
Constitution. In such cases, the General Assembly
shall be deemed to be the State of North Carolina to
the extent provided in G.S. 1-72.2(a) unless waived
pursuant to this subsection. Additionally, in such cases,
the General Assembly through the Speaker of the
House of Representatives and President Pro Tempore
of the Senate jointly shall possess final
decision-making authority with respect to the defense
of the challenged act of the General Assembly or
provision of the North Carolina Constitution. In any
such action, the General Assembly, through the
Speaker of the House of Representatives and the

App. 204
President Pro Tempore of the Senate, may waive such
representation and decline to participate in the action
by written notice to the Attorney General.
(c) General Assembly Counsel Shall Be Lead
Counsel.--In those instances when the General
Assembly employs counsel in addition to or other than
the Attorney General, the Speaker of the House of
Representatives and the President Pro Tempore of the
Senate may jointly designate the counsel employed by
the General Assembly as lead counsel in the defense of
the challenged act of the General Assembly or provision
of the North Carolina Constitution. The lead counsel so
designated shall possess final decision-making
authority with respect to the representation, counsel,
or service for the General Assembly. Other counsel for
the General Assembly shall, consistent with the Rules
of Professional Conduct, cooperate with such
designated lead counsel.
(d) The rights provided by this section shall be
supplemental to those provided by any other provision
of law.
(e) Notwithstanding any other provision of law, the
participation of the Speaker of the House of
Representatives and the President Pro Tempore of the
Senate in any action challenging the validity of a North
Carolina statute or provision of the North Carolina
Constitution under State or federal law, as a party or
otherwise, shall not constitute a waiver of legislative
immunity or legislative privilege of any individual
legislator or legislative officer or staff of the General
Assembly.

